  AUDIT OF DEPARTMENT OF 

JUSTICE CONFERENCE PLANNING 

AND FOOD AND BEVERAGE COSTS 


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 11-43 

    Originally Issued September 2011 

   Revised Version Issued October 2011

                                          U.S. Department of Justice
                                          Office of the Inspector General
        

                                          Washington, D.C. 20530

                     Preface to the Revised Report

      This revised report supersedes the original version of the Office of
the Inspector General’s (OIG) report, “Audit of Department of Justice
Conference Planning and Food and Beverage Costs,” Audit Report 11-43,
published in September 2011. The original report, which examined event
planning and food and beverage costs at 10 Department of Justice (the
Department) conferences between October 2007 and September 2009,
contained a discussion of costs for food and beverages purchased for an
Executive Office for Immigration Review (EOIR) conference at the Capital
Hilton in Washington, D.C., in August 2009. Among other things, the
report concluded that the EOIR had spent $4,200 for 250 muffins, or $16
per muffin, a finding that brought significant negative publicity to the
Department and the Capital Hilton.

      After publication of the report, we received additional documents
and information concerning the food and beverage costs at the EOIR
conference. After further review of the newly provided documentation and
information, and after discussions with the Capital Hilton and the
Department, we determined that our initial conclusions concerning the
itemized costs of refreshments at the EOIR conference were incorrect and
that the Department did not pay $16 per muffin. We have therefore
revised the report based on these additional documents and deleted
references to any incorrect costs. We regret the error in our original
report.

      Finally, we hope that our correction of the record for this 1
conference among the 10 conferences we reviewed does not detract from
the more significant conclusion in our report: government conference
expenditures must be managed carefully, and the Department can do
more to ensure that taxpayer dollars are spent wisely and accounted for
properly.
This page is intentionally left blank.
       AUDIT OF DEPARTMENT OF JUSTICE CONFERENCE

         PLANNING AND FOOD AND BEVERAGE COSTS 


                            EXECUTIVE SUMMARY


       Department of Justice (DOJ) components host and participate in
conferences to work with officials from other DOJ and federal entities, state
and local law enforcement agencies, Native American and Alaskan Native
tribes, and non-profit organizations. A DOJ Office of the Inspector General
(OIG) audit issued in September 2007 examined expenditures for 10 major
DOJ conferences held between October 2004 and September 2006.1 The
audit found that DOJ had few internal controls to limit the expense of
conference planning and food and beverage costs at DOJ conferences. We
identified several conference expenditures that were allowable but appeared
to be extravagant. For example, one conference had a luncheon for 120
attendees that cost $53 per person, and another conference had a $60,000
reception that included platters of Swedish meatballs at a cost of nearly $5
per meatball. The audit further found that DOJ components permitted event
planners to charge a wide array of costs for logistical services, such as venue
selection and hotel negotiations. We made 14 recommendations intended to
help the Justice Management Division (JMD) and other DOJ components
implement stronger oversight of conference expenditures. In response to
these recommendations, JMD implemented guidelines in April 2008 that
established DOJ-wide conference food and beverage spending limits based
on meals and incidental expenses (M&IE) rates set by the General Services
Administration (GSA).

      Since 2008, DOJ appropriation acts have required that the Office of the
Attorney General report conference costs quarterly.2 For fiscal years
(FY) 2008 and 2009, DOJ reported that it hosted or participated in 1,832
conferences. As shown in the exhibit below, the reports detailed that the
conference activity over these 2 years cost a total of $121 million.


      1
        U.S. Department of Justice Office of the Inspector General, Department of Justice
Conference Expenditures, Audit Report 07-42 (September 2007).
      2
          The Attorney General must submit quarterly reports to the DOJ Inspector General
regarding the costs and contracting procedures for each conference held by DOJ for which
the cost to the government was more than $20,000. Pub. L. No. 110-161 § 218 (2008) and
Pub. L. No. 111-8 § 215 (2009). The Attorney General has delegated the responsibility to
compile these reports to the Finance Staff of the Justice Management Division (JMD). Each
component therefore submits to JMD a quarterly report of its respective conference costs.


                                             i
                                          REPORTED DOJ CONFERENCE COSTS 

                                                 FYs 2005 TO 2009 


                                80
                                                                                          73.3
                                70

                                60
       Amount ($ in millions)




                                50                   45.9                    47.8

                                         40.2
                                40

                                30

                                20

                                10
                                                                     N/A
                                 0
                                         2005        2006        2007*       2008        2009
                                                               Fiscal Year


    Source:                          DOJ component conference expenditures reports. Conference cost reports
                                     for FYs 2005 and 2006 were completed at the request of the U.S. Senate
                                     Committee on Homeland Security and Governmental Affairs, Subcommittee
                                     on Federal Financial Management, Government Information and
                                     International Security. Conference cost reports for FYs 2008 and 2009
                                     were issued through DOJ appropriation act requirements.
    Note:                            DOJ did not compile conference expenditure reports for FY 2007 because
                                     there were no requests from Congress or legislative requirements to
                                     compile and report this information.

OIG Audit Approach

      For this audit, the OIG reviewed a judgmental sample of 10 DOJ
conferences that occurred between October 2007 and September 2009 to
determine whether DOJ components properly accounted for and minimized
costs of conference planning, meals, and refreshments. The 10 sampled
conferences cost $4.4 million, as detailed in the following exhibit.




                                                                ii
                                                     LIMITED OFFICIAL USE



                                        DOJ CONFERENCES SELECTED FOR REVIEW3

                                                                                                                          Total Cost
       Sponsoring Component(s)                           Conference Title                          Location - Dates          ($)*
Criminal Division and the Organized Crime OCDETF National Leadership Conference                Washington, D.C.
                                                                                                                             360,185
Drug Enforcement Task Force (OCDETF)      (OCDETF National Conference)                         July 20 – 23, 2009
                                          International Drug Enforcement Conference            Istanbul, Turkey
Drug Enforcement Administration (DEA)                                                                                      1,181,902
                                          (DEA IDEC)                                           July 8 – 10, 2008
Executive Office for Immigration Review   Legal and Interpreters Training Conference           Washington, D.C.
                                                                                                                             688,904
(EOIR)                                    (EOIR Legal Conference)                              Aug. 3 – 7, 2009
Executive Office for U.S. Attorneys       2008 U.S. Attorneys National Conference              Washington, D.C.
                                                                                                                             259,648
(EOUSA)                                   (EOUSA National Conference)                          Feb. 11 – 14, 2008
                                          Director’s Advisory Committee Symposium              Washington, D.C.
Federal Bureau of Investigation (FBI)                                                                                        302,428
                                          (FBI Director’s Symposium)                           April 14 – 16, 2009
Office of Justice Programs (OJP), Bureau
of Justice Assistance (BJA) and Office of Indian Country Sex Offender Pre-Conference
                                                                                               Palm Springs, CA
Sex Offender Sentencing, Monitoring,      Institute (BJA and SMART Office Indian                                              90,201
                                                                                               Dec. 10, 2008
Apprehending, Registering, and Tracking   Country Pre-Conference)
(SMART Office) (Co-sponsors)
                                          11th National Indian Nations Conference              Palm Springs, CA
OJP, Office for Victims of Crime (OVC)                                                                                       583,392
                                          (OVC Indian Nations Conference)                      Dec. 11 – 13, 2008
                                                                                               Palm Springs, CA
OJP, BJA                                      BJA Walking on Common Ground II                                                132,222
                                                                                               Dec. 9 – 10, 2008
                                              America’s Missing: Broadcast Emergency
OJP, Office of Juvenile Justice and                                                            Denver, CO
                                              Response (AMBER) Alert National Conference                                     657,773
Delinquency Prevention (OJJDP)                                                                 Nov. 13 – 16, 2007
                                              (OJJDP AMBER Alert Conference)
                                              Enhancing Judicial Skills in Domestic Violence
                                                                                               San Francisco, CA
Office on Violence Against Women (OVW)        Cases Workshop (OVW Enhancing Judicial                                         148,877
                                                                                               March 28 – April 1, 2009
                                              Skills Workshop)
                                                                                                           TOTAL $4,405,532
 Source: 	FY 2008 and 2009 DOJ conference expenditure reports
 Note: 	 Total cost based on OIG audit figures. For the OVC Indian Nations Conference, the event planner reported that it
          applied almost $78,000 in non-DOJ contributions and other fees to pay for conference costs.


           3
               See Appendix II for additional details and summaries of these 10 conferences.


                                                                    iii
      For each of the 10 selected conferences, we assessed event planning
and food and beverage costs to identify whether there were expenditures
indicative of wasteful or extravagant spending.

     Appendix I contains a more detailed description of our audit objective,
scope, and methodology.

Results in Brief

      DOJ spent over $4.4 million on the 10 conferences reviewed by this
audit. The audit focused on two major conference cost categories that our
September 2007 report revealed as most potentially susceptible to wasteful
spending – event planning services and food and beverages. For event
planning services, DOJ spent $600,000 (14 percent of costs) to hire training
and technical assistance providers as external event planners for 5 of the 10
conferences reviewed.4 This was done without demonstrating that these
firms offered the most cost effective logistical event planning services.
Further, these event planners did not accurately track and report conference
expenditures.

      In addition, DOJ spent about $490,000 (11 percent of costs) on food
and beverages at the 10 conferences. All the conferences occurred at major
hotels that applied service fees – usually around 20 percent – to the cost of
already expensive menu items. Our assessment of food and beverage
charges revealed that some DOJ components did not minimize conference
costs as required by federal and DOJ guidelines. For example, one
conference served Beef Wellington hors d’oeuvres that cost $7.32 per
serving. Coffee and tea at the events cost between $0.62 and $1.03 an
ounce. At the $1.03 per-ounce price, an 8-ounce cup of coffee would have
cost $8.24.5




       4
           Training and technical assistance providers are firms or personnel procured by DOJ
awarding agencies to provide support and offer specialized assistance on specific grant
initiatives.
       5
          Components and event planners reviewed procured beverages (coffee and tea) by
the gallon and not by single serving size. Because there are 128 ounces in each gallon and
conference attendees could have received different serving sizes of hot beverages, our audit
applies the standard 8-ounce measurement for one cup as a single serving of beverages
procured by the gallon but served individually.


                                             iv
      In April 2008, JMD implemented new conference reporting and meal
and refreshment cost limits for some DOJ conferences.6 These rules
required that components hosting conferences minimize costs at every
opportunity and made components responsible for tracking and reporting
conference expenditures. The meal and refreshment limits generally
prohibited components from spending more than 150 percent of the
applicable GSA per diem rate for meals served at a DOJ conference.7
However, these limits specifically did not apply to conferences funded via
cooperative agreements, which are a type of funding vehicle awarded by a
DOJ component (particularly an awarding agency) when it expects to be
substantially involved in the work performed.

       Of the 10 conferences reviewed, 5 conferences were planned by
training and technical assistance providers hired by two DOJ components:
the Office of Justice Programs (OJP) and the Office on Violence Against
Women (OVW).8 We found that OJP and the OVW did not collect salary and
benefit cost data from their external event planners for these five
conferences. As a result, the mandated DOJ conference cost reports did not
include over $556,000 – or 93 percent of the total estimated $600,000 –
spent on event planning services for these five events.




       6
        Appendix III presents the April 2008 JMD policy that established meal and
refreshment cost limits for DOJ conferences.
       7
          The term “per diem” refers to the travel allowance provided to federal employees
for meals and incidental expenses. GSA breaks down the daily per diem rate into
allocations for breakfast, lunch, dinner, and incidentals. For example, when a federal
traveler receives $64 per day, GSA allocates $12 for breakfast, $18 for lunch, and $31 for
dinner, with the remaining $3 for incidentals, such as gratuities. Under the JMD rules, the
150 percent threshold is applied to each of these individual meal allocations and includes
applicable service charges.
       8
           The five other conferences were planned internally by full-time DOJ employees.


                                              v
      The OJP and OVW training and technical service providers that were
hired via cooperative agreements to serve as event planners charged over
$242,000 in indirect costs, which was about 40 percent of the total event
planning cost for the five OJP and OVW events.9 We found that some of the
event planners applied indirect rates only to their staff salary and benefit
expenses, while others applied indirect rates to the cost of every service or
item procured for a conference, such as employee travel, food and
beverages, and audio-visual rentals. We concluded that applying indirect
rates to all costs, although allowable under some cooperative agreement
terms, increased the final price of already-expensive conference services and
items.10

      We also found that even though JMD established food and beverage
cost thresholds in April 2008 – no more than 150 percent of the GSA per
diem meal allocation – DOJ guidelines still provide conference hosts with a
large amount of discretion over the food and beverages served at their
events.11

      Some conferences featured costly meals, refreshments, and themed
breaks that we believe were indicative of wasteful or extravagant spending –
especially when service charges, taxes, and indirect costs are factored into
the actual price paid for food and beverages. For example, with these other
charges, the OVW spent $76 per person on the “Mission Dolores” lunch for
65 people at the Enhancing Judicial Skills Workshop in San Francisco,
California. This conference was planned under a cooperative agreement and
the JMD meal price thresholds were therefore not applicable to it. Had the

       9
          Indirect costs are those expenses that cannot readily be identified with a particular
cost objective (activity or item) of a cooperative agreement. Indirect costs can include
items such as administrative salaries and benefits, printing, telephone, supplies, postage,
leases, insurance, rent, audit, and property taxes. Generally, indirect cost rates are agreed
upon percentages of direct costs charged by cooperative agreement recipients to recover
administrative and overhead expenses incurred while performing award work. These rates,
however, must first be approved by the recipient’s cognizant federal agency before it can
apply the rate to recover costs. 2 C.F.R. § 230 (2011).
       10
           For example, when one event planner applied an approved 15-percent indirect
cost rate to the price of food and beverages at a conference, the cost of one soda increased
from $4.84 to $5.57.
       11
           We could only apply the JMD thresholds that limited meals and beverage
expenses as a benchmark to gauge the extravagance of conference meals and
refreshments. JMD issued this guidance in April 2008, by which time 2 of the 10
conferences included in our audit had occurred and several others were in planning stages.
In addition, five conferences included in our review were planned under cooperative
agreements, and therefore did not have to follow the April 2008 JMD thresholds.


                                              vi
JMD rules been applicable, this lunch would have exceeded the allowable
JMD per person rate of $27 by $49 (181 percent). OVW conference
attendees received Cracker Jacks, popcorn, and candy bars at a single break
that cost $32 per person. Coffee and tea also cost the OVW about $1.03 per
ounce. A single 8-ounce cup of coffee at this price would have cost $8.24.
Another example of a costly item at a DOJ conference included $7.32 Beef
Wellington hors d’oeuvres at an Executive Office for U.S. Attorneys (EOUSA)
conference.

       We concluded that DOJ components hosting conferences in FY 2008
and FY 2009 did not adequately attempt to minimize conference costs as
required by federal and DOJ guidelines. Two of the audited conferences
occurred prior to April 2008, when the DOJ issued new policies and
procedures to control conference spending. The Attorney General, the
Deputy Attorney General, and the Assistant Attorney General for
Administration have each issued memoranda to DOJ component heads
directing them to reign in conference spending. JMD has also developed an
internal website that consolidates relevant policies and other rules for DOJ
conference planners. JMD officials stated that due to these efforts,
components have improved compliance with meal and refreshment
thresholds from the time since our audit scope (FYs 2008 and 2009).

       However, we note that 8 of the 10 reviewed conferences occurred
after the April 2008 DOJ policy.12 Thus, we remain concerned that not all
components will take into account service fees, taxes, and indirect costs
when deciding what food and beverages – if any – should be served at a DOJ
conference. In our opinion, the lack of documentation we found regarding
the necessity of costly food and beverage items indicated that not all
sponsors were seriously questioning the need for expensive meals and
refreshments at their events.

      In addition, because the JMD policy limiting meal and refreshment
costs did not apply to conferences planned under cooperative agreements,
DOJ awarding agencies can circumvent meal and refreshment cost limits by
using cooperative agreements to support their conferences. We therefore
recommend that DOJ apply its meal and refreshment cost limits to all
conferences regardless of the type of procurement vehicle used to fund a
conference.




      12
          Because some major conferences reportedly require up to a year or more to plan,
we were not able to determine definitively how many of the conferences audited were in the
planning stages prior to the implementation of the April 2008 policy.

                                           vii
     In our report, we make 10 recommendations to assist DOJ in properly
accounting for and minimizing conference costs.

      Our report contains detailed information on the full results of our
review of DOJ conference expenditures. The remaining sections of this
Executive Summary describe in more detail our audit findings.

External Event Planning

      The Federal Travel Regulation and DOJ policies require that agencies
sponsoring conferences – and consequently any entity hired to plan such an
event – minimize conference costs, including expenses associated with event
planning. Some DOJ components hire outside firms as event planners to
perform many of the logistical services associated with hosting a conference,
such as selecting venues, negotiating food, lodging, and meeting space
prices with hotels, drafting and sending invitations, and booking travel.

      We analyzed the various costs associated with event planning and
found that outside firms provided logistical event planning services for 5 of
the 10 conferences we reviewed.13 Both OJP and the OVW used their award-
making authority to hire firms that served as their training and technical
assistance providers as well as their event planners for the remaining five
conferences. As training and technical assistance providers, many of these
firms worked on an assortment of grant project activities unrelated to the
conferences they planned, such as developing training, and producing
newsletters, publications, and other documents to promote the different
grant program objectives. Outside firms serving as event planners did not
always distinguish costs associated with event planning from these other
programmatic functions. We therefore had to rely on cost estimates
prepared by event planners to determine how much they spent planning
these five conferences.

      As shown in the following exhibit, event planning services cost an
estimated $600,000, or 37 percent of the $1.6 million total cost of the 5
conferences that used external event planners.




      13
          The Drug Enforcement Administration (DEA), the Executive Office of Immigration
Review (EOIR), the Executive Office of United States Attorneys (EOUSA), the Federal
Bureau of Investigation (FBI), the DOJ’s Criminal Division, and the Organized Crime Drug
Enforcement Task Force (OCDETF) planned their conferences internally and therefore did
not procure external (non-DOJ) event planning costs.


                                           viii
                                    EXTERNAL EVENT PLANNING COSTS 


                                                                          Award Funds
                                                                            Used on
                                                                           Conference      Total        Event Planning
                                                           Award             Event       Conference     Portion of Total
                                                          Amount            Planning        Cost       Conference Costs
         Conference                Award Number             ($)                ($)          ($)               (%)
BJA and SMART Office Indian
                                  2008-DD-BX-K002               600,000         7,000         90,201          8
Country Pre-Conference
OVC Indian Nations Conference     2005-VR-GX-K001               500,000       267,966       583,392*          46

BJA Walking on Common
                                  2007-IC-BX-K001          1,420,000          75,644**      132,222           57
Ground II

OJJDP AMBER Alert Conference      2005-MC-CX-K034          4,913,216          180,479       657,773           27

                                  2006-WT-AX-K046          1,700,000
OVW Enhancing Judicial Skills
                                                                               69,186       148,877           46
Workshop***
                                  2008-TA-AX-K038               600,000

                                              TOTALS $9,733,216            $600,275 $1,612,465           37 percent
Source(s): OIG review of actual and estimated external event planning costs
           *
Notes:        The total cost of the OVC Indian Nations Conference is greater than the amount of the award because this
              conference’s event planner received non-DOJ contributions and charged other fees to pay for conference
            **
                The $75,644 in event planning costs for the Walking on Common Ground II conference includes $63,604 in
            costs.
                subrecipient event planning costs.
            ***
                The OVW procured event planning services from two separate entities for its Enhancing Judicial Skills
                Workshop.




                                                           ix
      Overall, the following sections detail the specific concerns we identified
pertaining to cooperative agreement event planning costs.

Unreported Event Planning Costs

      Event planners incurred an estimated $600,000 in salary and benefit
costs associated with employee time spent facilitating and planning
conferences. However, neither OJP nor the OVW required event planners to
track and report salary and benefit costs. OJP and the OVW furthermore did
not report the cost of these salaries and benefits to JMD. As a result, we
found that over $556,000, or 93 percent of the total estimated $600,000
spent on event planning services, was not reported on DOJ conference cost
reports.

                 UNREPORTED COOPERATIVE AGREEMENT 

                   RECIPIENT EVENT PLANNING COSTS 


                                                                         Identified
                                                                        Unreported
     Component and                                                         Costs
      Program Office                Conference Title                        ($)
     OJP – BJA and
                         Indian Country Pre-Conference                         7,000
     SMART Office
     OJP – OVC           Indian Nations Conference                           240,588
     OJP – BJA           Walking on Common Ground II                          70,760
     OJP – OJJDP         AMBER Alert Conference                              170,338
     OVW                 Enhancing Judicial Skills Workshop                   67,903
                                                       TOTAL              $ 556,589
     Source: OIG assessment of salaries, benefits, and indirect costs

      Cooperative agreement recipients should report all relevant costs
incurred from conference activity so that required DOJ conference cost
reports are accurate. We therefore recommend that OJP and the OVW
update guidance provided to award recipients that ensures reporting of all
conference costs, including expenses associated with staff salaries and
benefits.

Unallowable Event Planning Direct Costs

      The audit identified two unallowable costs associated with event
planning for the OVC Indian Nations Conference. First, the event planning
firm hired a consultant located in Anchorage, Alaska, to act as the liaison
with the conference hotel located in Palm Springs, California. The
consultant, who worked under contract with the event planner for prior OVC
Indian Nations Conferences, was hired for the 2008 event without the

                                            x
benefit of an open solicitation. The hiring of the consultant was part of the
event planner’s conference budget approved by the OVC.

      In our judgment, the OVC and its event planner missed an opportunity
to minimize costs by not soliciting a public bid for a consultant that was
closer to the conference’s venue in Palm Springs. Because the consultant
was based in Anchorage, Alaska, the consultant had to travel the 2,400-mile
distance to Palm Springs at least 3 times and subsequently billed $3,454 in
travel costs. While we believe costs associated with travel can be necessary
and allowable, we consider the travel costs for this consultant unreasonable
due to the traveling distance between Palm Springs, California, and
Anchorage, Alaska. Therefore, we believe that the event planning firm did
not minimize conference costs, as required by DOJ guidelines, and we
question the consultant’s travel expenses totaling $3,454 as unallowable
costs.14

      Additionally, OVC’s event planner held a conference planning
committee meeting in January and February 2008, about a year before the
conference took place, at the Palm Springs hotel. The purpose of this
meeting was to assess what was needed for a successful conference and
generate interest among all relevant parties about the upcoming event. The
planning meeting had 36 attendees, mostly representatives from the hosting
firm, other training and technical service providers, OJP, and the OVW. The
event planner incurred a total of $29,365 in travel, lodging, and food and
beverage costs for the face-to-face meeting.

       The decision to conduct a face-to-face planning meeting that incurred
nearly $30,000 in costs is troubling to us. An event planning official told us
that the OVC specifically directed it to host a “major meeting” for the
conference’s planning committee. Nevertheless, we found that the firm’s
cooperative agreement application stated that the conference planning
committee did not require a face-to-face meeting to perform its work
effectively. In fact, this document said that planning committee work could
be effective via long distance. We also note that the conference’s venue had
been the same for the prior three (2002, 2004, and 2006) Indian Nations
conferences. Considering these points, we believe it was unnecessary to
have attendees from across the United States travel to Palm Springs in
January and February to have a face-to-face planning meeting at the same

       14
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                            xi
hotel where the conference had been held biennially since at least 2002.
Had the OVC event planner instead conducted a planning meeting via
teleconference, we believe that participants could still have discussed the
planning issues without incurring travel, lodging, and food and beverage
costs.

      Planning meetings represent important opportunities for sponsoring
components to gauge the conference’s potential programmatic success.
While planning meetings may be justifiable, extensive costs associated with
traveling, lodging, and providing food may not be appropriate if the costs
were not necessary. The cooperative agreement application submitted by
the event planner for this conference indicates that a face-to-face planning
meeting was not necessary. As a result, we do not believe the $29,365
spent on lodging, travel, and food and beverages costs was necessary.
Because the costs were unnecessary, we question them as an unallowable
use of OJP grant funds. We recommend that OJP: (1) remedy $29,365 in
questioned planning meeting travel, lodging, and food and beverage costs
and (2) ensure that its event planners justify the need for significant costs
associated with future face-to-face conference planning meetings.

Indirect Costs

       Indirect costs are a type of expense that cannot easily be attributed to
a particular cost objective (activity or item) funded by an award. Examples
of indirect costs include administrative salaries, rent, and utility charges.
Cooperative agreement recipients may charge indirect costs to recover
expenses incurred as a result of their work, provided that their cognizant
federal agency reviews and approves an indirect cost rate or application
method for each recipient. As shown by the following exhibit, external event
planners charged over $242,000 in indirect costs incurred while planning OJP
and OVW conferences.15




       15
          One external event planner hired by OJP did not charge indirect costs to its event
planning award.
                                             xii
          INDIRECT COSTS FOR OJP AND OVW CONFERENCES


                                                      Indirect
                                                     Cost Rate
                                                      Charged      Amount
                  Conference Planner                    (%)         ($)
                                                         n/a
   OVC Indian Nations Conference Event Planner       (allocation    102,622
                                                        plan)
                          Primary Event Planner          31.4            968
   BJA Walking on
                          Subrecipient 1                  96          27,270
   Common Ground II
                          Subrecipient 2                  20           1,839
   OJJDP AMBER Alert Conference Event Planner             15          85,797
   OVW Enhancing Judicial Event Planner 1              17.51          16,936
   Skills Workshop        Event Planner 2                24.1          6,847
                                                          TOTAL    $242,279
   Source: OIG review of event planning records

     The $242,000-figure represents about 40 percent of the total
$600,000 spent to plan the OJP and OVW events.

       As demonstrated by the exhibit above, the indirect cost rates varied
widely from 15 percent to 96 percent among the different event planners.
In addition, the event planners applied their respective indirect cost rates to
different categories of direct costs. The event planner with a 96-percent
indirect cost rate applied the rate only to salary or labor costs, while the
event planner with a 15-percent indirect cost rate applied the rate to all
conference expenses – including the cost of food and beverages served at
the Office of Juvenile Justice and Delinquency Prevention (OJJDP) America’s
Missing: Broadcast Emergency Response (AMBER) Alert Conference.
Although allowable, this practice increased the price OJP was charged for
food and beverages at this conference by 15 percent. For example, while
the event planner incurred a cost of $4.84 for each soda, after the indirect
cost rate, OJP was charged $5.57 for each soda.




                                         xiii
       The training and technical assistance providers reviewed for this audit
generally require personnel with specialized skills – such as attorneys and
professors – to provide programmatic support necessary for OJP and OVW
grant initiatives. For example, in addition to providing event planning
services, the OJJDP training and technical assistance provider developed and
hosted a series of seminars on responding to missing and exploited children.
Such programmatic services are not logistical in nature. We believe that
organizations that perform programmatic tasks generally require far more
overhead and administrative support, which results in these firms incurring
more indirect costs and applying higher indirect cost rates to recover these
costs. This is especially troubling to us because the training and technical
assistance providers that served as event planners applied the same indirect
rate to costs associated with performing programmatic and logistical
activities. Consequently, these firms might be applying high indirect rates to
OJP and the OVW for logistical activities that do not require specialized
programmatic skills when they: (1) provide programmatic support as a
training and technical assistance provider and (2) charge the same indirect
rates to all expenses (regardless of whether the expense was associated
with a programmatic or logistical activity).

       Both the Federal Travel Regulation and DOJ conference planning
policies seek to ensure that the government receives the best value for all
event planning services, including logistical tasks. Indirect costs totaled
$240,000 and constituted about 40 percent of the total event planning cost
for the five OJP and OVW conferences. DOJ components that hired outside
event planners that charged indirect costs need to ensure that these costs
are minimized. We therefore recommend that OJP and the OVW
demonstrate that a training and technical assistance provider offers the most
cost-effective logistical services before awarding a cooperative agreement
that supports conference planning to such a firm. To accomplish this, we
believe that OJP and the OVW should: (1) identify the specific event
planning activities that are logistical (and therefore do not require
specialized programmatic support) and (2) solicit bids from different vendors
to perform these activities. Such solicitations should be directed to all firms
capable of performing logistical tasks and not just to training and technical
assistance providers.




                                      xiv
      The event planner for the December 2008 Indian Nations Conference
in Palm Springs, California, used an allocation plan instead of an indirect rate
to recover indirect costs. Under this method, the event planner charged
$102,622 in indirect costs to OJP based on the proportion of its total payroll
costs specifically associated with planning the conference. However, the
indirect cost allocation plan did not receive the required approval by OJP or
any other federal agency beforehand. This meant that the charges were not
allowable and should not have been charged to the OJP cooperative
agreement. As a result, we recommend that OJP remedy the $102,622 that
the event planner charged in unallowable indirect costs.

Food and Beverages

      Food and beverages at the 10 conferences cost DOJ components
nearly $490,000, or 11 percent of the total $4.4 million estimated cost of
these events. The exhibit below details the food and beverage costs
incurred for each conference.




                                      xv
                                        DOJ CONFERENCE FOOD AND BEVERAGES 


                                                                                                                             Total
                                                                                                                           DOJ Food
                                                                          Number of                                           and
                                          Location         Length of     Participants                                      Beverage
                                       (City, State or    Conference          or          Overview of meals offered         Cost***
         Conference Title                 Country)          (Days)       Attendees*              to participants**            ($)
                                                                                         325 breakfasts, 285 lunches,
EOUSA National Conference            Washington, D.C.          4              166                                               54,275
                                                                                         and 247 dinners over 4 days
                                                                                         No full meals, only
EOIR Legal Conference                Washington, D.C.          5              534                                               39,360
                                                                                         refreshments served
                                                                                         925 lunches, and 1,200 dinners
OCDETF Conference                    Washington, D.C.          4             1,348                                             137,655
                                                                                         over 3 days
                                                                                         1,461 breakfasts, 1,080
OJJDP AMBER Alert Conference         Denver, CO                4              367                                               90,197
                                                                                         lunches over 4 days
                                                                                         322 breakfasts, 505 lunches,
OVC Indian Nations Conference        Palm Springs, CA          3              750                                               77,399
                                                                                         and 530 dinners over 3 days
                                                                                         300 breakfasts and 300
BJA Walking on Common Ground II      Palm Springs, CA          2              153                                               17,814
                                                                                         lunches over 2 days
BJA and SMART Office Indian
                                     Palm Springs, CA          1              144        150 breakfasts over 1 day                5,541
Country Pre-Conference
OVW Enhancing Judicial Skills                                                            195 breakfasts and 65 lunches
                                     San Francisco, CA         4              66                                                20,407
Workshop                                                                                 over 4 days
DEA IDEC                             Istanbul, Turkey          3              368        320 lunches over 1 day                 26,980
                                                                                         No full meals, only
FBI Director’s Symposium             Washington, D.C.          3              242                                               19,965
                                                                                         refreshments served
                                                                                                                 TOTAL       $489,593
 Source: OIG analysis of vendor invoices
 Notes: *    We applied the total number of participants (presenters, facilitators, and attendees) if that figure was ascertainable
             and these personnel received food and beverages at the respective conference.
         **
             Number of meals provided at official conference events paid for with DOJ funds. Meal counts exclude those provided
             to planning staff or presenters at pre-events. The cost of food served at pre-events is included in total cost column.
         ***
             Total DOJ food and beverage costs includes hotel service charges but does not include indirect charges.




                                                                   xvi
      As shown in the exhibit above, DOJ components typically provided
breakfasts, lunches, and dinners to conference participants. Hotels that
catered meals and refreshments also routinely applied service charges,
generally about 20 percent, to the total cost of the food and beverages.

       In April 2008, JMD issued guidelines requiring that components limit
the cost of conference meals to 150 percent of the applicable M&IE per diem
rate that the GSA allocated to each meal.16 For example, in a location where
the M&IE per diem rate was $39, GSA allocated $11 of that amount for
lunch. Under the JMD guidelines, a component could provide lunch at a
conference so long as the cost of that lunch did not exceed 150 percent of
the $11 allocation, or $16.50. The JMD guidelines also required that DOJ
components not spend more than 23 percent of the total per diem rate for
light refreshments per attendee each day.17

      However, because the JMD guidance was not implemented until April
2008, the meal and refreshment cost thresholds may not have applied to
many of the 10 conferences we reviewed because they were either held or
were being planned by the time the rules were issued. Further, the JMD
policy stipulated that the meal and refreshment limits did not apply to
conferences funded through cooperative agreements. As a result, the event
planners for the OJP and OVW conferences we reviewed (all of which were
planned with cooperative agreements) were not required to follow the 150­
percent meal and 23-percent refreshment thresholds. We nevertheless
applied the April 2008 JMD thresholds as a benchmark to ascertain
objectively whether the meals and refreshments appeared to be extravagant
or wasteful uses of taxpayer funds.

Meals

      Eight of the conferences we reviewed provided at least one meal to
attendees. The cost of 29 out of the 35 total meals (83 percent) provided at
the conferences exceeded 150 percent of the per diem meal allocation.
These meals exceeded the JMD cost threshold by varying amounts (up to
$49 per meal per person). Detailed below are the costs associated with five
meals provided to participants.




        16
       JMD cost limitations (included in the policy found at Appendix III) require that the
maximum percentage include any applicable service charge and tax.
        17
            Light refreshments include coffee, tea, milk, juice, soft drinks, donuts, bagels,
fruit, pretzels, cookies, chips, or muffins. 41 C.F.R. § 301-74.11 (2011).

                                              xvii
	   On the first night of the 2008 U.S. Attorneys National Conference,
     84 officials attended a dinner with the Attorney General. The
     dinner cost $5,431, or almost $65 per person, which is $18.50 (40
     percent) more than the $46.50 that would have been permitted
     under the JMD thresholds for dinner. This conference was held in
     February 2008, about 2 months before the JMD issued its food and
     beverage cost thresholds.

	   On the second day of the 2008 U.S. Attorneys National
     Conference, 118 participants attended a dinner in Alexandria,
     Virginia, at the Mount Vernon Inn. The dinner featured a choice of
     entrees including crusted red snapper, stuffed chicken breast, or
     beef medallions, all with an assortment of hors d’oeuvres, side
     dishes, and salads. The dinner cost $58 per person, or almost $12
     more (25 percent) than the $46.50 that would have been
     permitted under the JMD thresholds for dinner.

	   At the OJJDP AMBER Alert Conference, one of the lunches cost
     almost $15,000 for 360 people, or $47 per person, including
     service and indirect charges. The lunch, served on the second day
     of the conference, included “five-spiced beef short rib” entrees with
     vegetables and crème brulee for dessert. This meal cost $27.50
     (141 percent) more than the $19.50 that would have been
     permitted under the JMD thresholds for lunch. This conference
     occurred in November 2007 and was planned under a cooperative
     agreement. The JMD meal price thresholds were therefore not
     applicable to the conference.

	   At the Indian Nations Conference, OJP’s Office for Victims of Crime
     provided a hot breakfast for 322 people that cost $28.80 per
     person. This cost would have exceeded the JMD food and
     beverage thresholds by $12.30 (74 percent) per person had the
     conference not been planned under a cooperative agreement and if
     the JMD meal price thresholds were applicable.

	   At the Enhancing Judicial Skills Workshop, the OVW provided the
     “Mission Dolores” lunch for 65 people. The menu price of this
     lunch was $49 per person. However, added to this cost were
     service charges, taxes, and event planner indirect cost rates,
     resulting in the OVW incurring $76 for each “Mission Dolores” lunch
     served. This conference was planned under a cooperative
     agreement and the JMD meal price thresholds were not applicable
     to it. Considering this price, had the JMD rules been applicable,

                                xviii
          the OVW would have exceeded the allowable JMD lunch rate of $27
          by $49 (181 percent).

Refreshments

      The conferences selected for our review included breaks when
attendees received refreshments such as coffee, soda, cookies, bagels, and
pastries. Under the April 2008 JMD conference food and beverage price
policy, DOJ components should not spend more than 23 percent of the
applicable M&IE rate each day for refreshments per attendee. As detailed
below, in our opinion, the price of individual food items served as
refreshments appeared excessive.

     	   At the AMBER Alert Conference, the OJJDP spent over $23,000 on
          a continuous beverage service that provided 367 attendees with
          coffee and soda over 4 days. The high cost of refreshments was
          caused in part by applying hotel service charges and event planner
          indirect costs to each food and beverage item, resulting in each
          can of soda costing $5.57 and each ounce of coffee costing $0.65.
          At this price, one 8-ounce cup of coffee would cost $5.20.

     	   At the OVW Enhancing Judicial Skills Workshop, the 66 conference
          participants received, on average, $30 in refreshments per day, or
          about $15 more than the $14.72 allowed per day under the JMD
          guidelines. However, because this conference was planned under
          a cooperative agreement, the JMD thresholds did not apply to the
          OVW or its conference planner. During a single break, attendees
          were served items like Cracker Jacks, popcorn, and candy bars
          that cost $32 per person, including service charges and indirect
          costs. The OVW also provided a “deluxe” ice cream assortment
          that cost $10 per person including service charges and indirect
          costs. By applying service charges and taxes, each ounce of coffee
          and tea purchased cost $1.03. At this price, a single 8-ounce cup
          of coffee or tea would have cost $8.24 and account for almost 56
          percent of the 23-percent per diem limit ($14.72) that JMD
          established for refreshments.

     	   At the Drug Enforcement Administration (DEA) International Drug
          Enforcement Conference (IDEC), 300 participants attended two
          coffee breaks on the same day at a total cost of $15,600.
          Therefore, the DEA spent $52 per person on breaks during this
          day, which was about double the $26.22 limit for breaks under the
          JMD guidelines.

                                     xix
           During the Federal Bureau of Investigation (FBI) Director’s
            Symposium, the FBI spent almost $20,000 on refreshments for
            over 240 people over 3 days. The FBI spent $26.62 on
            refreshments per person each day, even though the limit under
            JMD guidelines was $14.72. This resulted in the FBI spending
            $8,925 more than it should have over the 3-day period on
            refreshments.

Justifications for Meals and Refreshments

      Sponsoring components and event planners were unable to provide
adequate justifications for the expensive food and beverages at the reviewed
FY 2008 and 2009 conferences. Event planners sometimes attributed the
expense of food and beverages to the high cost of locations where some of
the reviewed conferences were held, such as San Francisco, California.
Other event planners said that because previous conferences always
featured meals, attendees have come to expect meals at their conferences.
We do not believe that these reasons appropriately justify using DOJ funds
to serve expensive meals.

      In addition to the April 2008 policy, the Attorney General, the Deputy
Attorney General, and the Assistant Attorney General for Administration
have each issued memoranda to DOJ component heads directing them to
reign in conference spending.18 In addition, JMD has developed an internal
website that consolidated relevant policies and other rules for DOJ
conference planners. Considering these efforts, JMD officials stated they
believed that components improved compliance with meal and refreshment
thresholds during more recent events (FYs 2010 and 2011) compared to
what we found during the scope of our review (FYs 2008 and 2009).

       Despite the JMD conference cost thresholds, consolidated conference
planning website, and memoranda from DOJ leadership to component heads,
we remain concerned that components will not take into account service
fees, taxes, and indirect costs when deciding what food and beverages – if
any – should be served at a conference. In our opinion, the lack of
justifications component sponsors provided for food and beverages served at
the 10 audited conferences makes it appear as though many sponsors did


       18
          Copies of the memoranda from the Attorney General, the Deputy Attorney
General, and the Assistant Attorney General for Administration are included in Appendices
IV, V, and VI.

                                            xx
not seriously question the need for expensive meals and refreshments at
their events.

      We also identified several instances when event planners reported that
hotels waived meeting space rental fees when the event planners incurred a
minimum food and beverage cost. Although free meeting space may
provide an opportunity for DOJ components to save money, we found no
evidence that components or event planners determined that the cost of
meals and refreshments was less than what the cost of meeting space would
have been had the meeting space not been provided for free. Without this
type of cost-benefit analysis, DOJ components and event planners cannot
demonstrate that they complied with the Federal Travel Regulation or DOJ
guidelines that require that conference costs are kept to a minimum.

       DOJ components provided expensive food and beverages to attendees
regardless of whether internal DOJ staff planned the conference or the
sponsoring component hired an external event planner via a cooperative
agreement. The April 2008 JMD policy specifically excludes cooperative
agreement recipients from complying with meal and beverage threshold
limits. Although the OJP Financial Guide (which the OVW also applies as
criteria for its awards) requires cooperative agreement recipients to ensure
that the cost of food and beverage is reasonable and work-related, it does
not establish strict food and beverage limitations like those found in the JMD
policy. As a result, DOJ awarding agencies can circumvent meal and
refreshment cost limits by simply using a cooperative agreement instead of a
grant or contract to support a conference.

      Guidance limiting meal and refreshment costs should be in place
regardless of the funding instrument used to fund a conference. Therefore,
we recommend that OJP and the OVW ensure that cooperative agreement
recipients comply with established JMD conference food and beverage
thresholds that limit meals to 150 percent of the M&IE allocated to that meal
and refreshments to 23 percent of the total applicable daily per diem.

Conclusion and Recommendations

      DOJ components sponsoring conferences have a responsibility to:
(1) minimize conference planning costs and (2) ensure the food and
beverages provided are incidental, reasonable, and only provided at work-
related events. Our audit determined that DOJ components that sponsored
conferences did not track and report external event planning costs as
required, and that these costs, especially indirect costs, varied widely. In
addition, individual conferences featured full meals, beverages, and snacks

                                     xxi
that were costly, especially after hotel service charges and event planner
indirect costs were applied to each meal and refreshment. By itemizing each
item of food or beverage provided to conference attendees, we found that
one conference had coffee and tea that cost more than $1 per ounce.

     Our audit work and findings resulted in 10 recommendations to help
DOJ components properly account for and minimize conference costs. For
example, we recommend that pertinent DOJ components ensure that:

  	 Conference cost reports are accurate in that they include all salaries,
     benefits, and other costs charged to the government by all associated
     funding recipients, and

  	 Cooperative agreements with training and technical assistance
     providers are used to procure logistical event planning services only
     once it is demonstrated that this method is the most cost effective
     approach.




                                    xxii
       AUDIT OF DEPARTMENT OF JUSTICE CONFERENCE

         PLANNING AND FOOD AND BEVERAGE COSTS 


                                TABLE OF CONTENTS

                                                                                              Page

INTRODUCTION ................................................................................1 


       Prior OIG Audit ........................................................................... 3 

       OIG Audit Approach and Objective ................................................ 4 


FINDINGS AND RECOMMENDATIONS.................................................7 


I. EXTERNAL EVENT PLANNING ........................................................7 


       Use of External Event Planners ..................................................... 8 

       Accounting for External Event Planning Costs .................................. 9 

       Assessment of External Event Planning Costs ................................ 14 

       Recommendations..................................................................... 22 


II. FOOD AND BEVERAGES ..............................................................23 


       DOJ Conference Food and Beverage Guidelines ............................. 23 

       Itemized Conference Food and Beverage Costs ............................. 25 

       Analysis of Itemized Food and Beverage Costs .............................. 50 

       Recommendations..................................................................... 54 


STATEMENT ON INTERNAL CONTROLS.............................................55 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......56 


SCHEDULE OF DOLLAR-RELATED FINDINGS ....................................57 


ACRONYMS ......................................................................................58 


APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ..................59 


APPENDIX II: CONFERENCE FACTS AND SUMMARIES.....................69 


APPENDIX III: APRIL 2008 JUSTICE MANAGEMENT DIVISION 

    CONFERENCE COST POLICY .....................................................79 

APPENDIX IV: ASSISTANT ATTORNEY GENERAL FOR 

    ADMINISTRATION MEMORANDUM SUMMARIZING 

    CONFERENCE POLICY ..............................................................95 


APPENDIX V: DEPUTY ATTORNEY GENERAL MEMORANDUM ...........97 


APPENDIX VI: ATTORNEY GENERAL MEMORANDUM .......................99 


APPENDIX VII: JUSTICE MANAGEMENT DIVISION RESPONSE 

    TO THE DRAFT REPORT .........................................................101 


APPENDIX VIII: OFFICE OF JUSTICE PROGRAMS RESPONSE 

    TO THE DRAFT REPORT .........................................................103 


APPENDIX IX: OFFICE ON VIOLENCE AGAINST WOMEN 

    RESPONSE TO THE DRAFT REPORT ........................................110 


APPENDIX X: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT .................................................................................114 

                                INTRODUCTION

      Department of Justice (DOJ) components host and participate in
conferences to work with officials from other DOJ and federal entities, state
and local law enforcement agencies, Native American and Alaskan Native
tribes, and non-profit organizations. To mitigate the potential waste and
abuse of appropriated funds, every DOJ component that sponsors a
conference must ensure that the event not only is necessary, but also incurs
the minimal costs required to achieve its objective.

       Since 2008, DOJ appropriation acts have required that the Office of the
Attorney General report conference costs quarterly.19 For fiscal years (FY)
2008 and 2009, DOJ reported that it hosted or participated in 1,832 events.
The reports detailed that the conference activity over these 2 years cost a
total of $121 million. DOJ spent about $73 million to host conferences
during FY 2009, which, as shown in Exhibit 1, is $25.5 million (53 percent)
more than what was reported spent on conferences in FY 2008.




      19
          The Attorney General must submit quarterly reports to the DOJ Inspector General
regarding the costs and contracting procedures for each conference held by the DOJ for
which the cost to the government was more than $20,000. Pub. L. No. 110-161 § 218
(2008) and Pub. L. No. 111-8 § 215 (2009). The Attorney General has delegated the
responsibility to compile these reports to the Justice Management Division (JMD) Finance
Staff. Each component therefore submits to JMD a quarterly report of its respective
conference costs.

                                            1

                                     EXHIBIT 1: REPORTED DOJ CONFERENCE COSTS 

                                                  FYs 2005 TO 2009 


                                80
                                                                           73.3
                                70


                                60
       Amount ($ in millions)




                                50             45.9                 47.8

                                       40.2
                                40


                                30


                                20


                                10
                                                            N/A
                                 0
                                      2005     2006     2007*       2008   2009
                                                      Fiscal Year



     Source: DOJ component conference expenditures reports. Conference cost reports
             for FYs 2005 and 2006 were completed at the request of the U.S. Senate
             Committee on Homeland Security and Governmental Affairs, Subcommittee
             on Federal Financial Management, Government Information and
             International Security. Conference cost reports for FYs 2008 and 2009
             were issued through DOJ appropriation mandates.
     Note: 	 DOJ did not compile conference expenditure reports for FY 2007 because
             there were no requests from Congress or legislative requirements to
             compile and report this information.

      According to Justice Management Division (JMD) officials charged with
compiling the conference cost reports, the increase in costs reported
between 2008 and 2009 is partially attributable to components improving
how they internally report conference costs. Since mid-2008, individual DOJ
components have been required to submit cost data to JMD on a quarterly
basis by specified cost categories, such as meals and refreshments, event
planning, and audio-visual costs.




                                                       2

Prior OIG Audit

       In September 2007, the DOJ Office of the Inspector General (OIG)
released an audit report on conference expenditures associated with 10
major DOJ events held between October 2004 and September 2006.20 The
conferences reviewed included 9 events that were held in the United States
and 1 international event. The audit detailed how DOJ components procured
event planning services from outside firms and assessed the prices of food
and beverages served to conference attendees. The audit found that
components used different methods to hire external event planners for
logistical service support (such as selecting venues, negotiating lodging
rates, and working with hotels on menus). Some event planners were hired
as contractors, others via a cooperative agreement, which is a type of
funding vehicle a DOJ agency can award if it expects to be substantially
involved in the work performed. As a result, event planners charged a wide
array of costs associated with event planning services. A major January
2006 conference supported by a cooperative agreement incurred over
$600,000 in planning costs, while another major conference in August 2006
planned via a contract with a professional event planner incurred about
$145,000 in planning costs.

       The audit also concluded that while using appropriated funds to pay for
food and beverages at DOJ conferences might be allowable, some of the
food and beverage costs – particularly those associated with meals and
receptions – appeared to be extravagant. For example, the audit found that
one DOJ event in Los Angeles, California, featured a 2-entrée lunch for 120
attendees that cost $53 per person. In another instance, a DOJ component
spent $60,000 on a reception that featured chef-carved roast beef and
turkey, a penne pasta station, and platters of Swedish meatballs at a cost of
nearly $5 per meatball. The audit made 14 recommendations to JMD and
other DOJ components to help implement stronger policies that oversee
conference expenditures and ensure that conference planners justify
significant food and beverage costs.




      20
         U.S. Department of Justice Office of the Inspector General, Department of Justice
Conference Expenditures, Audit Report 07-42 (September 2007).


                                            3

      In response to the recommendations included in the September 2007
audit, JMD updated its guidelines on conference planning and expenditure
reporting in an effort to help minimize conference costs DOJ-wide. In April
2008 JMD established DOJ food and beverage thresholds based on General
Services Administration (GSA) per diem rates.21 This guidance provides that
components should not spend more than: (1) 150 percent of the applicable
GSA per diem rate allocated to each meal and (2) 23 percent of the total per
diem per person on refreshments.22

OIG Audit Approach and Objective

      The objective of this audit was to review a sample of conferences that
occurred between October 2007 and September 2009 to determine whether
DOJ components properly accounted for and minimized costs associated with
conference planning, meals, and refreshments. Using DOJ conference cost
reports, we selected a judgmental sample of 10 high-dollar DOJ
conferences.23 Our audit determined that DOJ sponsoring components spent
an estimated $4.4 million on these 10 events.

       Exhibit 2 details the 10 conferences selected for our review.




       21
           The term “per diem” refers to the travel allowance provided to federal employees
for meals and incidental expenses. Per diem rates are generally established for each county
in the United States. However, when a per diem rate is not established for a particular
locale, the base continental United States per diem rate applies.
       22
           GSA breaks down the daily per diem rate into allocations for breakfast, lunch,
dinner, and incidentals. For example, when a federal traveler receives $64 per day, GSA
allocates $12 for breakfast, $18 for lunch, and $31 for dinner, with the remaining $3 for
incidentals. Under the JMD rules, the 150 percent threshold is applied to each of these
individual meal allocations and includes applicable service charges.
       23
           To select this sample, we identified: (1) events sponsored by components that
reported a large number of conferences and (2) events with high reported costs in particular
conference cost categories, such as food and beverages. Because both federal and DOJ
guidelines require that sponsoring components minimize the cost of their conferences, we
assessed 2 types of costs for these 10 events that we believe constitute the most significant
drivers of conference expenditures: outside event planning services and food and
beverages.

                                             4

                            EXHIBIT 2: DOJ CONFERENCES SELECTED FOR REVIEW 


     Sponsoring Component(s)                         Conference Title                 Location - Dates     Total Cost ($)*
Criminal Division and the Organized
                                          OCDETF National Leadership Conference     Washington, D.C.
Crime Drug Enforcement Task Force                                                                                   360,185
                                          (OCDETF National Conference)              July 20 – 23, 2009
(OCDETF)
                                          International Drug Enforcement            Istanbul, Turkey
Drug Enforcement Administration (DEA)                                                                             1,181,902
                                          Conference (DEA IDEC)                     July 8 – 10, 2008
                                          Legal and Interpreters Training
Executive Office for Immigration Review                                             Washington, D.C.
                                          Conference                                                                688,904
(EOIR)                                                                              Aug. 3 – 7, 2009
                                          (EOIR Legal Conference)
Executive Office for U.S. Attorneys       2008 U.S. Attorneys National Conference   Washington, D.C.
                                                                                                                    259,648
(EOUSA)                                   (EOUSA National Conference)               Feb. 11 – 14, 2008
                                          Director’s Advisory Committee             Washington, D.C.
Federal Bureau of Investigation (FBI)                                                                               302,428
                                          Symposium (FBI Director’s Symposium)      April 14 – 16, 2009
Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA) and
                                          Indian Country Sex Offender Pre-
Office of Sex Offender Sentencing,                                                  Palm Springs, CA
                                          Conference Institute (BJA and SMART                                        90,201
Monitoring, Apprehending, Registering,                                              Dec. 10, 2008
                                          Office Indian Country Pre-Conference)
and Tracking (SMART Office) (Co­
sponsors)
                                          11th National Indian Nations Conference   Palm Springs, CA
OJP, Office for Victims of Crime (OVC)                                                                              583,392
                                          (OVC Indian Nations Conference)           Dec. 11 – 13, 2008
                                                                                    Palm Springs, CA
OJP, BJA                                  BJA Walking on Common Ground II                                           132,222
                                                                                    Dec. 9 – 10, 2008
                                          America’s Missing: Broadcast Emergency
OJP, Office of Juvenile Justice and       Response (AMBER) Alert National           Denver, CO
                                                                                                                    657,773
Delinquency Prevention (OJJDP)            Conference (OJJDP AMBER Alert             Nov. 13 – 16, 2007
                                          Conference)
                                          Enhancing Judicial Skills in Domestic     San Francisco, CA
Office on Violence Against Women
                                          Violence Cases Workshop (OVW              March 28 – April 1,             148,877
(OVW)
                                          Enhancing Judicial Skills Workshop)       2009
                                                                                                   TOTAL          $4,405,532
Source: 	FY 2008 and 2009 DOJ conference expenditure reports
Note: 	 Total cost based on OIG audit figures. For the OVC Indian Nations Conference, the event planner reported that it
         applied almost $78,000 in non-DOJ contributions and other fees to pay for conference costs.



                                                               5
       For each conference, we assessed costs reported in specific categories
to identify whether there were any expenditures indicative of wasteful or
extravagant spending. We focused this audit on two major conference cost
categories that our September 2007 audit report identified as the most
susceptible to waste and misuse – external event planning and food and
beverages. We used the April 2008 JMD thresholds as a benchmark to
ascertain whether specific conference meals and refreshments appeared to
be extravagant and therefore constituted an unreasonable use of taxpayer
funds. This is because the 10 reviewed conferences included 2 conferences
that occurred before April 2008 and several others that were or may have
been in planning stages when JMD issued its meal and refreshment
thresholds.24 We also note that events planned with cooperative agreements
(all awarding agency sponsored events reviewed) did not need to comply
with the 150-percent meal and 23-percent refreshment threshold.

      Appendix I contains a more detailed description of our audit objective,
scope, and methodology, and details how we selected conferences for this
review.




      24
          Because some major conferences reportedly require up to a year or more to plan,
we were not able to determine definitively how many of the conferences audited were in the
planning stages prior to the implementation of the April 2008 policy.

                                            6

                  FINDINGS AND RECOMMENDATIONS 


I.   EXTERNAL EVENT PLANNING 


     Although firms hired by DOJ components to plan conferences
     incurred over $600,000 in planning costs, about $556,000 in
     charges (93 percent) were not included on mandated DOJ
     conference costs reports. Over $240,000 in indirect costs were
     billed to DOJ, constituting 40 percent of total external event
     planning costs. We found that over $100,000 of these indirect
     costs were charged via an unapproved allocation plan, and
     therefore were not allowable. Furthermore, the outside firms
     that served as event planners were also the training and
     technical assistance providers that offered programmatic
     services, such as curriculum development, to DOJ awarding
     agencies. These firms applied the same indirect cost rate to
     both programmatic and logistical service expenses, such as
     selecting meals and booking travel. Because logistical services
     are primarily administrative and do not require the specialization
     of programmatic services, training and technical assistance
     providers may not be offering the most cost-effective logistical
     event planning services to DOJ awarding agencies.

      DOJ conference policies state that a component hosting a conference
should work closely with conference planners to minimize event costs. DOJ
guidelines also mirror those outlined by the Federal Travel Regulation, which
applies to all federal agencies hosting conferences that require federal
employee travel.25 The Federal Travel Regulation specifies that sponsoring
components and their conference planners should implement policies that:

     	 Minimize all conference costs, including administrative costs,
        conference costs, attendee travel costs, and conference attendee
        time costs;

     	 Maximize the use of government-owned or government-provided
        conference facilities as much as possible; and

     	 Identify opportunities to reduce costs in selecting a particular
        conference location and facility.




     25	
           41 C.F.R. § 301-74 (2011).

                                        7

      The Federal Travel Regulation and DOJ conference planning policies
seek to ensure that components sponsoring conferences receive the best
value for logistical services.

Use of External Event Planners

      Our September 2007 audit found that training and technical assistance
providers served as the event planner for many DOJ conferences. Training
and technical assistance providers are usually non-profit organizations hired
to help awarding agencies perform an assortment of projects associated with
a particular grant program, such as juvenile delinquency prevention, law
enforcement outreach, and law enforcement technology development. In
addition to offering logistical support for their particular event, training and
technical assistance providers reviewed by the 2007 audit also provided
programmatic conference planning services stemming from their special role
with a particular award program office or bureau. Specialized skills and
expertise are generally required to perform programmatic services
successfully, such as determining the conference agenda, writing
publications, and identifying appropriate speakers, topics, and participants.

      The audit found that when the same firm performed both logistical and
programmatic event planning functions, the firm generally applied the same
indirect rate to both logistical service costs and programmatic service
costs.26 This practice resulted in increasing the amount of indirect costs
firms charged to perform logistical services. The 2007 audit identified some
cases in which indirect costs, once charged to an award, nearly doubled the
cost of logistical services performed while planning an event.

      Conversely, the 2007 audit reviewed one conference that was planned
by a professional event planning firm instead of a programmatic subject
matter expert. The awarding agency worked on programmatic aspects of
the event while the event planning firm worked to select meals, secure
audio-visual services, and generate publicity for the event. That conference
incurred the lowest costs charged for logistical event planning services
among those conferences reviewed that used external entities to plan the
conference. In this case, the granting agency was responsible for
developing the programmatic aspects of the conference.



       26
           Indirect costs are expenses incurred for a common or joint objective that cannot
be readily identified with a particular activity supported by or item purchased with a grant,
contract, or cooperative agreement. Indirect costs generally include items such as
administrative salaries, printing, telephone, supplies, postage, leases and rents, insurance,
and property taxes.

                                              8

      Following the September 2007 audit, JMD issued guidance which
emphasized that DOJ components should only use external event planners
when necessary to achieve a cost effective and efficient conference. Of the
10 conferences this audit reviewed, full-time DOJ employees planned 5
conferences while external entities were hired to plan the remaining 5
conferences, as shown in Exhibit 3.

                  EXHIBIT 3: CONFERENCE PLANNERS

                                              Planned by External Event
    Planned by DOJ Employees                           Planners
                                                 BJA and SMART Office
     OCDETF National Conference
                                             Indian Country Pre-Conference
             DEA IDEC                        OVC Indian Nations Conference
       EOIR Legal Conference               BJA Walking on Common Ground II
     EOUSA National Conference               OJJDP AMBER Alert Conference
                                              OVW Enhancing Judicial Skills
      FBI Director’s Symposium
                                                       Workshop
Source: DOJ

      When DOJ employees plan a conference, the cost of planning the
event is comprised mostly of fixed costs associated with full-time salaries
and benefits. Unless a DOJ component specifically hired an employee to
plan a particular conference, these costs are retrospective or sunk costs, and
the component would have incurred the same employee salary and benefit
costs regardless of its decision to sponsor or host an event. Our audit did
not identify any cases when a DOJ component hired an employee specifically
to plan any of the conferences reviewed. We therefore do not consider
planning costs derived from DOJ employee salaries and benefits – including
costs associated with employees who worked with external event planners –
as conference-related costs.

      However, when a DOJ component hires an external entity to perform
conference planning work, we believe that salary and benefit costs should be
viewed as a direct result of the conference. Unlike full-time DOJ salary
costs, external event planner salary costs would not have been charged to
the government had the conference not occurred.

Accounting For External Event Planning Costs

      The five conferences planned by external entities were comprised of
four Office of Justice Programs (OJP) conferences and one Office on Violence
Against Women (OVW) conference. OJP and the OVW used their authority to
award cooperative agreements to procure external event planners for these

                                      9

events. Awarding agencies may award a cooperative agreement to an entity
instead of a formal grant or contract when the agency expects to be
substantially involved in the project or in objective-driven work to be
performed under the agreement.27

Tracking Event Planning Costs

       Because the event planning firms hired under cooperative agreements
were also training and technical assistance providers for specific grant
programs, the cooperative agreements in some cases included funding for
other projects in addition to planning a conference. As training and technical
assistance providers, some firms worked on an assortment of grant project
activities unrelated to conference planning, such as developing training, and
producing newsletters, publications, and other documents to promote the
different grant program objectives. Generally, we found that recipients did
not track event planning activities separately from non-conference work. As
a result, external event planners could not provide us specific costs
associated with planning their conferences.

       In response to our questions, officials with these groups consulted
time and activity reports to estimate the time spent planning the
conferences. These estimates accounted for the time spent on both
logistical services associated with the conference and programmatic
activities, such as curricula development. Based on these estimates, we
determined that the event planners spent over $600,000 to plan the five
conferences. As shown by Exhibit 4, event planning costs ranged from 8
percent to about 57 percent of the total cost of each event.




       27
           Cooperative agreements may be awarded when: (1) the principal purpose of the
relationship is to transfer a thing of value to the recipient to carry out a public purpose
authorized by law instead of acquiring property or services for the direct benefit or use of
the government; and (2) substantial involvement is expected between the executive agency
and the recipient when carrying out the activity contemplated in the agreement.
31 U.S.C. § 6305 (2011).

        In addition, the directors or administrators of specific bureaus and program offices
within OJP have distinct authority to issue grants and cooperative agreements to support
programmatic functions: See 42 U.S.C. § 10603 (C)(1)(B) (2010) for the Office for Victims
of Crime, 25 U.S.C. § 3681 (a) (2010) and 42 U.S.C. § 3751 (2010) for the Bureau of
Justice Assistance, and 42 U.S.C. § 5775 (2010) for the Office of Juvenile Justice and
Delinquency Prevention.


                                             10

                     EXHIBIT 4: ESTIMATED EXTERNAL EVENT PLANNING COSTS 


                                                                       Award Funds
                                                                         Used on
                                                                        Conference       Total        Event Planning
                                                           Award          Event        Conference     Portion of Total
                                                          Amount         Planning         Cost       Conference Costs
         Conference               Award Numbers             ($)             ($)           ($)               (%)
BJA and SMART Office Indian
                                  2008-DD-BX-K002            600,000           7,000        90,201           8
Country Pre-Conference
OVC Indian Nations Conference     2005-VR-GX-K001            500,000         267,966      583,392*           46

BJA Walking on Common
                                  2007-IC-BX-K001          1,420,000        75,644**       132,222           57
Ground II

OJJDP AMBER Alert Conference      2005-MC-CX-K034          4,913,216         180,479       657,773           27

                                  2006-WT-AX-K046          1,700,000
OVW Enhancing Judicial Skills
                                                                              69,186       148,877           46
Workshop***
                                  2008-TA-AX-K038            600,000

                                              TOTALS $9,733,216            $600,275 $1,612,465           37 percent
Source(s): OIG review of actual and estimated external event planning costs
           *
Notes:        The total cost of the OVC Indian Nations Conference is greater than the amount of the award because this
              conference’s event planner received non-DOJ contributions and charged other fees to pay for conference
            **
                The $75,644 in event planning costs for the Walking on Common Ground II conference includes $63,604 in
            costs.
                subrecipient event planning costs.
            ***
                The OVW procured event planning services from two separate entities for its Enhancing Judicial Skills
                Workshop.




                                                          11 

       We conclude that because cooperative agreement recipients did not
track conference planning costs separately, OJP and the OVW were not in a
position to ensure that cooperative agreements used to support the
conference incurred only the minimum costs necessary to achieve an
effective and efficient conference, as required by conference planning
guidelines. We therefore recommend that OJP and the OVW require that
award recipients using DOJ funds to plan conferences track time and
activities performed to plan conferences.

Unreported Event Planning Costs

      In response to JMD’s conference cost reporting guidance, OJP requires
that cooperative agreement recipients report conference-related costs via
the Grants Management System. However, as shown by Exhibit 5, OJP’s
guidance does not consider costs associated with staff time (salaries and
benefits) as reportable conference costs.28

              EXHIBIT 5: ADDITIONAL OJP CONFERENCE COST 

                          REPORTING GUIDANCE 


  Category                                   OJP Guidance
                 At this time, the cost of funding recipient staff time should
Staff Time
                 generally not be included on this conference cost reporting form.
                 An event planner is a contractor (not salaried staff) hired by a
                 funding recipient to perform the logistical planning necessary to
                 hold a conference. "Logistical planning" may include:
Event
                 interacting with caterers, recommending venues, developing
Planner
                 programs, advertising, setting the stage and audio-visual
                 equipment, securing hotel rooms, and other non-programmatic
                 functions.
                 An event facilitator is generally a contractor (not salaried staff)
Event            hired by a funding recipient to host the event (as distinguished
Facilitator      from planning the event) and make sure the event goes according
                 to plan.
                 If the cost of an event includes travel and per diem
Meals and        reimbursements, any meals provided to conference attendees
Incidental       during the conference must be deducted from the Meals and
Expenses         Incidentals Expense (M&IE) portion of the per diem in accordance
                 with the schedule listed in the Federal Travel Regulations.
Source: OJP conference cost reporting guidance, April 2009

      OJP and the OVW did not require its event planners to report costs
associated with staff time, such as salaries and benefits. However, the

       28
          The OVW currently requires its award recipients to follow the OJP Financial Guide
and other OJP conference-related guidance and criteria.

                                            12
majority of event planning costs are associated with staff salaries and
benefits. As shown in Exhibit 6, we found that $556,589, or 93 percent of
the estimated $600,000 spent on event planning by outside firms, was not
reported to OJP and the OVW. OJP and the OVW therefore did not report
these costs to JMD for inclusion in the DOJ quarterly conference cost report.

        EXHIBIT 6: UNREPORTED COOPERATIVE AGREEMENT 

               RECIPIENT EVENT PLANNING COSTS 


                                                                       Identified
                                                                      Unreported
      Component -                                                        Costs
     Program Office                      Conference                       ($)
    OJP – BJA and
                           Indian Country Pre-Conference                       7,000
    SMART Office
    OJP – OVC              Indian Nations Conference                       240,588
    OJP – BJA              Walking on Common Ground II                      70,760
    OJP – OJJDP            AMBER Alert Conference                          170,338
    OVW                    Enhancing Judicial Skills Workshop               67,903
                                                         TOTAL           $556,589
    Source: OIG assessment of estimated salaries, benefits, and indirect costs 

            incurred by event planning awardees and subrecipients 


       OJP officials told us that their policy not to require event planners
report staff time was a result of conversations with JMD over which expenses
should be included in the quarterly conference cost reports. Under the JMD
reporting framework, federal employee time spent planning conferences is
not reported as an event planning cost. This is because the salaries of
federal employees are not a direct result of the conference. In implementing
this rule, OJP applied this exclusion to time spent by cooperative agreement
recipients planning conferences, which resulted in entities not reporting
event planning costs.

      However, as discussed previously, OJP and the OVW use cooperative
agreements as vehicles to pay for conference planning activities.
Cooperative agreement recipient personnel incur salaries, benefits, and
indirect costs associated with planning events. Unlike federal employee
salary and benefit costs, which are retrospective expenses and not
attributable to a specific event, the salary and benefit costs of cooperative
agreement recipients were the direct result of the conferences being
planned. To ensure that DOJ conference cost reports are accurate, we
believe that cooperative agreement recipients should report these costs to
OJP and the OVW for inclusion in quarterly conference cost reports. By not
reporting these event planner costs, OJP and the OVW effectively
underreported the cost of these 5 conferences by over $550,000, or about

                                           13

35 percent of their total cost. We therefore recommend that OJP and the
OVW update guidance provided to award recipients to ensure that they
report all costs associated with time spent planning conferences, including
salaries and benefits.

      OJP and the OVW also did not adequately capture conference planning
costs when multiple organizations helped plan conferences. This is because
sponsoring components did not combine event planning costs incurred by
separate entities. For example, while two entities received cooperative
agreements to help plan OVW’s Enhancing Judicial Skills Workshop, one
entity reported $76,711 in conference costs (not including staff time, as
noted above), while the other did not report any costs even though,
according to estimates, it spent $35,255 to help plan the event.

       We recommend that JMD work in cooperation with OJP, the OVW, and
other awarding components to ensure that conference cost reports include
all salaries, benefits, and other costs charged to the government by all
associated funding recipients.

Assessment of External Event Planning Costs

       We reviewed costs charged by the external event planners to their
cooperative agreements and identified two primary categories of costs. The
first category of event planning charges is direct costs, which mostly
consisted of staff salaries, benefits expenses, travel, and subrecipient fees.
The other category of expenses is indirect costs, which were usually based
on a rate charged by the event planning firm against other conference-
related expenses.

      We reviewed event planning costs to ensure that they were supported
and allowable under the respective cooperative agreements to which the
costs were charged. The following sections first present an overview of our
findings pertaining to direct costs, and the section that follows summarizes
the results of our review of indirect costs.




                                      14

 Direct Event Planning Costs

        As shown by Exhibit 7, the five conferences charged a total of almost
  $360,000 in direct costs associated with event planning. Conference
  planners and their subrecipients incurred over $258,000, or over 70 percent
  of the total amount of direct costs, for salary and benefits.

        EXHIBIT 7: OVERVIEW OF DIRECT EVENT PLANNING COSTS

                                         Salaries                                 Total
                                           and                    Subrecipient    Direct
                                         Benefits    Travel        Expenses      Charges
             Conference                    ($)        ($)             ($)          ($)
BJA and SMART Office Indian Country
                                             7,000            0            n/a      7,000
Pre-Conference Event Planner
OVC Indian Nations Conference Event
                                           137,967     1,124            26,254    165,345
Planner
                       Primary Event
                                             1,036       273         See below      1,309
BJA Walking on         Planner
Common Ground II       Subrecipient 1       28,406     7,928               n/a     36,334
                       Subrecipient 2        6,655     1,269               n/a      7,924
OJJDP AMBER Alert Conference Event
                                            36,448    10,141            48,093     94,682
Planner
OVW Enhancing          Event Planner 1      15,712     2,464               n/a     18,176
Judicial Skills
Workshop               Event Planner 2      25,294     1,934               n/a     27,228
                                TOTALS   $258,518    $25,133          $74,347    $357,998
Source: Event planner cost estimates

         Event planning staff incurred salaries and benefits performing various
  activities, such as acquiring audio-visual services, compiling registration and
  marketing materials, helping attendees make travel arrangements, and
  negotiating food and beverage costs with hotels. As stated previously, some
  event planners also provided programmatic support such as developing
  curricula, drafting the agenda, and identifying speakers for the event.

        The event planning costs we reviewed appeared to be allowable and
  supported by sufficient documentation to show that they were allocated
  appropriately to the relevant cooperative agreement, except for costs
  pertaining to two items that occurred in conjunction with the Office for
  Victims of Crime (OVC) Indian Nations Conference held in Palm Springs,
  California, in December 2008.




                                           15

       Consultant Travel Costs

      The non-profit firm that served as the primary event planner for the
OVC Indian Nations Conference awarded a non-competitive agreement to a
consultant event planner in Anchorage, Alaska. Hired without the benefit of
an open solicitation, the consultant previously worked under contract with
the event planner.29 Event planner officials stated they worked with the
consultant in the past and chose to work with this person for this event even
though this person was located 2,400 miles away from the conference’s
venue. The hiring of a consultant was part of the event planner’s budget
approved by the OVC. The event planning firm formally hired the consultant
after Palm Springs was selected as the conference’s venue.

      The consultant’s primary responsibility was to serve as a “hotel liaison”
and work closely with hotel representatives to solicit bids for audio-visual
services, coordinate travel arrangements, book rooms at the hotel for
conference presenters, and oversee all arrangements with the hotel for
meeting space prior to and during the conference.30 The consultant would
also serve as the primary liaison between attendees and the event planning
firm during the conference.

       The consultant’s contract provided a fixed-price of $22,800, plus
travel-related expenses. The consultant subsequently billed the OVC event
planner $3,454 for travel costs associated with three separate trips to the
hotel in Palm Springs, California from Anchorage, Alaska.

      To be allowable, costs must be reasonable to accomplish the
objectives of the award.31 While we believe costs associated with consultant
travel can be necessary and allowable, we consider the travel costs for this
consultant excessive and unreasonable because the consultant traveled to
Palm Springs, California, from Anchorage, Alaska. In our judgment, the
event planning firm could have minimized costs by soliciting different bids
for consultants closer to the conference’s known venue of Palm Springs.
Such a consultant would not have incurred such high travel costs.

       29
            The consultant has worked with the OVC event planning firm for 8 years and
specifically helped plan the past three Indian Nations Conferences. In addition, the event
planner worked closely with employees in the firm’s Alaska office, which recently closed.
       30
          The consultant’s contract also stated that this official performed some ancillary
duties such as participating in planning committee meetings, sending awardee staff
reminders on tasks, developing conference announcement material, and mailing
confirmation letters for faculty, exhibitors, and entertainers.
       31
            2 C.F.R. § 230 (2011).


                                             16

       Considering these points, we believe that the OVC and its event
planner missed an opportunity to minimize conference costs as required by
DOJ guidelines. As a result, we question the consultant’s travel expenses
totaling $3,454 as unallowable costs. We therefore recommend that OJP
remedy the $3,454 and ensure that event planners in the future attempt to
minimize costs, as applicable, by soliciting bids for sub-awards from entities
that are closer to anticipated conference venues.32

       Early 2008 Conference Planning Committee Meeting

       The OVC event planner charged $137,967 to the cooperative
agreement for salary and benefit costs and over $1,000 for travel
expenses.33 Included in the labor and travel costs are those associated with
a 2-day planning meeting at the conference’s hotel in Palm Springs in
January and February 2008. The purpose of this face-to-face meeting was
to assess what was needed for a successful conference and generate interest
among all relevant parties about the upcoming event. Award recipient
officials said the meeting was also held to ensure that agencies notified
pertinent grantees of the conference and to persuade agencies to allow
grantees to use award funds to attend the event.

      The planning meeting had 36 attendees, mostly representatives from
the event planning firm, other training and technical service providers, OJP,
and the OVW. A total of $29,365 in travel, lodging, and food and beverage
costs for the meeting was charged to the OVC event planning award.

      The decision to conduct a face-to-face planning meeting that incurred
nearly $30,000 in costs is troubling to us. An event planning official stated
that the OVC specifically requested a “major” planning committee meeting
for the conference. Nevertheless, we found that the approved cooperative
agreement application submitted by the event planning firm stated that the
planning committee did not require a face-to-face meeting to be effective.
In fact, the proposal said that planning committee work could be effective


       32
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       33
            Because the OVC event planning award recipient did not track time to a specific
program within each cooperative agreement, we could not differentiate between the time its
personnel spent on logistics and curriculum development. However, we consider both
logistical planning and curricula development as part of event planning services and
therefore all event planning costs are assessed as added costs to the government.

                                            17

via long distance. Moreover, the conference’s venue had been the same for
the prior three (2002, 2004, and 2006) Indian Nations conferences.

      Considering these points, we believe it was unnecessary to have
attendees from across the United States travel to Palm Springs in January
and February 2008 for a face-to-face planning meeting at the same hotel
where the conference had been held biennially since at least 2002. Had the
event planner instead conducted this meeting via teleconference, we believe
that the participants could still have discussed the conference planning
issues without incurring travel, lodging, and food and beverage costs.

        Planning meetings represent important opportunities for sponsoring
components to gauge the conference’s potential programmatic success.
While planning meetings may be justifiable, extensive costs associated with
traveling, lodging, and providing food and beverages may not be appropriate
if the costs were not necessary. The cooperative agreement application
itself indicated that such a face-to-face planning meeting was not necessary.
As a result, we do not believe the $29,365 spent on lodging, travel, and food
and beverages costs was necessary.

       Because these costs were unnecessary, we question them as an
unallowable use of OJP grant funds and recommend that OJP: (1) remedy
$29,365 in questioned planning meeting travel, lodging, and food and
beverage costs and (2) ensure that its planners justify the need for
significant costs associated with future face-to-face conference planning
meetings.

Indirect Event Planning Costs

      Indirect costs are a type of event planning expense that cannot easily
be attributed to a particular cost objective of the event planning award.
Examples of indirect costs include administrative salaries, rents, and utility
charges. To recover costs associated with these items, cooperative
agreement recipients may sometimes charge indirect costs to their award.34

     Most conference planners charged indirect costs to their cooperative
agreements.35 As shown by Exhibit 8, DOJ was charged a total of over

       34
           Indirect costs are usually recovered via indirect cost rates that are percentages of
direct costs. Indirect rates must be approved by each recipient’s cognizant federal agency
before it can apply the rate and recover costs. 2 C.F.R. § 230 (2011).
       35
          One external event planner hired by OJP did not charge indirect costs to its event
planning award.


                                              18

$242,000 in indirect costs for the OJP and OVW conferences. This figure is
about 40 percent of the total cost of the event planning charges incurred for
these events. The indirect rates applied to costs varied widely from 15
percent to 96 percent between different organizations hired to perform event
planning services.

       EXHIBIT 8: OVERVIEW OF INDIRECT CONFERENCE COSTS

                                                              Indirect
                                                             Cost Rate
                                                              Charged       Amount
                         Conference                             (%)          ($)
                                                                 n/a
    OVC Indian Nations Conference Event Planner              (allocation       102,622
                                                               plan)36
                           Primary Event Planner                 31.4              968
    BJA Walking on
                           Sub-recipient 1                        96            27,270
    Common Ground II
                           Sub-recipient 2                        20             1,839
    OJJDP AMBER Alert Conference Event Planner                    15            85,797
    OVW Enhancing Judicial Event Planner 1                      17.51           16,936
    Skills Workshop        Event Planner 2                       24.1          6,847
                                                                  TOTAL     $242,279
   Source: OIG review of event planning records

       Exhibit 8 shows that the percentage of indirect cost rates does not
proportionally align with the amount charged in indirect costs. This is in part
because event planners applied their respective indirect cost rate to different
categories of direct costs. While one event planner applied an indirect cost
rate of 96 percent only to salary or labor costs, another firm applied a 15­
percent indirect cost rate to all conference costs, including food and
beverages procured for attendees at the Office of Juvenile Justice and
Delinquency Prevention (OJJDP) America’s Missing: Broadcast Emergency
Response (AMBER) Alert Conference. Although allowable and approved by
the firm’s cognizant federal agency (the U.S. Department of Education),
applying the indirect cost rate in this way increased the price of all items
procured for the conference by 15 percent. For example, although the hotel
charged the event planner $4.84 for each soda, after applying the indirect
rate, the event planner charged OJP $5.57 for each soda.



       36
           An allocation plan is one method by which an award recipient can charge indirect
costs. Allocation plans charge different rates to direct costs based on the activity of set
periods of time. Indirect cost rates, however, are a fixed percentage applied to a universe
of direct costs.


                                            19

       Unapproved Indirect Cost Allocation

       Award recipients need to establish and receive approval from a federal
agency for an indirect cost rate or allocation plan before they may receive
payment for indirect expenses.37 According to the OJP Financial Guide, if an
award recipient does not have an approved indirect cost rate or allocation
plan, funds budgeted for indirect costs cannot be recoverable until a rate or
allocation plan is approved. An award recipient should propose an indirect
cost rate to OJP that: (1) outlines what costs are encompassed in its
indirect cost pool and (2) establishes how payments will be allocated to its
federal grants. The proposal should also certify that the indirect costs
include only allowable expenditures.38 Once approved, the recipient can use
its indirect cost rate or allocation plan to recoup expenses incurred when
performing award-related activities.

      The event planner for the December 2008 OVC Indian Nations
Conference in Palm Springs, California, used an allocation plan to charge
indirect costs to its cooperative agreement. The allocation plan charged
indirect costs to each award or funding source based on the total payroll
incurred from time spent working on each project. For example, if time
spent working on a particular project cost the firm 15 percent of its total
payroll during a pay period, the resulting indirect cost allocation plan
charged the project 15 percent of the total indirect costs incurred during that
same pay period.

      Under this allocation plan, $102,622 in indirect costs was charged to
the OVC cooperative agreement. However, the award recipient did not
submit its indirect cost allocation plan to OJP for review and approval prior to
charging these costs to the cooperative agreement, as required by both
2 C.F.R. § 230 and the OJP Financial Guide. Such a submission is necessary
to certify that all indirect costs charged to the cooperative agreement
appropriately relate to conference activities and items. The OJP or another
federal agency did not approve or otherwise review the appropriateness of
the indirect cost allocation plan. The indirect costs charged to the
cooperative agreement thus were not certified as appropriate and were not
allowable. We recommend that OJP remedy $102,622 in questioned costs

       37
            2 C.F.R. § 230 (2011).
       38
          According to the limitations listed in the indirect cost agreement template, DOJ’s
acceptance of the indirect cost rates is predicated on whether: (1) indirect costs are not
claimed as direct costs, and (2) the grantee’s proposal accords consistent accounting
treatment to similar types of costs. Once the rate or allocation is approved, the
organization can apply the indirect rate to costs.


                                             20

and work with this award recipient to approve a future indirect cost rate or
allocation plan.

      Different Indirect Costs for Programmatic and Logistical Services

       The training and technical assistance providers reviewed by this audit
generally require personnel with specialized skills – such as attorneys and
professors – to provide programmatic support necessary for OJP and OVW
grant initiatives. For example, in addition to planning a conference, one
training and technical assistance provider developed and hosted a series of
seminars on responding to missing and exploited children. Such
programmatic services are not logistical in nature. We believe firms that
perform programmatic tasks generally require far more overhead and
administrative support, which results in such firms incurring more indirect
costs and applying higher indirect cost rates to recover these costs. This is
especially troubling to us because the training and technical assistance
providers that served as event planners applied the same indirect rate to
costs associated with performing programmatic and logistical activities.
Consequently, these firms might be applying high indirect rates to OJP and
the OVW for logistical activities that do not require specialized programmatic
skills when they: (1) provide programmatic support as a training and
technical assistance provider and (2) charge the same indirect rates to all
expenses (regardless of whether the expense was associated with a
programmatic or logistical activity).

       Both the Federal Travel Regulation and DOJ conference planning
policies seek to ensure that the government receives the best value for all
event planning services, including logistical tasks. Indirect costs totaled
$240,000 and constituted about 40 percent of the total event planning cost
for the five OJP and OVW conferences. DOJ components that hire outside
event planners that charge indirect costs need to ensure that these costs are
minimized. We therefore recommend that OJP and the OVW demonstrate
that a training and technical assistance provider offers the most cost-
effective logistical services before awarding a cooperative agreement that
supports conference planning to such a firm. To accomplish this, we believe
that OJP and the OVW should: (1) identify the specific event planning
activities that are logistical (and therefore do not require specialized
programmatic support) and (2) solicit bids from different vendors to perform
these activities. Such solicitations should be directed to all firms capable of
performing logistical tasks and not just to training and technical assistance
providers.




                                      21

Recommendations

We recommend that JMD:

     1. 	   Work in cooperation with OJP, the OVW, and other awarding
            components to ensure that conference cost reports include all
            salaries, benefits, and other costs charged to the government by
            all associated funding recipients.

We recommend that OJP and the OVW:

     2. 	   Require that award recipients using DOJ funds to plan
            conferences track time and activities performed to plan
            conferences.

     3. 	   Update guidance provided to award recipients to ensure that
            recipients report all costs associated with time spent planning
            conferences, including salaries and benefits.

     4. 	   Demonstrate that a training and technical assistance provider
            offers the most cost-effective logistical services before awarding
            a cooperative agreement that supports conference planning to
            such a firm.

We recommend that OJP:

     5. 	   Remedy $3,454 in questioned costs, and ensure that event
            planners in the future attempt to minimize consultant travel
            costs, as applicable, by soliciting bids for sub-awards from
            entities that are closer to anticipated conference venues.

     6. 	   Remedy $29,365 by justifying the need for costs associated with
            travel, lodging, and food and beverages for attendees at this
            planning meeting.

     7. 	   Ensure that external event planners justify the need for travel,
            lodging, and food and beverage costs associated with future
            conference planning meetings.

     8. 	   Remedy $102,622 in questioned costs and work with the event
            planner to approve a future indirect cost rate or allocation plan.




                                      22

II.    FOOD AND BEVERAGES

       The 10 conferences reviewed by this audit collectively incurred
       about $490,000 in food and beverage costs. Once applicable
       service charges, local sales taxes, and indirect costs were
       factored into the final prices, some meals and refreshments not
       only exceeded what would have been allowable under April 2008
       JMD meal and refreshment cost limits, but also they appeared
       extravagant and potentially wasteful: $65 dinners, $76 lunches,
       $41 breakfasts, $32 per person refreshments at a single break,
       and coffee and tea that cost as much as $8 per 8-ounce cup.

       The JMD meal and refreshment cost limits did not apply to
       cooperative agreements, which were used to plan all reviewed
       OJP and OVW conferences. We found that this exclusion
       provided an opportunity for these event planners to circumvent
       JMD limits on conference meal and refreshment prices. DOJ
       needs to ensure that all components: (1) reassess and
       document the reasons that meals and costly refreshments are
       necessary for each future conference and (2) adhere to JMD food
       and beverage limits, regardless of whether a cooperative
       agreement is being used to support the conference.

DOJ Conference Food and Beverage Guidelines

      Our September 2007 audit determined that DOJ components spent
considerable funds to provide food and beverages to conference attendees.
The audit identified several instances where food and beverages appeared to
be extravagant and potentially wasteful considering the purpose of the
conference. In April 2008, JMD issued new guidelines requiring that
components stay within certain pricing limits for food and beverages at
future conferences: 150 percent of the local per diem the GSA allocates for
that meal and 23 percent of the total per diem rate per person for “light
refreshments.”39 Exhibit 9 shows that, under these rules, a component may
provide a lunch that costs less than $16.50. This is because the $16.50
figure is 150 percent of $11, which is the amount of the $39 per diem the
GSA allocates to lunch.



       39
           JMD Financial Management Policies and Procedures Bulletin No. 08-08
(April 2008) limits include applicable service charges and taxes (see Appendix III). Light
refreshments include items such as coffee, tea, milk, juice, soft drinks, donuts, bagels, fruit,
pretzels, cookies, chips, or muffins. 41 C.F.R. § 301-74.11


                                              23

                EXHIBIT 9: EXAMPLES OF DOJ CONFERENCE 

                 FOOD AND BEVERAGE COST THRESHOLDS 


                           JMD            JMD            JMD             JMD
       GSA Per Diem      Breakfast       Lunch          Dinner      Refreshments
           Rate            Limit         Limit           Limit          Limit
           ($)              ($)           ($)             ($)            ($)
            39.00          10.50         16.50          27.00             8.97

            49.00          13.50         19.50          36.00            11.27

            64.00          18.00         27.00          46.50            14.72
      Source: JMD April 2008 meal policy based on GSA per diem meal allotments

      In addition, the JMD policy stipulated that these threshold limits did
not apply to conferences funded through cooperative agreements. According
to JMD officials, this exclusion was added to the policy because they believed
they had limited authority to oversee funds distributed through cooperative
agreements. As a result, the event planners for the OJP and OVW
conferences (all five of which were planned with cooperative agreements)
were not required to follow the 150-percent meal and 23-percent
refreshment thresholds for their conferences.

       The OJP Financial Guide is the only DOJ or component-level policy we
identified that applies to conferences planned under OJP and OVW
cooperative agreements. The OJP Financial Guide allows event planners to
pay for food and beverages at conferences, provided they meet the following
three requirements:

   	 The food and beverage provided are incidental to a work-related 

      event, 


   	 The food and beverage provided during the conference are not related
      directly to amusement and social events, and

   	 The cost of the food and beverage provided is considered to be 

      reasonable.40




       40
           The OJP Financial Guide defines “reasonable” costs as those that a prudent person
would have incurred under the circumstances at the time the cost was incurred. Items to
consider in gauging the reasonableness of food and beverage charges include the cost of the
food or beverage, the total cost of the event, and the cost of food and beverage relative to
the cost in the geographical area.

                                            24

      Both JMD and OJP food and beverage guidelines provide sponsoring
components considerable discretion regarding what food and beverages can
be served at DOJ conferences. Because the JMD food and beverage
thresholds do not apply to conferences funded through cooperative
agreements and the OJP Financial Guide does not establish strict limits on
the cost of conference food and beverages, awarding agencies and their
event planners have even greater discretion over the meals and
refreshments offered at events supported by cooperative agreements.

      We also note that the JMD guidance was not implemented until April
2008. At least two of the conferences we reviewed had occurred and several
others were in planning stages before this time. The meal cost thresholds
established in the guidance therefore did not apply to these events.

      Even though some of the reviewed conferences were planned under
cooperative agreements or had occurred or were being planned before JMD
issued its meal and refreshment cost limits in April 2008, we nevertheless
used the 150- and 23-percent thresholds as an objective benchmark to
gauge whether the costs of meals and refreshments served at the 10
reviewed conferences were indicative of wasteful or extravagant spending.

      The following section itemizes the cost of food and beverages served
at each of the reviewed events.

Itemized Conference Food and Beverage Costs

      The sponsoring DOJ components spent over $489,000 on food and
beverages at the 10 conferences we reviewed, which is about 11 percent of
the total $4.4 million cost of these events. Exhibit 10 overviews the food
and beverage costs and details the number of meals served to participants
at each conference.




                                     25

                        EXHIBIT 10: OVERVIEW OF CONFERENCE FOOD AND BEVERAGES


                                                                                                                           Total
                                                                                                                         DOJ Food
                                                                          Number of                                         and
                                         Location         Length of      Participants                                    Beverage
                                      (City, State or    Conference           or         Overview of meals offered        Cost***
         Conference Title                Country)          (Days)        Attendees*             to participants**           ($)
                                                                                        325 breakfasts, 285 lunches,
EOUSA National Conference            Washington, D.C.         4              166                                              54,275
                                                                                        and 247 dinners over 4 days
                                                                                        No full meals, only
EOIR Legal Conference                Washington, D.C.         5              534                                              39,360
                                                                                        refreshments served
                                                                                        925 lunches, and 1,200 dinners
OCDETF National Conference           Washington, D.C.         4             1,348                                           137,655
                                                                                        over 3 days
                                                                                        1,461 breakfasts, 1,080
OJJDP AMBER Alert Conference         Denver, CO               4              367                                              90,197
                                                                                        lunches over 4 days
                                                                                        322 breakfasts, 505 lunches,
OVC Indian Nations Conference        Palm Springs, CA         3              750                                              77,399
                                                                                        and 530 dinners over 3 days
                                                                                        300 breakfasts and 300
BJA Walking on Common Ground II      Palm Springs, CA         2              153                                              17,814
                                                                                        lunches over 2 days
BJA and SMART Office Indian
                                     Palm Springs, CA         1              144        150 breakfasts over 1 day              5,541
Country Pre-Conference
OVW Enhancing Judicial Skills                                                           195 breakfasts and 65 lunches
                                     San Francisco, CA        4              66                                               20,407
Workshop                                                                                over 4 days
DEA IDEC                             Istanbul, Turkey         3              368        320 lunches over 1 day                26,980
                                                                                        No full meals, only
FBI Director’s Symposium             Washington, D.C.         3              242                                              19,965
                                                                                        refreshments served
                                                                                                                TOTAL     $489,593
Source: OIG analysis of vendor invoices
Notes: *   We applied the total number of participants (presenters, facilitators, and attendees) if that figure was ascertainable
           and these personnel received food and beverages at the respective conference.
        **
           Number of meals provided at official conference events paid for with DOJ funds. Meal counts exclude those provided
           to planning staff or presenters at pre-events. The cost of food served at pre-events is included in total cost column.
           Total DOJ food and beverage costs includes hotel service charges but does not include indirect charges.



***
                                                                  26 

      The reviewed DOJ conferences included meals and refreshments
served to attendees. In most cases, refreshments served were coffee, tea,
soda, cookies, bagels, and pastries. Catering hotels also routinely applied
service charges – generally about 20 percent of the menu price – to the total
cost of the food and beverages. The following sections present a summary
of the itemized cost of food and beverages provided at each of the
10 reviewed conferences.

Executive Office for United States Attorneys (EOUSA) National Conference

      The U.S. Attorneys National Conference was held at the J.W. Marriott
in Washington, D.C., in February 2008. The conference is held annually to
bring together the Attorney General and the U.S. Attorneys for training and
discussion regarding DOJ’s priorities. EOUSA contracted directly with the
hotel to provide conference services.

      The solicitation for the hotel included a statement of work detailing the
services required. EOUSA solicited bids from area hotels and identified the
venues that best fit their needs. An EOUSA official stated that they selected
the J.W. Marriott hotel because it was the only four or five star venue that
bid for the contract. The EOUSA official also told us that only a four or five
star hotel was capable of providing the level and quality of services expected
by senior executives and other political appointees.

     Exhibit 11 details the more than $54,000 in meals, beverages, and
snacks provided at the EOUSA National Conference, which includes a
22-percent service charge applied by the hotel to the price of all food and
beverage items.




                                      27

                    EXHIBIT 11: EOUSA NATIONAL CONFERENCE 

                           FOOD AND BEVERAGE COSTS 


                                                                             Price
                                                              List Price   Charged     Adjusted
                                                                ($ per      ($ per     Total Cost
              Food or Beverages                      Quantity    unit)      unit)*        ($)
Breakfasts
           Country Style Sausage Patty Biscuits           100       4.50        5.49       549.00
           Nut Breads and Muffins (Half-Dozen)              1      26.60       32.00        32.00
                  Marquis Continental Breakfast           100      23.75       28.98     2,898.00
                 Continental Breakfast (Capital)           35      21.00       25.63       897.05
                     Signature Breakfast Buffet           190      34.00       41.48     7,881.20
Lunches
                                       Luncheons           65      40.00       48.80     3,172.00
                       “Taste of Italy” Luncheon          110      49.50       60.39     6,642.90
                “Chesapeake Classic” Luncheon             110      50.50       61.61     6,777.10
Dinners and Hors d’Oeuvres
                  Tuna Wasabi Canapé (Dozen)                8      66.00       80.50       644.00
             Miniature Beef Wellington (Dozen)              8      72.00       87.88       703.04
Phyllo filled Spinach and Feta Cheese (Dozen)               8      72.00       87.88       703.04
                                       Dinner (1)          84      53.00       64.65     5,430.60
                                       Dinner (2)          45      54.00       65.89     2,965.05
Snacks
 Gourmet Chips, Popcorn, Pretzels, and Candy
                                                           40       6.95        8.48       339.20
                                     (Per Person)
       Granola Bars and Power Bars (Per Unit)              75       4.95        6.04       453.00
                 Cookies and Brownies (Dozen)               9      48.00       58.56       527.04
Beverages
                                  Coffee (Gallon)          48      87.95      107.29     5,149.92
                             Coffee (Half Gallon)           1      43.95       54.00        54.00
            Republic of Tea Assortment (Gallon)             9      59.95       73.11       657.99
                                Iced Tea (Gallon)           5      59.95       73.20       366.00
         Assorted Regular and Diet Soft Drinks             95       4.95        6.04       573.80
                               Water (Per Bottle)           3       4.95        6.00        18.00
                          Fruit Juice (Per Bottle)          4       5.95        7.25        29.00
Off-Site Dinner at the Mount Vernon Inn
            Smoked Salmon Platter (serves 50)               2    150.00       187.50       375.00
                       Hot Crab Dip (serves 50)             3     80.00       100.00       300.00
                  Vegetable Crudité (serves 50)             2     80.00       100.00       200.00
                Swedish Meatballs (100 pieces)            1.5     60.00        75.33       113.00
    Smoked Duck Breast Biscuits with Apricot
                                                          1.5      90.00      112.67       169.01
                         Preserves (100 pieces)
      Scallops Wrapped in Bacon (100 pieces)                2       100       125.00     250.00
                   Coconut Shrimp (200 pieces)              1    430.00       538.00     538.00
                                           Dinner         118     33.00        41.25   4,867.50
                                                                              TOTAL $54,275.44
Source:	 OIG analysis of the banquet checks and invoices
Note: 	 Price charged per unit includes the service charge that was applied by the hotel to all
         food and beverages, as well as taxes if applicable.


                                                     28
       An EOUSA official explained that EOUSA has always provided food and
beverage items during this conference, which occurs about every year. This
official also stated that the service of meals and beverages was necessary
because they needed to use the time when meals were served to host
speakers. Using meal times in this way allowed EOUSA to address a large
amount of material in a limited amount of time.

     EOUSA provided food and beverage items in conjunction with evening
events, which we detail below.

     Event 1: Hotel Dinner and Reception

       On the first night of the conference, EOUSA invited attendees to a
dinner and reception with the Attorney General. The total cost of the dinner
and reception for 84 attendees, including service charges, was $7,481. The
dinner cost $5,431, or almost $65 per person, while the hors d’oeuvres
served at the reception preceding the dinner cost $2,050, or $24 per person.
As shown in Exhibit 12, the reception included an assortment of hors
d’oeuvres: Beef Wellington, tuna canape, and spinach and feta cheese-filled
phyllo. With service charges, each piece of Beef Wellington and spinach and
feta filled-phyllo cost $7.32, while each tuna canape cost $6.71.




                                    29

             EXHIBIT 12: EOUSA NATIONAL CONFERENCE 

                  RECEPTION AND DINNER COSTS 





        Source: Banquet event orders

      This conference took place in February 2008, before JMD issued its
guidelines in April 2008. Had the JMD threshold (150 percent of the GSA per
diem meal allocation) been in effect, EOUSA should have spent only
$46.50 per person for dinner. The $65 per person dinner therefore would
have exceeded JMD’s dinner limit by $18.50, or 40 percent, per person.

     Event 2: Dinner at the Mount Vernon Inn

      On the second day of the conference, participants attended a working
dinner at the Mount Vernon Inn located in Alexandria, Virginia. According to
an EOUSA official, the dinner at Mount Vernon offered a better price than
dinners offered at the hotel and also provided an opportunity for attendees
to see Mount Vernon, the home of George Washington, which is about
20 miles south of the conference’s venue in Washington, D.C.

      The dinner held at Mount Vernon featured a choice of entrees (crusted
red snapper, stuffed chicken breast, or beef medallions), all with an
assortment of hors d’oeuvres, side dishes, and salads. All the food served at
the dinner cost over $6,800 for 118 attendees, or $58 per person. If the
JMD threshold for this dinner had been in effect, EOUSA should have spent
only $46.50 per person for the meal. The cost of the Mount Vernon dinner

                                       30

therefore would have exceeded JMD’s dinner limit by almost $12, or
25 percent, per person.

Executive Office for Immigration Review (EOIR) Legal Conference                41




       The 5-day EOIR Legal Training Conference was held at the Capital
Hilton in Washington, D.C., in August 2009. The purpose of the conference
was to provide mandatory training to EOIR staff members, on various topics
including ethics, religious freedom, and immigration law and policies. The
EOIR told us that it estimated that 550 people would attend the conference.
Attendance records provided by the EOIR list 410 people (including invited
guests and speakers) at the conference. An EOIR official told us that at
least 534 people actually attended the conference because the list did not
include staff and interpreters attending a corresponding event held at the
same time and location. EOIR officials said that since the staff and
interpreters attended the breaks, they should be counted when averaging
costs.

      To minimize the cost of food, an official said that the EOIR purposefully
did not serve full meals at the event and only refreshments at breaks. The
hotel prepared a proposal stating that it would provide refreshments costing
no more than $14.29 per person per day. The EOIR told us that it
specifically negotiated this per person cost for refreshments based on its
estimated 550 attendees.

       The EOIR spent nearly $40,000 on refreshments at the conference.
The service and gratuity charges applied to each bill equaled 20 percent of
the total price of refreshments. Applying the 534-attendee figure to the
total cost of refreshments over the 5 days of the event, EOIR spent an
average of $14.74 per person per day on refreshments – just above the
$14.72 (23 percent of the applicable $64 per diem rate) JMD limit. We
credit the EOIR for generally complying with JMD refreshment price limits by
limiting the number of food and beverage items served and deciding to only
serve refreshments and not full meals at its 5-day conference.

      We reviewed invoices, banquet checks, and event orders that detailed
the food and beverages served to attendees each day, along with the prices
charged for each item reported served, as shown in Exhibit 13.



       41
          As described in the preface of this report, we received additional documents
concerning this EOIR conference after publication of our original report. Accordingly, we
have revised this section to reflect information included on these additional documents.


                                             31

EXHIBIT 13: EOIR LEGAL CONFERENCE FOOD AND BEVERAGE COSTS
                  (AT $14.74 PER PERSON DAILY AVERAGE RATE) 42

                                                                       OIG
                                                                   Calculated
                                                                    Price Per        Total
                                                     Quantity       Reported      Charged Per
                                                     Reported      Unit Served       Break
                  Refreshments                        Served           ($)*           ($)
                                   Monday, August 3, 2009
Early Morning Break
      Modified Continental Breakfast**                        300        16.80         5,040.00
Morning Break
      Coffee and Tea                                          300         7.20         2,160.00
Afternoon Break
      Fruit and Granola Bars (with iced tea)                  300         9.60         2,880.00
                                       Tuesday, August 4, 2009
Early Morning Break
      Modified Continental Breakfast**                        300        16.80         5,040.00
Morning Break
      Coffee and Tea                                          300         7.20         2,160.00
Afternoon Break
      Jumbo Cookies and Brownies (with coffee)                300         9.60         2,880.00
                                     Wednesday, August 5, 2009
Early Morning Break
      Modified Continental Breakfast**                        300        16.80         5,040.00
Morning Break
      Coffee and Tea                                          300         7.20         2,160.00
Afternoon Break
      Bags of Chips, Pretzels, Popcorn (with iced tea
                                                              300         9.60         2,880.00
       and a total of 200 pieces of fruit)
                                       Thursday, August 6, 2009
Early Morning Break
      Modified Continental Breakfast**                        250        16.80         4,200.00
Morning Break
      Coffee and Tea                                          250         7.20         1,800.00
Afternoon Break
      Fruit, Granola Bars, and Soft Drinks                    250         9.60         2,400.00
                                         Friday, August 7, 2009
Morning Break
      Coffee and Tea                                          100         7.20          720.00
                                             TOTAL COST OF FOOD AND BEVERAGES      $39,360.00
Source: OIG analysis of banquet checks, event orders, and invoices
Notes: * Price charged per unit includes 16.5 percent gratuity and 3.5 percent service
            charge applied by the hotel to food and beverage prices.
        **	
            Hotel banquet event orders indicate that attendees received a modified
            continental breakfast, which consisted of items such as pastries, fruit, coffee,
            tea, and juice.


       42
           In regard to the “OIG Calculated Price Per Reported Unit Served,” DOJ stated that
the unit prices were not the basis on which EOIR paid for its food and beverages. According
to DOJ, EOIR paid on a per person per day basis. DOJ also stated that the displayed unit
prices exclude the imputed value of the complimentary meeting space. The provision of
complimentary meeting space is discussed in the following section.

                                             32

      As shown above, attendees received three breaks with refreshments
each day, except for the last day of the conference, when there was only
one refreshment break. EOIR officials stated that the breaks played an
integral role in the conference because the breaks provided opportunities for
attendees to interact and discuss immigration law issues between formal
presentations.

       Provision of Complimentary Meeting Space

      Because the hotel provided complimentary meeting space to the EOIR,
DOJ stated that a complete accounting of food and beverage costs would
consider waived expenses associated with “staff services and function
space.” The DOJ noted that the purchase order stated that the EOIR sought
to procure “Conference/Meeting Spaces and Catering Services” from the
hotel, and that the hotel’s proposal stated that the hotel agreed to provide
complimentary meeting space based on “sleeping room and food and
beverage usage.” Therefore, the DOJ stated that an itemized list of
refreshment costs should deduct the value of the meeting space from the
cost of individual refreshments.

      While it is correct that the proposal stated that the hotel agreed to
provide complimentary meeting space for EOIR’s conference based on
anticipated revenues from both lodging and food and beverage purchases,
we note that the anticipated lodging expenses were $310,000 while the
anticipated refreshment costs were $39,298.43 Given the disparity between
the anticipated lodging and refreshment revenues, we believe the
Department may have been able to secure complimentary meeting space
based on anticipated lodging costs alone. Moreover, Capital Hilton officials
stated to us after our initial report was issued that the anticipated revenue
from lodging rooms alone would have been sufficient for waiving meeting
space rental fees. As we discuss later in the report, it is important for the
Department to negotiate carefully and consider what expenses are actually
necessary to obtain concessions such as complimentary meeting space.




       43
          The proposal included reserving a block of 1,877 sleeping rooms over the dates of
the conference. At the $165 per room rate, 1,877 rooms would have generated revenue of
nearly $310,000. In comparison, the proposal stated that the hotel would charge a total of
$39,298 for refreshments at the per person rate of $14.29 per day.

                                            33

Organized Crime Drug Enforcement Task Force (OCDETF) National
Conference

      The Criminal Division and OCDETF sponsored the OCDETF National
Conference in July 2009 at the Omni Shoreham Hotel in Washington, D.C.
A total of about 1,300 people attended at least part of the 4-day conference,
which is held every 2 or 3 years to share information and recognize the
program achievements of different federal, state, and local law enforcement
agencies.

      As shown in Exhibit 14, the food and beverages served at the OCDETF
National Conference cost over $137,000. This figure comprised 38 percent
of the total $360,000 the OCDETF and Criminal Division spent on the
conference.




                                     34

                EXHIBIT 14: OCDETF NATIONAL CONFERENCE 

                       FOOD AND BEVERAGE COSTS 


                                                       List Price      Price
                                                       Per Unit      Charged      Adjusted
                                                         ($ per       ($ per      Total Cost
         Food or Beverages                 Quantity       unit)       unit)*         ($)
Breakfast Items
   Assorted Breakfast Pastries (Dozen)           128        49.00       57.82         7,400.96
    Bagels with Cream Cheese (Dozen)              67        49.00       57.82         3,873.94
Lunches
                2-Course Plated Lunch            925        22.88       27.00        24,975.00
                  Assorted Sandwiches             10         8.00        9.40            94.00
Dinners
                          Plated Dinner        1,200        39.41       46.50        55,800.00
Snacks and Assorted Fare
               Jumbo Cookies (Dozen)             183        42.00       49.56         9,069.48
     Large Display of Fresh Vegetables             3       550.00      649.00         1,947.00
              Large Fresh Fruit Display            2       600.00      708.00         1,416.00
    Large Mediterranean Mezze Display              1       795.00      938.00           938.00
          Baked Brie en Croute Display             1       150.00      177.00           177.00
      Large Antipasto Supreme Display              2       795.00      938.00         1,876.00
    Large International Cheese Display             2       850.00     1003.00         2,006.00
                 Vegetable Spring Rolls          100         3.75        4.43           443.00
 Chicken Satay with Thai Peanut Sauce            100         3.75        4.43           443.00
Beverages
                        Coffee (Gallon)          139        67.00       79.06       10,989.34
                         Decaf (Gallon)           38        67.00       79.05        3,003.90
                           Tea (Gallon)           25        67.00       79.08        1,977.00
                    Lemonade (Gallon)              5        30.00       35.40          177.00
                       Soda and Water          2,371         3.95        4.66       11,048.86
                                                                       TOTAL     $137,655.48
Source: 	 OIG analysis of banquet checks and invoices
Note:	 Price charged per unit includes the service charge that was applied by the hotel to all
         food and beverages.

       OCDETF officials stated that providing meals at the event was
 necessary for two reasons. First, requiring people to leave the venue for
 lunch would require additional time from the agenda and they would not be
 able to stay on schedule if the attendees left the hotel for lunch. Second,
 meals provided opportunities for speakers and presentations.

       To decide what meals and beverages to serve, OCDETF officials
 indicated that they stipulated the total meal budget in the statement of work
 provided to the hotel. Rather than choosing options from the menu,
 OCDETF officials worked with the hotels to select items that fit within their
 budget. OCDETF officials stated that they showed the hotel the JMD policy
 and the policy’s associated food and beverage cost limits. OCDETF officials


                                              35

told us that in general, hotels have been receptive to working with them to
ensure that the conference complies with the food and beverage rules.

     Morning and Afternoon Breaks

       Over a 4-day period, the OCDETF National Conference featured 15
breaks with snacks and beverages. Served at the breaks were 202 gallons
of coffee and tea and 2,371 bottles of soda and water. With service charges
and taxes, the coffee and tea cost $79 per gallon (or just less than $0.62
per ounce) while the bottles of water and soda cost $4.66 each. At the
$0.62 per-ounce price, an 8-ounce cup of coffee or tea would have cost
OCDETF almost $5.

     Awards Banquet

      An awards banquet reception and dinner was held at the conclusion of
the third day of the OCDETF National Conference. Along with these costs,
the OCDETF spent nearly $6,000 on appetizers at this reception: two $550
vegetable displays, a $600 fruit display, two $795 “antipasto supreme”
displays, and two $850 cheese displays as detailed in Exhibit 15.




                                     36

            EXHIBIT 15: OCDETF NATIONAL CONFERENCE 

               AWARDS BANQUET RECEPTION MENU 





                Source: Event banquet order

       Following the reception, which cost about $5 per person, the Criminal
Division and OCDETF hosted a formal, three-course dinner for 1,200
participants. Including the hotel service charge, each dinner cost $46.50.
At the time of the conference (July 2009) the GSA per diem allotment for
dinner was $31. This means that the amount spent on dinner per person
was exactly at the JMD 150-percent threshold. Exhibit 16 details the full
menu served to participants at the awards dinner.




                                       37

            EXHIBIT 16: OCDETF NATIONAL CONFERENCE 

                          DINNER MENU 





            Source: Event banquet order

      We determined that the lunches and dinners provided to OCDETF
National Conference attendees fell within the established JMD meal price
thresholds.

OJJDP AMBER Alert Conference

      The OJJDP held a 4-day AMBER Alert Conference for 367 attendees at
the Grand Hyatt in Denver, Colorado, in November 2007. The purpose of
this event was to increase collaboration between state AMBER Alert
coordinators and their media and transportation partners. The conference
provided a continental breakfast, a lunch, and multiple breaks each day.

      As discussed previously, the external event planner hired by OJJDP via
a cooperative agreement applied a 15-percent indirect cost rate to food and
beverages purchased for the conference. Although allowable under the
cooperative agreement terms, the practice of charging indirect costs to these
items increased the total cost of food and beverages (including service
charges) by about $13,500, from just over $90,000 to almost $104,000.
Exhibit 17 details the menu price, the price with service charges, and the
price with indirect costs of food and beverages served across the 4 days of
the OJJDP AMBER Alert Conference.




                                      38

                               EXHIBIT 17: OJJDP AMBER ALERT CONFERENCE 

                                       FOOD AND BEVERAGE COSTS 


                                                                                    Price with     Subtotal
                                                         Price with                   Event         Event
                                                           Hotel       Subtotal      Planner       Planner
                                                          Service      Service       Indirect      Indirect      Adjusted
                                          List Price      Charges      Charges        Costs         Costs        Total Cost
   Food or Beverages        Quantity     ($ per unit)   ($ per unit)     ($)       ($ per unit)      ($)            ($)
Breakfasts
          Daily Continental
                               1,461            17.00         20.57    30,052.77          23.66      4,507.92      34,560.69
                 Breakfast
Lunches
   Plated Lunch (Day One)        350            29.00         35.09    12,281.50          40.35      1,842.23      14,123.73
   Plated Lunch (Day Two)        360            34.00         41.14    14,810.40          47.31      2,221.56      17,031.96
 Plated Lunch (Day Three)        370            29.00         35.09    12,983.30          40.35      1,947.50      14,930.80
Continuous Beverage Service
            Coffee (Gallon)    187.5            60.00         72.60  13,612.50            83.49      2,041.88      15,654.38
              Cans of Soda     1,334             4.00          4.84   6,456.56             5.57        968.48       7,425.04
                                                            TOTALS $90,197.03                     $13,529.57    $103,726.60
Source: OIG analysis of banquet checks




                                                              39

       Food and Beverage Charges for Free Meeting Space

      The event planner contracted with the hotel to secure free meeting
space for the conference provided. The event planner told us that the hotel
waived meeting space fees so long as the conference incurred at least
$50,000 on food and beverages, not including service charges. Excluding
service charges, the event planner nevertheless spent over $74,543 on food
and beverages, or more than $24,000 over the minimum amount
established for free meeting space. Because the firm did not conduct a cost-
benefit analysis comparing the price of meeting space rentals to the meal
and refreshment price, we could not determine if the amount spent on food
and beverages was less expensive than the cost of meeting space would
have been had the space not been provided for free.44

      An official told us that meals and refreshments were provided because
good meal options helped ensure that the conference was “a nice event” for
attendees. This official also stated that the meals and beverages helped
ensure that the conference was an appropriate “showcase” for the DOJ
AMBER Alert program.

       Continuous Beverage Service

      The event planner procured from the hotel what was referred to as
“continuous beverage service” throughout the 4 days of the conference. As
implied by its name, the continuous beverage service provided attendees
with unlimited soda, water, coffee, and tea during conference sessions. With
service charges and the 15-percent indirect cost rate charged on all items
provided for the conference, the total cost of the beverage service was over
$23,000. Each can of soda cost the OJP $5.57 while each gallon of coffee
cost more than $83, or $0.65 per ounce. At this price, an 8-ounce cup of
coffee would have cost $5.20.

       $47-Per-Person Lunch

      On the second day of the conference, 360 attendees were served
3-course lunches that featured “five-spiced beef short rib” entrees with
vegetables and crème brulee desserts. Including service charges and
indirect cost rates, the lunch cost OJP over $47 per person. Had the April

       44
           We were told that hotels determine the price of meeting space on a case-by-case
basis. The price a hotel charges for meeting space depends on a number of factors, such as
the size of the group, time of the year, and the duration of the conference. As a result, we
were unable to determine how much the meeting space would have cost had the hotel not
waived the requirement to rent the space after enough food and beverages were ordered.


                                            40

2008 JMD meal and refreshment threshold applied, the price of the lunch
should not have cost more than $19.50 per person. The price for the lunch
at this event was $27.50 (141 percent) more than the JMD limit price.

OVC, Bureau of Justice Assistance (BJA), and the Office of Sex Offender
Sentencing, Monitoring, Apprehending, Registering, and Tracking (SMART
Office) Conferences Held in Palm Springs, California

      In December 2008, three OJP grant program offices – the OVC, BJA,
and SMART Office – held a series of three events in Palm Springs, California,
that focused on addressing specific criminal justice needs of Native American
and Alaskan Native tribes. All three events were planned by outside firms
hired via cooperative agreements, and therefore did not have to comply with
JMD April 2008 thresholds that limit the amount spent on meals to
150 percent of the applicable GSA per diem meal allocation.

     	 The OVC hosted its 2008 Indian Nations Conference to train a total
        of 750 victim service providers, law enforcement officials, court
        officials, health professionals, and victim advocates from tribal,
        federal, state, and local levels.

     	 The BJA and the SMART Office co-hosted an Indian Country Pre-
        Conference immediately before the OVC Indian Nations Conference
        to review tribal community efforts to monitor and register sex
        offenders. This event had 144 participants.

     	 The BJA also hosted the Walking on Common Ground II conference
        as an initiative to sustain and enhance ongoing tribal court-related
        program efforts. This event had 153 participants.

      The Wyndham Hotel served as the venue for all these events. Because
these events were held in conjunction with each other, the three events
used the same hotel contract that the OVC event planner established to
procure meals. The meals and refreshments were from the same menu and
had the same service charges. Exhibit 18 details the food and beverages
served at the Palm Springs conferences.




                                     41

      EXHIBIT 18: FOOD AND BEVERAGES SERVED AT THE PALM 

               SPRINGS, CALIFORNIA CONFERENCES 


                                                                Price     Adjusted
                                                List Price    Charged     Total Cost
       Food or Beverages              Quantity ($ per unit) ($ per unit)*    ($)
                             OVC INDIAN NATIONS CONFERENCE**
Breakfasts
                 Hot Breakfast Buffet   322           24.00         28.80     9,273.60
Lunches
     Tortellini and Smoked Chicken      505           23.00         27.60    13,938.00
Dinners
                            Prime Rib   430           36.00         43.20    18,576.00
                   Breast of Chicken     85           36.00         43.20     3,672.00
                         Penne Pasta     15           36.00         43.20       648.00
Beverages and Snacks
                     Cookies (Dozen)      2           30.00         36.00        72.00
                   Iced Tea (Gallon)      4           38.00         45.50       182.00
            Coffee and Tea (Gallon)       6           40.00         48.00       288.00
Breaks
                   2 Breaks Per Day     100           20.00         24.00     2,400.00
                     1 Break Per Day    900           24.00         28.80    25,920.00
                                                                 Subtotal  $74,969.60
                           BJA WALKING ON COMMON GROUND II
Breakfasts
               Continental Breakfast    312           18.25         23.60     7,363.20
Lunches
                      The Sportsman     150           19.50         25.21     3,781.50
                    Deli Lunch Buffet   150           28.95         37.43     5,614.50
Beverages and Snacks
                      Coffee (Gallon)    12           40.00         51.75       621.00
     Cookies and Brownies (Dozen)        12           28.00         36.17       434.04
                                                                 Subtotal  $17,814.24
               BJA AND SMART OFFICE INDIAN COUNTRY PRE-CONFERENCE
Breakfasts
               Continental Breakfast    150           18.25         23.60     3,540.00
Breaks
                     “Stay Fit” Break   150             9.25        11.96     1,794.00
Beverages
            Coffee and Tea (Gallon)       4           40.00         51.75       207.00
                                                                 Subtotal   $5,541.00
                                                                   TOTAL   $98,324.84
Source:   OIG analysis of banquet checks
          *
Notes:       Price charged per unit includes the service charge that was applied by the
             hotel to all food and beverages, as well as taxes if applicable.
          **
             Food and Beverages shown for the OVC Indian Nations conference do not
             include almost $2,500 in costs associated with breakfasts, cookies, soda, and
             coffee for the 40 attendees at the January 2008 pre-conference planning
             meeting. These costs are instead questioned as unnecessary expenses in the
             External Event Planning finding of this report.




                                            42

      An average of 540 people per day attended the 3 Palm Springs events
that spanned the dates December 9 to 13, 2008. The meals and
refreshments (including service charges) provided for these events cost
more than $98,000. The food and beverages provided by the OVC during
the Indian Nations Conference cost over three-quarters of this amount, or
nearly $75,000, for 750 people.45

       Food and Beverage Charges for Free Meeting Space

      To secure free meeting space for all three events, the sponsoring
components and event planners were contractually obligated to purchase a
minimum of $35,000 in food and beverages excluding service charges. The
cost for food and beverages at these three events was over $82,000
excluding service charges, which was more than $47,000 over the minimum
required by the contract. Obtaining free meeting space by agreeing to incur
a set amount of food and beverage charges may achieve cost savings only
when the price of the meeting space (that was waived) would have been
greater than the price of the food and beverages that the conference was
obligated to order.

      None of the sponsoring components or event planners for the three
Palm Springs events conducted a cost-benefit analysis to show that ordering
more than $82,000 (or $98,325 with service charges and taxes) worth of
food and beverages achieved cost savings over the waived price of the
meeting space at the hotel. As discussed previously, because hotel meeting
space rental prices depended on a number of variables, we were unable to
make this comparison and determine whether the cost of meals and
refreshments was less than what the cost of meeting space would have been
had the hotel not provided its meeting space for free.




       45
           Cooperative agreement officials stated that the firm collected non-DOJ funds via
contributions, conference registration fees, and private sponsorships, which it used to pay
for some of the food and beverage costs. The officials also stated that it used non-DOJ
funds to also pay for other types of conference costs, particularly music performances held
during the conference.

        The cooperative agreement recipient did not always segregate DOJ funds from
contributions and registration fees when paying for conference costs. As a result, the firm
was not able to detail the food and beverage costs that were offset by contributions and
registration fees. Therefore, we assessed the reasonableness of all food and beverage
charges associated with the Indian Nations Conference.


                                             43

     Breakfast and Lunch

       Over the course of the 3-day event, the OVC Indian Nations
Conference included one hot breakfast and one lunch for participants. The
hot breakfast was served to 322 attendees and included fruit, french toast,
scrambled eggs, bacon, sausage, potatoes, and pastries, while the lunch was
tortellini and smoked chicken. The OVC spent $28.80 per person on the
breakfast and $27.60 per person on the lunch. The cost of the breakfast
and lunch exceeded JMD per person meal limits by $12.30 (74 percent) and
$3.60 (15 percent) respectively.

OVW Enhancing Judicial Skills Workshop

       The March 2009 Enhancing Judicial Skills Workshop was one in a series
of training courses offered by the OVW for state judges overseeing domestic
violence cases. Held at a Hilton hotel in San Francisco, California, the
conference had an initial planning day for the faculty and 4 days of course
work for the participants. The conference, which was planned by two
different OVW training and technical service providers, included breakfasts,
lunches, and several themed breaks.

      As shown by Exhibit 19, one event planner applied a 17.51-percent
indirect cost rate to food and beverage charges. Although the application of
the indirect rate was allowable under the terms of the cooperative
agreement, the indirect rates applied to the direct food and beverage
charges increased the OVW’s cost of meals and refreshments by $3,573.




                                     44

                          EXHIBIT 19: ENHANCING JUDICIAL SKILLS WORKSHOP

                                      FOOD AND BEVERAGE COSTS 


                                                                                       Price with
                                                                                         Event      Subtotal
                                                                                        Planner      Event
                                                           Price With     Subtotal      Indirect    Planner
                                                         Hotel Service    Service        Costs      Indirect     Adjusted
                                           List Price       Charges       Charges        ($ per      Costs       Total Cost
    Food or Beverages          Quantity   ($ per unit)    ($ per unit)      ($)           unit)       ($)           ($)
Breakfast
Continental Breakfast (3 days)     145           31.00          41.03       5,949.35       48.21      1,041.73      6,991.08
       Arise Breakfast (1 day)       65          30.00          39.71       2,581.15       46.66        451.96      3,033.11
Lunches
             Restaurant Lunch        16          14.13          18.69         299.04       21.96        52.36         351.40
             “Mission Dolores”       65          49.00          64.86       4,215.90       76.22       738.20       4,954.10
Beverages
      Coffee and Tea (Gallon)        11          85.00         112.55       1,238.05      132.26       216.78       1,454.83
              Water and Soda       242            5.00           6.62       1,602.04        7.78       280.52       1,882.56
Themed Breaks (Per Person)
               Cheese Tasting        17          14.50          19.18         326.06       22.54         57.09        383.15
                “The Ballpark”       65          20.50          27.14       1,764.10       31.89        308.89      2,072.99
           The “Awake” Break         65           8.00          10.58         687.70       12.43        120.42        808.12
            The “Aware” Break        65          14.00          18.54       1,205.10       21.79        211.01      1,416.11
    “Deluxe” Ice Cream Break         65           6.25           8.28         538.20        9.73         94.24        632.44
                                                              TOTALS     $20,406.69                 $3,573.20    $23,979.89
 Source: OIG analysis of banquet checks




                                                             45

       Not including the $1,900 cost of food and beverages served to faculty
on the day before the workshop, the OVW spent $22,063 on food and
beverages for the 66 attendees during the 4 days of the Enhancing Judicial
Skills Workshop. The meals and refreshments cost the OVW almost $84 per
person each day. In particular, the conference spent, on average, almost
$30 each day on just refreshments (beverages and break snacks) for each
attendee. Although the JMD guidance did not apply to this event since it
was planned under a cooperative agreement, the $30 spent on refreshments
per person is about $15 more than the $14.72 (103 percent) that would
have been allowable under JMD guidelines.

     Food and Beverage Charges for Free Meeting Space

       The Enhancing Judicial Skills Workshop was held in conjunction with
the Continuing Judicial Skills Workshop, a separate OVW event that was also
for state judges overseeing domestic violence cases.46 The event planning
firms entered into one hotel contract that covered meeting space and food
and beverages for both events. The hotel agreed to waive the cost of
renting meeting space if the workshops collectively incurred more than
$25,000 in food and beverage costs. However, the OVW and its event
planners spent $49,743 on food and beverages. This means that the
workshops – one of which was the Enhancing Judicial Skills Workshop –
collectively exceeded the minimum for free meeting space by $24,743.

      As discussed in previous sections, we could not determine the cost of
meeting space. Similar to the other event planners, the OVW event planners
did not conduct a cost-benefit analysis to determine if the amount spent on
food and beverages was less than the cost of what the meeting space would
have been had the hotel not waived the rental fees.

      Officials with one of the OVW event planners said that attendees have
come to expect food and beverages at these workshops. Officials also
explained that the high prices associated with food and beverages were due
to the fact that “San Francisco is an expensive city.” We asked why
San Francisco was chosen as the location of the conference if it was known
to be so expensive. Officials told us that San Francisco was selected
because it draws a large number of judges for attendance.

       The sections below detail the most expensive food and beverage costs
of this event.




     46
          The audit did not examine the OVW Continuing Judicial Skills workshop expenses.

                                           46

      “Mission Dolores” Lunch

      On the third day of the conference, 65 workshop participants received
a “Mission Dolores” lunch that had a menu price of $49 per person. Exhibit
20 details the “Mission Dolores” menu selection.

                 EXHIBIT 20: LUNCH AT THE OVW 

              ENHANCING JUDICIAL SKILLS WORKSHOP





                  Source: Banquet event order

      Including the hotel service charge, taxes, and indirect costs, each
Mission Dolores lunch actually cost the OVW $76. Although the JMD
thresholds did not apply to this conference because it was planned under a
cooperative agreement, the final cost of the meal exceeded the JMD lunch
rate of $27 by $49 – or 181 percent – per person.




                                     47

      Themed Breaks

      Throughout the workshop, expensive themed break packages were
offered to attendees. Food items in these snack packages included popcorn,
Cracker Jacks, candy, and ice cream.

                 EXHIBIT 21: THEMED BREAKS AT THE 

               ENHANCING JUDICIAL SKILLS WORKSHOP





  Source: Banquet event orders

      Applying service charges, taxes, and indirect charges to the base
prices listed in the menu above, the “Ballpark” and “Deluxe” Ice Cream
Assortment ended up costing the OVW about $32 and $10 per person
respectively.

      Coffee and Tea Costing More Than $8 Per 8-ounce Cup

      The 11 gallons of coffee and tea served at the conference had a menu
price of $85 per gallon. Considering that there are 128 ounces in one gallon,
the price for a single ounce of coffee or tea at the menu price would have
been more than $0.66. However, the OVW also paid service fees, taxes, and
indirect costs for each gallon of coffee or tea. We found that these costs
increased the price paid for each gallon of coffee or tea by 55 percent to
over $132. The actual price of coffee or tea at the workshop ultimately cost
the OVW more than $1.03 an ounce. An 8-ounce cup of coffee at this price
would cost $8.24 and account for almost 56 percent of the 23-percent per
diem limit ($14.72) that JMD established for refreshments.




                                     48

      In total, the 11 gallons of coffee and tea served over 5 days to a total
of 66 conference participants cost the OVW almost $1,500.

Drug Enforcement Administration (DEA) International Drug Enforcement
Conference (IDEC)

       The DEA co-hosted the 26th IDEC with the Turkish National Police at
the Conrad Hotel in Istanbul, Turkey, in July 2008. The event served as a
forum for international law enforcement officials to share drug investigation
information, identify common targets, and coordinate law enforcement
efforts against regional and international drug cartels. The Association of
Former Federal Narcotics Agents (AFFNA) sponsored most of the food and
beverages for the event. As a result, the DEA only spent a total of $26,980
on food and beverages for the 368 attendees throughout the 3-day event.
This equals $24 per person per day for meals and refreshments.47

       July 10 Coffee Breaks

      According to summary documents, the food and beverage charges
paid directly by the DEA stemmed from the cost of refreshments served
during various coffee breaks. What appeared to be the two most costly of
these breaks occurred on the morning and the afternoon of July 10, the last
day of the conference. Both breaks served an average of 300 attendees and
cost a total of $15,600, or $26 per attendee.

      According to JMD conference cost thresholds, total refreshments
provided to attendees should cost no more than 23 percent of the applicable
GSA meals and incidental expenses (M&IE) per diem rate. The DEA
provided documents showing that its employees who helped plan the
conference were cognizant of the established DOJ limits for the cost of meals
and refreshments served during the event. At the time of the conference,
the per diem rate for Istanbul, Turkey, was $114. However, attendees
received two breaks that each cost $26 per person on July 10. This means
that the DEA actually spent $52 per person on breaks during this day.
Applying the JMD’s 23-percent GSA M&IE limit to the $114 per diem, the
DEA should have spent no more than $26.22 on each attendee for both
breaks. By spending $52 per attendee total on these breaks, the DEA spent
almost twice as much as the DOJ threshold allows.



       47
         According to the DEA, the AFFNA directly paid the Conrad Hotel $132,000 for
meal and refreshment costs associated with an evening reception, lunches, and coffee
breaks. Because the DEA did not incur and pay these costs directly, we did not include
these expenses in our review of IDEC food and beverage costs.

                                            49

Federal Bureau of Investigation (FBI) Director’s Symposium

       The FBI’s Office of the Ombudsman holds a symposium every other
year to provide training and information to members of the Director’s
Advisory Committees. The 3-day conference was held at the L’Enfant Plaza
Hotel in Washington, D.C., in April 2009. The FBI reported that at least 242
Advisory Committee members and other officials attended the event. The
FBI provided two coffee breaks each day to all conference attendees at a
total cost of $19,965.

      According to the hotel banquet orders, the FBI purchased
refreshments for the attendees at each of the breaks. The refreshments
served included fruit, bagels, muffins, cookies, brownies, coffee, and soda
charged on a per person basis instead of a la carte. According to JMD food
and beverage guidelines, the FBI was allowed to spend $14.72 each day on
refreshments for each person, which equates to a total allowance of $3,680
per day on refreshments.

      However, the FBI spent $26.62 per person per day on just
refreshments. This is $11.90 more than what would have been allowed
under the JMD threshold. As a result, the FBI overspent on refreshments by
$2,975 per day for 3 days, for a total of $8,925.

Analysis of Itemized Food and Beverage Costs

       Food and beverages served to attendees of the 10 reviewed
conferences cost a total of almost $490,000. While JMD food and beverage
cost limits were not in effect or otherwise did not apply to most of these
events, we considered the April 2008 JMD thresholds (150 percent of the
GSA per diem meal allocation for limits to costs of meals served and 23
percent of the GSA per diem rate for the limit of the cost of daily
refreshments) during our review to gauge whether the food and beverage
costs were indicative of extravagance or waste. We also note that 5 of the
10 conferences were funded by OJP or OVW cooperative agreements
governed by the OJP Financial Guide, which requires that food and beverage
costs be reasonable.

      Our review of food and beverage prices leaves us concerned about the
broad discretion that components and event planners have regarding the
provision of meals and refreshments at DOJ events. Of the 35 instances in
which meals were served at the 10 conferences, 29 (83 percent) had meals
that exceeded JMD thresholds of 150 percent of the GSA per diem M&IE
allocation. In our opinion, some of the prices incurred for meals and
refreshments appear particularly expensive and indicative of wasteful or

                                     50

extravagant spending once service and indirect charges are applied to the
cost of each meal or refreshment. For example, we note that OVW incurred
$76 per person for a lunch and over $8 per cup of coffee or tea (after
applying service fees and indirect charges to each item).

Lack of Justifications for Costly Food and Beverages

       We found that event planners were unable to provide adequate
justifications for the high cost of food and beverages at their FY 2008 and
2009 conferences. Many event planners stated that full meals were always
provided at past conferences and therefore should be provided at current
and future events to meet participant expectations. Event planners also
explained that they viewed the provision of food and beverages as a very
important part of the perceived success of the conference.

      We find such justifications to be inadequate considering the high cost
of the food and beverages at the reviewed events. The respective goal of
each of the reviewed conferences was to offer attendees an opportunity to
receive and discuss necessary programmatic information with DOJ partners.
In no instance did an event planner or component successfully demonstrate
to us that providing food and beverages with costs that exceeded JMD
thresholds was needed to achieve the goals of the conference.

       We discussed our concern of costly food and beverage prices with JMD
officials responsible for developing the April 2008 policy. The Attorney
General, the Deputy Attorney General, and the Assistant Attorney General
for Administration have each issued memoranda to DOJ component heads
directing them to reign in conference spending.48 In addition, JMD has
developed an internal website that consolidated relevant policies and other
rules for DOJ conference planners. Considering these efforts, JMD officials
stated they believed that components improved compliance with meal and
refreshment thresholds during more recent events (FYs 2010 and 2011)
than we found was the case during the scope of our review (FYs 2008 and
2009).

      48
          On June 5, 2008, the Assistant Attorney General for Administration wrote to DOJ
component heads to highlight the April 2008 JMD policy that established meal and
refreshment cost limits, see Appendix IV. About a year later, on May 4, 2009, the Deputy
Attorney General also issued a memorandum to DOJ component heads highlighting
important aspects of the JMD policy. In particular, the memorandum emphasized that
conferences should only occur if there was a business need and that costs must be
minimized, see Appendix V. In a January 21, 2011 memorandum that announced a
temporary DOJ-wide hiring freeze, the Attorney General specifically instructed component
heads to suspend all non-essential travel, training, and conferences and minimize the
number of DOJ attendees at such events, see Appendix VI.


                                           51

       The JMD conference cost thresholds, consolidated conference planning
website, and memoranda from leadership to component heads constitute
positive steps towards mitigating the purchase of high-priced food and
beverages at future DOJ conferences. Nevertheless, because 8 of the 10
reviewed conferences occurred following the April 2008 policy, we remain
concerned that not all components are taking into account service fees,
taxes, and indirect costs when deciding what food and beverages – if any –
should be served at a conference. We are also troubled by the lack of
justifications components provided for food and beverages at the
10 conferences reviewed by this audit. In our opinion, the lack of
documentation makes it appear as though many were not seriously
questioning the need for their events to include expensive meals and
refreshments.

Documenting Savings as a Result of Free Meeting Space

      Another justification offered for food and beverages at conferences is
that hotels sometimes agree to waive meeting space rental fees provided
that DOJ purchase a minimum amount of food and beverages for the event.
For the reviewed conferences, this minimum amount ranged from between
$25,000 and $50,000; however, conference planners spent much more on
food and beverages than what would have been required for free space. For
example, the OVC alone spent almost $30,000 more on food and beverages
than the minimum $35,000 the hotel required for free meeting space.

      Although free meeting space may provide an opportunity to save
money, no component or event planner reviewed assessed whether the cost
of meals and refreshments was less than the cost that meeting space would
have been had it not been provided by the hotels for free. Without a cost-
benefit analysis that compares the value of free meeting space to the cost of
meals and refreshments, we could not determine whether conference costs
were reduced by a component or event planner ordering a set amount of
food and beverages and receiving meeting space at no cost.

       The waiver of meeting space rental fees can only serve as a
justification for serving food and beverages at conferences when it results in
saving DOJ money. As a result, we recommend that JMD require that
components and their event planners conduct a cost-benefit analysis
whenever they justify ordering food and beverages to obtain free meeting
space for their conferences. Such a cost-benefit analysis should show that
the cost of the meeting space would have been greater than the food and
beverage cost had the hotel not waived its meeting space rental charges.



                                      52

Need for Food and Beverage Limits for Cooperative Agreements

       The JMD meal and refreshment thresholds are based on individual GSA
per diem rates. These rates consider cost of living and price disparities
between different cities across the United States. The GSA updates per
diem rates at least annually, and some rates are even seasonable to account
for times when costs at a particular locality are potentially at a premium.
Because the JMD price limits are based on GSA per diem rates, the price
limits need not be updated and are higher in cities experiencing a higher
cost of living.

       As stated previously, although the April 2008 JMD guidance sets strict
limits on the cost components can incur for meals and refreshments, it
specifically does not apply to conferences funded through cooperative
agreements. Other than the OJP’s Financial Guide rule that requires award
recipients to ensure that the cost of food and beverage is “reasonable,” no
criteria exists that actually limits or otherwise minimizes the cost of food and
beverages served at OJP and OVW conferences.

      We believe that OJP’s rule requiring that conference food and beverage
prices be “reasonable” falls short of ensuring that cooperative agreement
recipients select lower-priced food and beverages for their events and
minimize DOJ conference costs. The OJP rule is difficult to apply
retroactively and we could not determine whether a cooperative agreement
recipient complied with the “reasonable” requirement. This is because the
OJP Financial Guide circularly defines “reasonable” prices as the prices that
would have been incurred under the circumstances at the time the cost was
incurred by a prudent person. As shown by the high cost of individual meals
and refreshments incurred by the OJP and OVW events reviewed – $47 and
$76 lunches and $8 cups of coffee – we do not believe that event planners
took the steps necessary to minimize meal and refreshment costs.

       By not ensuring that cooperative agreement recipients comply with
JMD cost limits, cooperative agreement recipients are afforded an
opportunity to circumvent what otherwise would be strict limits on meal and
refreshment prices. Without clear cost limits, OJP and the OVW are not
adequately ensuring that their event planners are complying with the
Federal Travel Regulation and other DOJ guidelines that require that
conference costs be minimized. We therefore recommend that OJP and the
OVW establish and implement guidelines on conference food and beverage
limits for cooperative agreement recipients congruent with DOJ-wide rules.




                                      53

Recommendations

We recommend that JMD:

      9.	   Require that components and their event planners conduct a
            cost-benefit analysis whenever they justify ordering food and
            beverages to obtain free meeting space for their conferences.

We recommend that OJP and the OVW:

     10. 	 Establish and implement guidelines on conference food and
           beverage limits for conferences supported with cooperative
           agreement funds congruent with DOJ-wide rules.




                                     54

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls we considered significant within the context of
our audit objectives. A deficiency in an internal control exists when the
design or operation of a control does not allow management or employees,
in the normal course of performing their assigned functions, to timely
prevent or detect: (1) impairments to the effectiveness and efficiency of
operations, (2) misstatements in financial or performance information, or
(3) violations of laws and regulations. Our evaluation of each sponsoring
component’s internal controls was not made for the purpose of providing
assurance on its internal control structure as a whole. Component level
management is responsible for the establishment and maintenance of
internal controls.

       As noted in the Findings and Recommendations section of this report,
within the context of the audit objectives and based upon the audit work
performed, we identified certain deficiencies in DOJ’s internal controls that
we believe adversely affect the DOJ conference sponsors’ ability to use
appropriated funds efficiently and effectively. During our review, we
identified reportable conditions relating to how component conference
sponsors incur and report conference expenditures.

      Because we are not expressing an opinion on DOJ’s or DOJ
component’s internal controls over conference expenditures as a whole, this
statement is intended solely for the information and use of DOJ and its
components in planning and paying for conferences. This restriction is not
intended to limit the distribution of this report, which is a matter of public
record.




                                      55

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected records,
procedures, and practices, to obtain reasonable assurance that DOJ and its
components complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. DOJ and its component level management are responsible for
ensuring compliance with federal laws and regulations applicable to
conference planning. In planning our audit, we identified the following laws
and regulations that concerned the operations of DOJ and its components
that were significant in the context of the audit objectives:

        Pub. L. No. 110-161 § 218 (2008). 

        Pub. L. No. 111-8 § 215 (2009). 

        41 C.F.R. § 301-74 (2011). 

        2 C.F.R. § 230 (2011). 

        31 U.S.C. § 6305 (2011). 

        42 U.S.C. § 10603 (C)(1)(B) (2010). 

        25 U.S.C. § 3681 (a) (2010). 

        42 U.S.C. § 3751 (2010). 

        42 U.S.C. § 5775 (2010). 


      Our audit included examining, on a test basis, whether different DOJ
components complied with the laws and regulations cited above and whether
non-compliance could have a material effect on DOJ components’
operations. Through interviews with responsible officials, analyzing
conference cost reports, obtaining and testing cost data, we determined that
components did not always work to minimize conference costs, and did not
appropriately track and report conference costs. Our report provides
recommendations that, once implemented, will help ensure that the audited
components comply with the regulations while planning, hosting, and
reporting conference cost data.




                                     56

            SCHEDULE OF DOLLAR-RELATED FINDINGS 



QUESTIONED COSTS49                                      AMOUNT ($)              PAGE

Unallowable Costs

   1. Consultant travel costs                                      3,454          16

   2. Planning meeting travel, lodging, and                       29,365          17
      food and beverage costs

              Less consultant travel costs to                    (1,009)
              planning meeting questioned as
              unallowable in Line 1.

   3. Unapproved indirect costs                                 102,622           20

            Total Questioned Costs                            $134,432




       49
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                            57

                        ACRONYMS

AFFNA         Association of Former Federal Narcotics Agents
AMBER         America’s Missing: Broadcast Emergency Response
ATF           Bureau of Alcohol, Tobacco, Firearms and Explosives
BJA           Bureau of Justice Assistance
C.F.R.        Code of Federal Regulations
COPS Office   Office of Community Oriented Policing Services
DEA           Drug Enforcement Administration
DOJ           Department of Justice
EOIR          Executive Office for Immigration Review
EOUSA         Executive Office for United States Attorneys
FBI           Federal Bureau of Investigation
FY            Fiscal Year
GSA           General Services Administration
IDEC          International Drug Enforcement Conference
JMD           Justice Management Division
M&IE          Meals and Incidental Expenses
OCDETF        Organized Crime Drug Enforcement Task Force
OIG           Office of the Inspector General
OJJDP         Office of Juvenile Justice and Delinquency Prevention
OJP           Office of Justice Programs
OVC           Office for Victims of Crime
OVW           Office on Violence Against Women
SMART         Sex Offender Sentencing, Monitoring, Apprehending,
              Registering, and Tracking
U.S.C.        United States Code
USMS          United States Marshals Service




                              58

                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

      The objective of this audit was to review a sample of conferences that
occurred between October 2007 and September 2009 to determine whether
Department of Justice (DOJ) components properly accounted for and
minimized conference planning, meal, and refreshment costs.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In order to achieve the audit objectives, we reviewed 10 high-dollar
DOJ conferences from fiscal years (FY) 2008 and 2009. We included tests
and procedures to identify unallowable and extravagant costs. To test and
develop conclusions regarding both the overall cost of each conference and
the cost of each conference category, we (1) assessed how components
obtained event planning services, (2) evaluated whether components and
event planners used effective and efficient procurement methods, and
(3) identified food and beverage items provided by sponsoring components
indicative of potentially extravagant and wasteful spending.

      Throughout the audit, we relied on computer-generated data provided
by the Justice Management Division (JMD), component-level conference
planners, and training and technical assistance providers. This data included
conference cost reports, expense summaries, and invoices considered while
conducting the analysis necessary to accomplish our audit objectives.
Although we did not assess the reliability of such computer-derived
information, we do not believe our reliance on this data affects our findings
and recommendations.

Conference Universe and Selection

     JMD prepared a listing of the 1,832 conferences hosted by DOJ during
FYs 2008 and 2009. To accomplish our audit objectives, we selected a

                                     59

judgmental sample of conferences reported on this list to evaluate the
nature of the event and their respective level of expenditures. From this
initial sample, we would select 10 events to test for this audit.

       For the initial selection, we identified primarily high-dollar events that
listed high total conference costs, high costs in any single cost category –
including high food and beverage costs per person per day – and the most
expensive international conference. We also identified events held in what
appeared to be resort locations. Finally, we identified conferences that were
held in conjunction with other reported events. We applied this judgmental
sampling design to identify events that provided a broad exposure to
numerous facets of the universe of DOJ conferences held during the scope of
our audit. This non-statistical sample design applied to identify conferences
worthy of review precludes us from projecting the results of our testing to all
DOJ hosted conferences.

      As shown in Exhibit I-1, the Federal Bureau of Investigation (FBI) and
the Office of Justice Programs (OJP) accounted for 79 percent of the
reported 2008 and 2009 conference expenditures.

              EXHIBIT I-1: DOJ COMPONENT CONFERENCE 

                    EXPENSES FY 2008 AND 2009 


                             Total Cost
                                                                  DEA
      Component                 ($)
                                                                  4%
    Drug Enforcement                            OVW
     Administration               4,830,298     4%
         (DEA)
                                                        Other
           FBI                   67,748,009             13%


           OJP                   27,599,265
    Office on Violence                                OJP
                                                      23%            FBI
     Against Women                5,240,666                         56%
          (OVW)
          Other                  15,846,209

                  TOTAL     $121,264,447
    Source: JMD FY 2008 and 2009 Conference Expenditure Reports

      The FBI reported a number of training events in its conferences report
submissions. For example, for FY 2009, we estimated that the FBI included
about $28 million in costs associated with training. Although we do not take
issue with the FBI including these events in its conference reports, we did
                                       60
not find other components uniformly reporting training events on their
respective reports. As a result, we believe the total reported costs for the
FBI was disproportionate to the total cost reported by other DOJ
components. Nevertheless, because the FBI and OJP accounted for a very
large part of the reported conference costs, we included in our initial
selection of 37 a representative sample of FBI and OJP conferences.

      Considering these facets, and based on JMD reported conference costs
for FYs 2008 and 2009, we identified 37 events hosted by 10 different
components that, in our opinion, merited additional review. Detailed in
Exhibit I-2 are the 37 conferences selected and reviewed during the survey
phase of the audit.




                                      61

                       EXHIBIT I-2: CONFERENCES SELECTED FOR PRELIMINARY REVIEW 

 Agency                                      Conference Title                                          Location        Attendees    Total Cost ($)
ATF         Columbus Field Division All Hands                                                       Columbus, OH           170           91,327.81
ATF         Grade 14 Assessment Center                                                              Grapevine, TX          405          543,668.00
COPS        SEARCH/COPS Tech TA                                                                        Mesa, AZ            174          165,313.00
COPS        CSPP Kick-Off Conference                                                                   Dallas, TX          91            42,059.00
CRM         Organized Crime Drug Enforcement Task Force National Conference                       Washington, D.C.        1348          429,698.40
CRM         Financial Investigations Seminar                                                        San Diego, CA         132           200,337.03
DEA         International Drug Enforcement Conference                                              Istanbul, Turkey       368         1,182,138.98
DEA         Internet Telecommunications Exploitation Program                                         Chantilly, VA         26            71,625.10
DEA         Basic Telecommunications Exploitation Program                                            Chantilly, VA         26            66,966.33
DEA         Human Resources Leadership Conference                                                    Potomac, MD           28            64,502.72
EOIR        Legal Training Conference                                                             Washington, D.C.        306           638,650.00
EOUSA       2008 U.S. Attorneys National Conference                                               Washington, D.C.        178           278,734.55
FBI         2008 Infragard Coordinators Annual Training                                           Baton Rouge, LA          73           115,084.34
FBI         2008 Infragard Conference                                                             Baton Rouge, LA          73           107,469.19
FBI         Navigating Strategic Change                                                              Evanston, IL          56           178,023.58
FBI         Navigating Strategic Change                                                              Evanston, IL          53           177,955.96
FBI         The Emerging Executive                                                                   Ashland, MA           42           115,544.19
FBI         National Executive Institute                                                          Sydney, Australia        36           219,233.21
FBI         Directors Advisory Committee National Symposium                                       Washington, D.C.        194           303,279.80
OJP         AMBER Alert the Media                                                                     Denver, CO           44            44,767.00
OJP         AMBER Forensics Training                                                                  Denver, CO           56            67,761.00
OJP         AMBER Leadership                                                                          Denver, CO           48            52,003.00
OJP         AMBER Alert National Conference                                                           Denver, CO          316           481,963.00
OJP         Accessing and Sustaining Resources for Community & Faith Based Organizations           Philadelphia, PA       259           194,581.46
OJP         SVAA Cluster Meeting                                                                  Washington, D.C.         50            55,386.25
OJP         Walking on Common Ground II                                                           Palm Springs, CA         157           64,705.00
OJP         Indian Country Sex Offender Registration and Notification Pre-Conference Institute    Palm Springs, CA         150           83,202.00
OJP         Office for Victims of Crime 11th National Indian Nations Conference                   Palm Springs, CA         750          222,835.00
OJP         NLC Protects: Confronting the Challenge of Sexual Exploitation Crimes                     Orlando, FL          301          178,516.00
OVW         Building Momentum 2008                                                                  Anchorage, AK          250          250,000.00
OVW         IACP National Law Enforcement Leadership Initiative on Violence Against Women           Charleston, SC         36            84,990.74
OVW         Leadership Institute #10                                                                Charleston, SC         37            84,069.93
OVW         Leadership Institute #11                                                                  Chicago, IL          40            89,427.59
OVW         2009 Regional Law Enforcement Training Symposium and Violence Against Women          National Harbor, MD      235           133,708.00
OVW         Enhancing Judicial Skills in Domestic Violence Cases Workshop                         San Francisco, CA        65            76,710.76
USMS        Mobile Force Protection Training                                                        Melbourne, FL          57           246,974.60
USMS        Post Training Tactical Operations Division                                              Melbourne, FL          53           244,550.17
                                                                                                                              TOTAL $7,647,762.69
Source: 	    This data is from JMD’s 2008 and 2009 consolidated quarterly reports on conference expenditures. We used this reported
             data in selecting conferences to audit. Actual attendance figures and costs may have varied.



                                                                              62
      We subsequently met with responsible officials from these 10
components and obtained background information on these 37 selected
events. The information solicited included an overview of each event’s
purpose, site selection, planning procedures, applicable contracts and
cooperative agreements, and budget estimates. We also discussed how
each component compiled and reported conference cost data to JMD. We
then reviewed and analyzed the documents received and applied 20 different
conference variables to identify the 10 conferences that we proposed
reviewing for the audit. The exhibit below features a selection of the
variables used to narrow our selection to 10 conferences.

            EXHIBIT I-3: SELECTION OF VARIABLES
              USED TO IDENTIFY 10 CONFERENCES

                -   Resort or perceived resort area
                -   Expensive food items
                -   Networking receptions, banquets,
                    awards ceremonies
                -   Agendas with significant free time
                -   Hosted at a private facility (hotel)
                -   Use of outside entity to plan
                    conference
                -   Limited documentation provided
                    during entrance conference
            Source: OIG analysis

      For our judgmental selection of ten conferences, we identified
conferences that reported high total costs or high costs in one cost category.
For example, we analyzed cost of meals and refreshments provided at the
conference to further our selection and determine if any of the expenditures
were expensive or extravagant.

       In addition to utilizing what we consider to be variables which
represent risk factors, we eliminated certain conferences out of the 37 due
to their distinct purpose in law enforcement training. In our narrowed
selection of 37 conferences, these training events included both Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) conferences, along with
training courses held by the Drug Enforcement Administration (DEA) and
FBI, and both U.S. Marshals Service (USMS) conferences. For our
judgmental selection of 10 conferences, we identified 3 OJP conferences all
held in conjunction with each other in what appeared to be a resort location
in Palm Springs, California with similar program-related purposes.
Combined, these costs for the OJP Palm Springs conferences constituted one
of the highest total costs for the component’s reported conferences. Also,

                                       63

we selected the DEA International Drug Enforcement Conference (IDEC),
which reported the highest cost for an international DOJ conference.

      We then took into account those conferences with high food and
beverage costs, including those with extremely high per person per day meal
and refreshment costs. The Organized Crime Drug Enforcement Task Force
(OCDETF) National Conference incurred the highest food and beverage costs
to the government, totaling $137,655. Also, the OJP America’s Missing:
Broadcast Emergency Response (AMBER) Alert Conference totaled over
$90,000 in food and beverage costs. Finally, we chose those conferences
that generally reported high total conference costs.

      Finally, in order to consider a sample of conferences planned through
in-house measures and not by a third party source, we selected the FBI
Director’s Symposium and the Executive Office for U.S. Attorneys (EOUSA)
National Conference.

      Exhibit I-4 shows the 10 conferences from 8 DOJ components we
selected for further review. In total, these 10 events accounted for over
$4.4 million of the total $121 million in conference costs reported for FYs
2008 and 2009.




                                      64

                  EXHIBIT I-4: FINAL DOJ CONFERENCES SELECTED FOR REVIEW


      Sponsoring                                                                                      Total Cost
     Component(s)                        Conference Title                    Location - Dates            ($)
Criminal Division and                                                         Washington, D.C.
                           National Conference                                                           360,185
OCDETF                                                                       July 20 – 23, 2009
                                                                               Istanbul, Turkey
DEA                        IDEC                                                                        1,181,902
                                                                              July 8 – 10, 2008
                                                                              Washington, D.C.
EOIR                       Legal Training Conference                                                     688,904
                                                                              Aug. 3 – 7, 2009
                                                                              Washington, D.C.
EOUSA                      National Conference                                                           259,648
                                                                             Feb. 11 – 14, 2008
                                                                              Washington, D.C.
FBI                        Directors Symposium                                                           302,428
                                                                             April 14 – 16, 2009
OJP, BJA and SMART                                                            Palm Springs, CA
                           Indian Country Pre-Conference                                                  90,201
Office (Co-sponsors)                                                           Dec. 10, 2008
                                                                              Palm Springs, CA
OJP, OVC                   Indian Nations Conference                                                     583,392
                                                                             Dec. 11 – 13, 2008
                                                                              Palm Springs, CA
OJP, BJA                   Walking on Common Ground II                                                   132,222
                                                                              Dec. 9 – 10, 2008
                                                                                 Denver, CO
OJP, OJJDP                 AMBER Alert Conference                                                        657,773
                                                                             Nov. 13 – 16, 2007
                                                                              San Francisco, CA
OVW                        Enhancing Judicial Skills Workshop                                            148,877
                                                                           March 28 – April 1, 2009
                                                                                              TOTAL   $4,405,532
Source: FY 2008 and 2009 conference expenditure listings compiled by JMD
Note:   Total cost based on OIG audit figures.




                                                           65

Audit Fieldwork

       We conducted our internal audit fieldwork with the DEA, FBI, EOUSA, 

EOIR, OJP, and OVW. We also contacted, visited, and performed fieldwork 

at private and non-profit organizations that were awarded DOJ funding to 

plan and host these conferences. 


       During our fieldwork, we identified and reviewed federal acquisition
and travel regulations, Government Accountability Office decisions, DOJ
directives, and component-level guidance regarding conference planning,
travel, and allowable expenditures. We also reviewed and analyzed
conference planning documents and summaries, conference attendance lists,
memoranda of understanding, and invoices. We subsequently met with the
hotels and sponsors hosting the conferences we reviewed, either on site or
via teleconference, to obtain final payment documentation and food and
beverage banquet checks.50

      After meeting with all DOJ components, technical assistance providers,
and hotels, we conducted our analysis of conference event planning, as
detailed in Finding I.

Event Planning Costs

      In our review, we considered event planning to include both logistical
services, such as hotel arrangements, and programmatic support, such as
curricula development. Event planners were not able to provide specific
event planning costs relating to their DOJ conferences because they were
not required to track and report salaries and benefits relating to their work
on each conference. Therefore, upon meeting with the event planners
during our audit, we asked them to estimate conference event planning
costs. During our audit, we relied on these estimates to compute event
planning salaries, benefits, and indirect costs previously not reported for
those conferences planned through cooperative agreements. In some cases,
it was not possible to match invoiced costs to specific reimbursements or
drawdowns because some planners working under cooperative agreements
tracked costs by award instead of by conference.

      We did not test travel vouchers when conducting analysis on
conference costs to determine compliance with pertinent travel rules and
regulations. We relied on those travel costs provided by the event planners
and did not test these costs using timesheets or drawdown payments.


       50
         The OIG’s contacts with the hotel hosting the EOIR conference are discussed in 

more detail below.


                                            66

Food and Beverage Costs

      Upon discussing with the hotels and obtaining either from the hotel or
from the Department components what was presented to us as final food
and beverage invoices and payments, we analyzed the nearly $490,000 in
food and beverage costs for the 10 conferences, as detailed in Finding II.
For those conferences serving both food and beverages, we assessed both
costs, while for those conferences that did not serve meals, we based our
analysis on the refreshment costs only.

       During our audit, we had an initial teleconference with the Capital
Hilton where we explained the scope of our audit and where they provided
us with general information about the EOIR conference. We subsequently
contacted the Capital Hilton’s staff by e-mail and telephone several times
requesting additional information about the specific itemized costs reflected
in banquet checks pertaining to the EOIR conference. The event planning
staff acknowledged our requests, but no additional explanation or
information was provided.

       As detailed in the preface to this revised report, the Capital Hilton
provided us with documents after the publication of our audit report to
demonstrate that individual refreshment items at the EOIR conference were
not as expensive as initially reported. After we received this information, we
contacted the EOIR, which told us it then searched its files and confirmed
that it had these documents. The EOIR stated it inadvertently did not
produce these documents to us during the audit. We issued this revised
report to reflect the information in the documents that the Capital Hilton
produced to us after the publication of our original audit.

      Because the JMD guidance was not implemented until April 2008, the
meal and refreshment cost thresholds did not apply to many of the 10
conferences reviewed because they were either held or were being planned
by the time the rules were issued. Further, the JMD policy stipulated that
the meal and refreshment limits did not apply to conferences funded through
cooperative agreements. As a result, the event planners for the reviewed
OJP and OVW conferences (all of which were planned with cooperative
agreements) were not required to follow the 150-percent meal and
23-percent refreshment thresholds. We nevertheless applied the April 2008
JMD thresholds as a benchmark to ascertain objectively whether meals and
refreshments appeared to be extravagant or wasteful uses of taxpayer
funds.




                                      67

       When conducting our analysis, we itemized the food costs based on
the hotel banquet checks. We calculated an updated unit price of each food
item offered at the conferences by adding applicable service charge and tax
to total an updated itemized cost. Unless stated otherwise in the report, we
relied on the banquet invoices provided by the component, planner, or hotels
hosting the conference. Itemized costs of food and beverages throughout
the report include minimal adjustments due to rounding the per item price to
the nearest cent. These rounded figures did not affect the overall calculated
cost of the conferences presented in the report.

      Because there are 128 ounces in each gallon and conference attendees
could have received different serving sizes of hot beverages, our audit
applied the standard 8-ounce measure for one cup as a single serving of
beverages procured by the gallon but served individually.




                                     68

                                                               APPENDIX II

             CONFERENCE FACTS AND SUMMARIES

      The following charts contain facts and summaries for the 10
conferences selected for our audit.

1. Criminal Division and OCDETF National Conference


  Formal Name: Organized Crime Drug Enforcement Task Force and
  Asset Forfeiture and Money Laundering Section National Leadership
  Conference

  DOJ Sponsor:            Criminal Division and OCDETF
  Dates Held:             July 20 to 23, 2009
  Venue:                  Omni Shoreham Hotel
  Location:               Washington, D.C.
  No. of Participants:    1,348

  Conference Summary: Conducted in partnership with the
  Department of Justice Asset Forfeiture and Money Laundering Section,
  this conference worked to prohibit financial infrastructure that supports
  drug trade. Conference attendees included United States Attorneys,
  Agency Headquarters leadership, money laundering specialists, and
  other senior leadership from agencies and components participating in
  the Department of Justice and Department of Treasury Asset Forfeiture
  Programs.




                                     69

2. DEA IDEC 



  Formal Name: 26th Annual International Drug Enforcement
  Conference

  DOJ Sponsor:           DEA
  Dates Held:            July 8 to 10, 2008
  Venue:                 Conrad Hotel Istanbul
  Location:              Istanbul, Turkey
  No. of Participants:   368

  Conference Summary: For the past 26 years, the DEA has
  sponsored the IDEC in partnership with a foreign law enforcement
  agency. The purpose of the conference is to share drug-related law
  enforcement information, identify common targets, and develop a
  coordinated regional and global approach to law enforcement efforts
  against international drug trafficking organizations, money laundering
  operations, and the diversion of essential and precursor chemicals.




                                    70

3. EOIR Legal Conference


  Formal Name: 2009 Legal and Interpreters Training Conference

  DOJ Sponsor:           EOIR
  Dates Held:            August 3 to 7, 2009
  Venue:                 Capital Hilton Hotel
  Location:              Washington, D.C.
  No. of Participants:   534

  Conference Summary: As the first comprehensive program offered
  by the EOIR, this event served as training for attorneys, paralegals,
  immigration judges, and representatives from the EOIR Office of the
  General Counsel. The training was comprised of various breakout
  sessions covering immigration law and custody and bond issues, and
  the conference served as a means for agency and court officials to
  discuss important issues and policy reform.




                                    71

4. EOUSA National Conference


  Formal Name: 2008 United States Attorneys’ National Conference

  DOJ Sponsor:            EOUSA
  Dates Held:             February 11 to 14, 2008
  Venue:                  J.W. Marriott
  Location:               Washington, D.C.
  No. of Participants:    166

  Conference Summary: The United States Attorneys’ National
  Conference is generally held annually and brings together all 93 U.S.
  Attorneys for training and to discuss the prosecution priorities of the
  Department of Justice, such as terrorism matters, Project Safe
  Childhood, and violent crime matters, among others. At the 2008
  United States Attorneys’ National Conference, EOUSA coordinated a
  half-day orientation for new United States Attorneys, held a half-day
  Attorney General’s Advisory Committee (AGAC) meeting, and held
  eight separate AGAC subcommittee meetings in an effort to enhance
  the work of each of these groups.




                                     72

5. FBI Director’s Symposium


  Formal Name: Director’s Advisory Committee National Symposium

  DOJ Sponsor:           FBI
  Dates Held:            April 14 to 16, 2009
  Venue:                 L’Enfant Plaza Hotel
  Location:              Washington, D.C.
  No. of Participants:   242

  Conference Summary: This Symposium is held every other year and
  provides training and information dissemination to representatives of
  the Director’s three Advisory Committees (Special Agent, Mid-
  Management, and Aegis). A large number of Assistant Directors and
  Unit Chiefs present information during breakout sessions. The Director
  also provides a general session to all committee representatives.




                                   73

6. BJA and SMART Office Indian Country Pre-Conference


  Formal Name: Indian Country Sex Offender Registration and
  Notification Pre-Conference Institute

  DOJ Sponsor:             OJP/BJA and SMART Office
  Dates Held:              December 10, 2008
  Venue:                   Wyndham Palm Springs Hotel
  Location:                Palm Springs, CA
  No. of Participants:     144

  Conference Summary: The Office of Sex Offender Sentencing,
  Monitoring, Apprehending, Registering, and Tracking organized this
  pre-conference institute to focus on issues related to Sex Offender
  Registration and Notification in Indian Country. The audience was
  primarily tribal criminal justice professionals and tribal leaders. This
  institute covered essential information for tribes seeking to timely
  comply with the Sex Offender Registration and Notification Act’s
  requirements.




                                      74

7. BJA Walking on Common Ground II


  Formal Name: Walking on Common Ground II

  DOJ Sponsor:           OJP/BJA
  Dates Held:            December 9 to 10, 2008
  Venue:                 Wyndham Palm Springs
  Location:              Palm Springs, CA
  No. of Participants:   153

  Conference Summary: Walking on Common Ground II brought
  together tribal, state, and federal justice communities and was a
  continuation of the 2005 Walking on Common Ground Conference.
  This gathering worked to improve the understanding, coordination,
  collaboration, and communication among tribal, federal, and state
  court relations. Those in attendance included judges, court
  commissioners, court administrators, peacemakers, and attorneys,
  among others.




                                   75

8. OJJDP AMBER Alert Conference


  Formal Name: 2007 National AMBER Alert Conference: AMBER Alert
  Training and Technical Assistance Program

  DOJ Sponsor:           OJP/OJJDP
  Dates Held:            November 13 to 16, 2007
  Venue:                 Grand Hyatt Denver
  Location:              Denver, CO
  No. of Participants:   367

  Conference Summary: The 2007 National AMBER Alert Conference
  included a gathering of law enforcement officers, media
  representatives, transportation officials, and missing children
  clearinghouse coordinators brought together to protect children by
  improving the response to and handling of missing children and
  abduction cases. Participants worked together to establish stronger
  lines of communication, discuss promising practices used in different
  jurisdictions, and identify all available resources at their disposal.




                                    76

9. OVC Indian Nations Conference


  Formal Name: 11th National Indian Nations Conference:
  “Strengthening the Heartbeat of All our Relations”

  DOJ Sponsor:           OJP/OVC
  Dates Held:            December 11 to 13, 2008
  Venue:                 Wyndham Palm Springs
  Location:              Palm Springs, CA
  No. of Participants:   750

  Conference Summary: This conference demonstrated methods and
  strategies to improve safety as well as promote justice and healing for
  crime victims through cooperation and collaboration between tribal,
  federal, state, and private entities in American Indian and Alaska
  Native communities.




                                    77

10. OVW Enhancing Judicial Skills Workshop


  Formal Name: Enhancing Judicial Skills in Domestic Violence Cases
  Workshop


  DOJ Sponsor:           OVW
  Dates Held:            March 28 to April 1, 2009
  Venue:                 Hilton San Francisco Financial District
  Location:              San Francisco, CA
  No. of Registrants:    66

  Conference Summary: Held numerous times in a grant period, this
  conference offers interactive workshops that provide a foundation for
  new and experienced state and tribal court judges to enhance their
  skills in handling civil and criminal domestic violence cases. Through
  hypothetical case problems, role-play exercises, small-group
  discussions, and faculty demonstrations, judges in various jurisdictions
  learn from one another in various domestic violence case scenarios.




                                    78

                                                                               APPENDIX III

            APRIL 2008 JUSTICE MANAGEMENT DIVISION
                    CONFERENCE COST POLICY




                             FINANCIAL MANAGEMENT

                        POLICIES AND PROCEDURES BULLETIN 



No. 08-08                                                                         April 2008


TO:            Executive/Administrative Officers
               Offices, Boards, and Divisions

               JMD Senior Staff

               Bureau Chief Financial Officers

               /s/
FROM:          Melinda B. Morgan
               Director
               Finance Staff
               Justice Management Division

SUBJECT:       Conference Planning, Conference Cost Reporting, and Approvals to Use
               Nonfederal Facilities


1. PURPOSE. This policy provides guidance to components when planning and reporting on
conferences. This policy also lays out the requirement for components to seek approval prior to
using a non-federal facility for a predominantly internal training or conference meeting.

2. BACKGROUND. In the summer of 2005, a subcommittee of the U.S. Senate Committee on
Homeland Security and Governmental Affairs launched a government-wide inquiry into
conference spending. The inquiry found that since fiscal year (FY) 2000, federal agencies spent
at least $1.4 billion on conferences and did not consistently or transparently track funds spent on

                                                 79

conferences and related travel. In September 2007, the Department of Justice's (Department)
Inspector General (IG) released a report highlighting the high costs and inconsistent or
nonexistent reporting procedures of 10 conferences conducted by the Department in FY 2006.
The IG Report recommended that the Department develop and implement consistent conference
planning and reporting procedures. The procedures contained in this policy are consistent with
the recommendations contained in the IG Report. Additionally. Section 218 of the Department
of Justice Appropriations Act, 2008 (Title II, Division B, Public Law 110-161), requires the
Attorney General to submit quarterly reports to the IG regarding the costs and contracting
procedures for each conference held by the Department for which the cost to the government was
more than $20,000. Therefore, each component is required to submit to the Justice Management
Division a quarterly report regarding the conferences it funds.

Finally, section 1173 of Public Law 109-162, the Violence Against Women and Department of
Justice Reauthorization Act of 2005, states that unless authorized in writing by the Attorney
General, the Department (and each entity within it) shall use for any predominantly internal
training or conference meeting only a facility that does not require a payment to a private entity
for the use of the facility. The Act also requires the Attorney General to prepare an annual report
to the Chairmen and ranking minority members of the Committees on the Judiciary of the Senate
and of the House of Representatives that details each training and conference meeting that
required specific authorization. The report must include an explanation of why the facility was
chosen and a breakdown of any expenses incurred in excess of what would have been the cost of
conducting the training or conference meeting at a facility that did not require such authorization.
The Attorney General has delegated his responsibilities under this provision to the Assistant
Attorney General for Administration (AAG/A).

3. DIRECTIVES AND SOURCES REFERENCED.

   5 U.S.C. §4101(6), Definitions, Non-Government Facility
   31 U.S.C. §3302, Custodians of Money (“Miscellaneous Receipts Act”)
   31 U.S.C. §6305, Using Cooperative Agreements
   Department of Justice Appropriations Act, 2008 (Title II, Division B, Public Law 110-161)
   The Violence Against Women and Department of Justice Reauthorization Act of 2005
    (Public Law 109-162)
   Federal Travel Regulation (FTR), 41 C.F.R. §300-3.1 and §301-74
   Department of Justice, Office of the Inspector General, “Department of Justice Conference
    Expenditures,” Audit Report 07-42, September 2007 (“IG Report”)
   Uniform Administrative Requirements for Grants and Cooperative Agreements with Non-
    Profit Organizations (28 C.F.R. part 70)
   Federal Acquisition Regulation (FAR), Volume I, Part 10
   Office of Management and Budget (OMB) Cost Principles Circular A-122, 2 C.F.R. 230
   Office of Justice Programs Financial Guide
   Financial Management Memorandum 08-07, Implementation Guide for Financial
    Management Policies and Procedures Bulletin 08-08, Conference Planning, Conference Cost
    Reporting, and Approvals to Use Non-federal Facilities

4. DIRECTIVES RESCINDED.

                                                80

	 Financial Management Policies and Procedures Bulletin 06-12, Use of Non-federal
   Conference and Training Facilities
	 Financial Management Policies and Procedures Bulletin 00-19, Refreshments at Conferences

5. 	 DEFINITIONS.

a.	 Conference. The FTR defines “conference,” in part, as a meeting, retreat, seminar,
    symposium, event or training activity. 41 C.F.R. §300-3.1. A conference is typically a
    prearranged event with designated participants and/or registration, a published substantive
    agenda, and scheduled speakers or discussion panels on a particular topic.

   This Bulletin applies to any conference planned and held by components themselves, and
   conferences funded by a component but conducted by an outside entity through the use of a
   contract or a cooperative agreement. For a conference conducted through the use of a
   cooperative agreement, only §§9 and 10(b) of this guidance are applicable. With respect
   to conferences funded by more than one agency, this Bulletin applies if the Department
   provides more funding than any other agency. When reporting on such conferences, a
   component should only account for the funding provided by the Department.

   The following types of activities are excluded from the definition of “conference” for the
   purposes of the §10(a) reporting requirement only. (Examples for each of the following
   types of activities that are excluded can be found in Attachment A.)

   1)	 Law enforcement planning, staging, surveillance, undercover, or other meetings related to
       a law enforcement operation, and meetings to coordinate the Department's investigative,
       intelligence and/or prosecutorial efforts in connection with a pending case, specific
       criminal activity or a threat against the United States, including those that occur at law
       enforcement or security operational centers;

   2) Training courses taught at federal training centers, such as the National Advocacy Center,
      the Federal Law Enforcement Training Center, the Federal Bureau of Investigation
      National Academy, and the Drug Enforcement Administration Training Academy;

   3)	 Undercover activities and training conducted in accordance with the Attorney General’s
       guidelines; or

   4) Testing where the primary purpose of the event is to evaluate an applicant's qualifications
      to perform certain duties necessary to perform his or her job. In order for an event
      involving testing to be excluded from the reporting requirement, the majority of the event
      must be devoted to the administration and taking of the test. An event is not excluded
      from the reporting requirement if a test is incidental to the training course and is given
      upon its completion to determine satisfactory participation.

b.	 Predominantly internal training or conference meeting. A predominantly internal training or
    conference meeting is one that is held by the Department and where the majority (more than

                                               81

   50%) of the attendees are Department employees. As above, “training or conference
   meeting” is defined broadly to include a meeting, retreat, seminar, symposium, event or
   training activity. 41 C.F.R. §300-3.1. The above list of activities (§5(a)(1)-(4)) that are
   excluded from the conference reporting requirements of §10(a) are not excluded from this
   definition. For the purposes of this bulletin, “predominantly internal training or conference
   meetings” will be referred to as “predominantly internal events.”

c.	 Federal facility. Federal facility means property owned, leased, or substantially controlled by
    the federal Government or the Government of the District of Columbia.

d.	 Non-federal facility. Non-federal facility is any facility that is not a federal facility. For
    further clarification see the definition of “non-Government facility” in 5 U.S.C. §4101(6).

e.	 Conference or Event planner. A conference or event planner is a contractor hired by a
    component to perform the logistical planning necessary to hold a conference. “Logistical
    planning” may include: interacting with caterers, recommending venues, developing
    programs, advertising, setting the stage and audio/visual (a/v) equipment, securing hotel
    rooms, and other non-programmatic functions.

6. 	 CONFERENCE PLANNING.

a.	 Conference Justification. The decision to host any event, whether it be a conference or
    predominantly internal event, or to send employees to attend an event, requires fiscal
    prudence and is subject to the availability of funds from individual component
    appropriations. Components must document a written justification for each conference that
    includes a programmatic reason to hold the event and an approval from an appropriate
    sponsoring agency official.

b.	 Planning Requirements. When planning a conference, components are required to follow
    Part 301-74 of Title 41 of the Code of Federal Regulations, entitled “Conference Planning.”
    These regulations, in part, require that components:

   1)	 Minimize all conference costs, including administrative costs, conference attendees'
       travel costs, and conference attendees' time costs;

   2)	 Maximize the use of Government-owned or Government provided conference facilities as
       much as possible; and

   3) Identify opportunities to reduce costs in selecting a particular conference location and
      facility (e.g., through the availability of lower rates during the off-season at a site with
      seasonal rates). 41 C.F.R. §301-74.1.




                                                 82

c.	 Use of External Conference Planners. Minimizing conference costs must be a critical
    consideration in a component's decision whether to plan a conference with internal
    Department staff or to enter into a contract with an external conference planner. The use of
    an external conference planner should be used only when necessary and conference planning
    costs should always be kept to a minimum.

d.	 Large and/or Expensive Conferences. The appropriate Component Procurement Chief must
    review and approve all conferences exceeding $500,000, or that will have over 500 attendees.
    Such approval must be in writing and submitted with the report required in §10(a).

e.	 Charging Conference Fees. A component cannot charge fees to conference attendees to
    cover its costs unless the component has very specific statutory authority to do so. See 31
    U.S.C. §3302. However, if the component uses a private contractor (such as an external
    event planner, hotel, or other third party) to facilitate the conference or provide goods and
    services to the attendees, the contractor may charge fees. It is important that the fees charged
    by the contractor cover only the goods and/or services provided to the attendees by the
    contractor (or subcontractor(s)) and do not cover or defray costs that are the responsibility of
    the component. For example, if a contractor such as a hotel is providing attendees with
    lodging, meals and refreshments for a conference, the hotel may charge attendees directly for
    the costs of those items. The contractor must deal directly with the attendees to collect the
    fees; the component must not be involved in any such collection.

f.	 Selecting a Location. An event location is comprised of two variables: the city and the
    facility in which the event takes place. To ensure that the government obtains the best
    conference location for the best value, conference planners must compare multiple facilities
    in multiple cities, unless an overriding operational reason is documented to hold the
    conference in a specific city. Adequate cost comparisons should compare and document the
    availability of lodging rooms at per diem rates, the convenience of the conference location,
    availability of meeting space, equipment and supplies, and the commuting or travel distance
    of attendees.

   To ensure that components maximize the use of federal facilities and minimize total costs to
   the Department, conference planners shall first consider all federal facilities in the locations
   identified via city-level cost comparison analysis. A list of some federal facilities is available
   on the Non-federal Facility Request Center web site:
   http://10.173.2.12/jmd/fs/nfrc/index.htm. If a federal facility meets the component's needs at
   a reasonable price, there is no requirement that non-federal facilities be considered. The
   component may consider non-federal facilities if:

   1)	 federal facilities are not available or do not meet the component's requirements (e.g., size
       of the meeting room, necessary technological equipment, sufficient lodging at the facility
       or in the proximity of the facility); or

   2)	 the component believes that a non-federal facility can be procured at a lower cost taking
       into account all costs described in this section.

                                                83

   If a federal facility cannot meet the component's needs at a reasonable price, the conference
   planner must conduct and make available market research to determine the facility that best
   meets the needs of the conference as set forth in the Federal Acquisition Regulation (FAR),
   Volume 1, Part 10. In order for this market research to be effective, the components must
   communicate the same sufficiently detailed requirements to all potential facilities. During
   the market research, components must not make any commitments to any of the facilities.
   The market research must determine the cost of the event with respect to each of the three (or
   more) facilities, broken down as follows. Costs related to attendees (e.g., travel, lodging, per
   diem) must include costs of all attendees whose expenses are being covered by the
   component; therefore, include Department employees as well as non-Department attendees
   (e.g., facilitators, guest speakers) whose expenses are being covered by the component.

       1)    conference and meeting space, including rooms for break-out sessions; 

       2)    audio visual services; 

       3)    other equipment costs (e.g., computer fees, telephone fees); 

       4)    printing and distribution; 

       5)    meals provided by the Department; 

       6)    refreshments provided by the Department; 

       7)    meals and incidental expenses for attendees (M&IE portion of per diem); 

       8)    lodging costs; 

       9)    transportation to/from conference location (e.g., common carrier, POV); 

       10)   local transportation (e.g., rental car, POV) at event location;

       11)   conference planners; 

       12)   conference facilitators; 

       13)   any other costs associated with the conference.


   Any component wishing to hold a predominantly internal event at a non-federal facility that
   requires payment to that facility for the event (including any payment for meals, lodging, or
   other expenses related to the event) must obtain approval from the AAG/A before entering
   into a contract with such facility. See §8(b). Special approval is also required to hold such
   an event in certain locations. §8(b)(3).

7. 	 MEALS AND REFRESHMENTS.

a.	 When permissible to provide.

   1)	 Federal Government Employees. Meals and/or refreshments51 may be paid for by the
       Department and provided to federal Government employees at conferences or training
       sessions where all three of the following are true:




       51
        [Original Footnote 1] Note that the rules are the same regardless of whether the
component is providing a meal or merely refreshments.

                                               84

       a)	 the meals and refreshments are incidental to the conference or training;

       b)	 attendance at the meals and when refreshments are served is important for the host
           agency to ensure attendees' full participation in essential discussions, lectures, or
           speeches concerning the purpose of the conference or training; AND

       c)	 the meals and refreshments are part of a conference or training that includes not just
           the meals and refreshments and discussions, speeches, lectures, or other business that
           may take place when the meals and refreshments are served, but also includes
           substantial functions occurring separately from when the food is served.

       While as a general rule the Department does not pay for meals and/or refreshments for
       employees at their duty stations, if a conference or training meets the above criteria,
       meals and refreshments may be served to employees who are not on travel. With respect
       to Department employees who are on travel, they must deduct from their per diem the
       amount for each meal provided by the Department.

   2)	 Non-Federal Government Attendees. The Department can only pay for the meals and/or
       refreshments52 of non-federal attendees at conferences IF ONE of the following applies:

       a)	 The component has specific statutory authority permitting it (e.g., 42 U.S.C. §3788(f)
           for programs covered by the Omnibus Crime Control and Safe Streets Act; 42
           U.S.C.A. §3771 and note);

       b) The non-federal attendees qualify as individuals serving the Department pursuant to 5
          U.S.C. §5703;53 OR

       c) The expenses can be considered official reception and representation expenses (28
          U.S.C. §530C(b)(1)(D), and are counted towards the Department's Representation
          Fund limitations (see DOJ Order 2110.31 B).

   3) Charging Non-Federal Attendees. As discussed in §6(e), a private contractor (such as an
      external event planner, hotel, or other third party) can charge fees to non-federal
      attendees to cover the costs of such goods and services as meals and/or refreshments.
      The contractor must deal directly with the attendees to collect the fees for the meals
      and/or refreshments; the component must not be involved in any such collection.




       52
        [Original Footnote 2] Note that the rules are the same regardless of whether the
component is providing a meal or merely refreshments.
       53	
            [Original Footnote 3] Non-federal attendees who are provided any travel, lodging
or meals and/or refreshments by the Department pursuant to 5 U.S.C. §5703 must be
issued invitational travel orders. These are required even when a non-federal attendee is
“local” to the conference and is only being provided meals and/or refreshments.

                                               85

b.	 Minimizing costs of meals and refreshments. Components (as well as contractors hired as
    conference or event planners) must adhere to the following cost thresholds, described further
    in Attachment B, for the costs of the meals and refreshments provided at the conference.

   1)	 Refreshments. Refreshments include light food and drink served at breaks, such as
       coffee, tea, milk, juice, soft drinks, donuts, bagels, fruit, pretzels, cookies, chips, or
       muffins. The cost of these items, plus any hotel service costs, cannot exceed 23% of the
       locality M&IE rate per person per day. For example, if the M&IE rate for a particular
       location is $54.00 per person per day, then the total refreshments costs cannot exceed
       $12.42 ($54.00 x 23%) per person per day.

   2)	 Meals. The cost of any meal provided, plus any hotel service costs, cannot exceed 150%
       of the locality M&IE rate per meal. For example, if dinner will be provided in a locality
       with a $49.00/day M&IE rate, the dinner rate in the locality is $24.00 per dinner.
       Therefore, the cost of the dinner provided at the conference cannot exceed $36.00
       ($24.00 x 150%) per person. All Department employees attending the conference must
       ensure that the provided meal is deducted from their claimed M&IE; in this example the
       employee would deduct $24.00 from claimed M&IE for the provided dinner.

   3)	 Component Heads must request approval from the AAG/A to provide refreshments or
       meal costs that exceed these thresholds. See §8(d).

8. 	 SPECIAL APPROVALS.

a.	 Use of Non-Federal Facilities for Predominantly Internal Events.

   1) Any component wishing to hold a predominantly internal event at a non-federal facility
      that requires payment to that facility for the event (including any payment for meals,
      lodging, or other expenses related to the event) must obtain approval from the AAG/A
      before entering into a contract with such facility. Such requests must be submitted by no
      lower than the management official responsible for approving the conference in the
      component and must be sent to the Director, Finance Staff, using the Conference
      Reporting and Non-federal Facility Request Center web site,
      http://10.173.2.12/jmd/fs/nfrc/index.htm. Any request for approval of a non-federal
      facility must include the following:

       a)	 Statement of the purpose of the training or conference meeting;
       b)	 Number of attendees and their organizations and duty stations (components must also
           indicate which, if any, of the attendees who are not Departmental employees will
           have their expenses paid for by the component);
       c) Frequency of the training or conference meeting and the date of the last such event, if
           applicable;
       d) Dates of the training or conference meeting;
       e) Location of the training or conference meeting (city/state) and reason(s) for choosing
           the location;



                                               86

       f)	 Reason why a location where a federal facility is located was not considered, if
           applicable;
       g) List of federal and non-federal facilities considered;
       h) Estimated costs of using each of the federal and non-federal facilities considered,
           including all costs listed in §6(f) as determined by the market research, itemized and
           broken out by category;
       i) Reasons why the federal facilities did not meet the meeting's requirements, if
           applicable (refer to §6(f)); 

       j) Justification for the use of a non-federal facility; and 

       k) Gift acceptance approval, if required.


   2) Approval for Certain Locations. Any request to hold a predominantly internal event in a
      non-federal facility in the following locations must be submitted by the Component
      Head, and this responsibility cannot be redelegated.

       a) Any location outside the continental United States (including Hawaii and Alaska);
       b) Any location known for gambling (e.g., Las Vegas, Nevada; Reno, Nevada; Atlantic
          City, New Jersey);
       c) Any location considered a tourist attraction or common vacation location (e.g.,
          Disney World and Orlando, Florida; Niagara Falls, New York; Lake Tahoe); or
       d) Any resort facility or resort location (e.g., Hilton Head, South Carolina; Sonoma
          Valley, California).

b.	 Large and/or Expensive conferences. The appropriate Component Procurement Chief must
    review and approve all conferences exceeding $500,000, or that will have over 500 attendees.
    Such approval must be in writing and submitted with the report required in §10(a).

c.	 Meals and Refreshments Exceeding Thresholds. Component Heads must request approval
    from the AAG/A to provide meals and/or refreshments that exceed the cost thresholds
    described in §7(b). Component Heads must submit a memorandum to the AAG/A through
    JMD Finance Staff acknowledging that the proposed meals and refreshments exceed these
    thresholds and explaining why this is deemed necessary. This responsibility cannot be
    redelegated. When the conference at issue also requires a request to use a non-federal
    facility, this memorandum must be submitted with the non-federal facility request form. For
    all other events, the memorandum must be submitted to
    Conferences.and.Non-federal.Center@usdoj.gov.

9. 	 CONFERENCES HELD BY COOPERATIVE AGREEMENT RECIPIENTS.

a.	 When to Use Cooperative Agreement. A cooperative agreement may not be chosen in order
    to avoid the statutory and regulatory requirements associated with the use of a contract. The
    decision to use a cooperative agreement, as opposed to a contract or grant, should be made in
    consultation with the component's legal counsel, applying the standards set forth in
    31 U.S.C. §6305, which, in general, authorizes the use of a cooperative agreement where the
    conference would carry out a public purpose of support or stimulation of outside entities, and
    substantial involvement by the Department is expected. Although the standards in §6305

                                               87

   must govern the choice of vehicle, in determining if a conference would carry out such a
   public purpose (as opposed to merely providing a direct benefit to the Department or its
   employees), a significant factor is whether the primary beneficiaries of the conference are
   outside the federal Government.

b.	 Cost Principles that Apply to Non-Profit Cooperative Agreement Recipients.

   1)	 Directives. Non-Profit cooperative agreement recipients must comply with the Uniform
       Administrative Requirements for Grants and Cooperative Agreements with Non-Profit
       Organizations (28 CFR Part 70), OMB Cost Principles Circular A-122, 2 C.F.R. 230,
       and, if applicable, the Office of Justice Programs Financial Guide, or any other
       component-specific guidance. According to A-122: “Costs of meetings and conferences,
       the primary purpose of which is the dissemination of technical information, are
       allowable. This includes costs of meals, transportation, rental of facilities, speakers' fees,
       and other items incidental to such meetings or conferences.”

   2)	 Reasonable Standard. The amount spent on conference costs is governed by the general
       principle that the costs be “reasonable,” which is further defined in OMB Circular A-122,
       Attachment A, paragraph 3. Furthermore, cooperative agreement recipients must comply
       with the travel guidelines at OMB Circular A-122, Attachment B, paragraph 51, and the
       OJP Financial Guide (if applicable), which require that if a recipient does not have a
       written travel policy, the recipient must abide by the rates and amounts established by the
       General Services Administration (GSA) in the Federal Travel Regulations, 41 C.F.R. ch.
       30l.54

c.	 Required Special Condition For New Awards. All cooperative agreements that include
    holding a conference as a recipient responsibility must include the following special
    condition:

   “Within 45 days after the end of any conference, meeting, retreat, seminar, symposium,
   training activity. or similar event funded under this award, and the total cost of which
   exceeds $20,000 in award funds, the recipient must provide the program manager with the
   following information and itemized costs:

   1) name of event; 

   2) event dates; 

   3) location of event; 

   4) number of federal attendees; 

   5) number of non-federal attendees; 

   6) costs of event space, including rooms for break-out sessions; 

   7) costs of audio visual services; 

   8) other equipment costs (e.g., computer fees, telephone fees); 

   9) costs of printing and distribution; 

   10) costs of meals provided during the event; 


       54
        [Original Footnote 4] GSA's regulations and per diem rates may be found at
www.gsa.gov.

                                                88

   11) costs of refreshments provided during the event; 

   12) costs of event planner; 

   13) costs of event facilitators; and

   14) any other direct costs associated with the event.


   The recipient must also itemize and report any of the following attendee (including 

   participants, presenters, speakers) costs that are paid or reimbursed with cooperative 

   agreement funds: 


   1) meals and incidental expenses (M&IE portion of per diem); 

   2) lodging; 

   3) transportation to/from event location (e.g., common carrier, privately owned vehicle 

      (POV)); and

   4) local transportation (e.g., rental car, POV) at event location.


   Note that if any item is paid for with registration fees, or any other non-award funding, then
   that portion of the expense does not need to be reported.”

d.	 Information Gathered From Former or Existing Cooperative Agreement Recipients.
    Components are required to gather the specific information listed in section (c) from any
    cooperative agreement recipient that held a conference between October 1, 2007 and the
    present, and from any cooperative agreement recipient that holds a conference under the
    terms of an existing cooperative agreement.

e.	 Review and Reporting. Each sponsoring component must review the itemized costs and
    clarify any of the reported information with the cooperative agreement recipient, as
    necessary. The component must also itemize all of the transportation costs, M&IE, per diem,
    and lodging costs paid by the component itself to send either its component employees or
    employees of another DOJ component to the event. The DOJ employee travel costs paid by
    the component should be added to each itemized category as well as the overall cost of the
    event. Within 45 calendar days following the close of each fisca1 quarter, the component
    shall submit a report on each conference costing more than $20,000 held by its cooperative
    agreement recipients, as described in §10(b).

10. REPORTING.

a.	 Quarterly Reporting of Conference Costs. The Attorney General is required to submit
    quarterly reports to the IG regarding the costs and contracting procedures relating to each
    conference held by the Department for which the total cost of the conference was more than
    $20,000. To facilitate this process, each office holding a conference as defined by §5(a) and
    costing more than $20,000, is required to submit the following information to the appropriate
    office within its component:

   1) a description of the purpose of each conference, the number of participants attending the
      conference, and how many were federal government employees;



                                               89

   2)	 a detailed list of all costs categorized in §6(f), and any issues encountered in determining
       the costs related to that conference; and
   3) a description of the contracting procedures with respect to each contract relating to that
       conference, including:
       a) whether contracts were awarded on a competitive basis for that conference; and
       b) a discussion of any cost comparison conducted by the Department in evaluating
           potential contractors for that conference.

   No later than 45 calendar days following the close of each fiscal quarter, every component
   that has held a conference as defined by §5(a) during that quarter must submit a report,
   signed by the Component Head, which includes the above information for each such
   conference. The template at Attachment B should be used to compile the information and
   submit this report. The component must also submit any special approvals required by §8
   with this report. The report must be submitted to
   Conferences.and.Non-federal.Center@usdoj.gov.

b. 	 Quarterly Reporting on Cooperative Agreement Conferences. No later than 45 calendar days
     following the close of each fiscal quarter, every component that has held a conference as
     defined by §5(a), through the use of a cooperative agreement as described in §9 and costing
     more than $20,000, shall report on the event using the template at Attachment B. The report
     must be submitted to Conferences.and.Non-federal.Center@usdoj.gov.

c.	 Quarterly Reporting on Use of Non-Federal Facilities for Predominantly Internal Events.
    Within 45 calendar days following the close of each fiscal quarter, every component that has
    held a predominantly internal event at a non-federal facility must submit a report, signed by
    the Component Head, to Conferences.and.Non-federal.Center@usdoj.gov. The template at
    Attachment B should be used to compile the information and submit this report. The report
    must highlight and explain any increases in costs above those submitted with the original
    request for approval. All market research data and cost analysis/actual cost information must
    remain on file with the component.

11. QUESTIONS. Questions regarding these requirements may be directed to Lori Armold,
Assistant Director, Financial Management Policies and Requirements Group, Finance Staff, on
(202) 616-5216, or Melinda Jones, of her staff, on (202) 353-2527.

Attachments




                                               90

                                                                                  [Attachment A]

                    Activities Not Reported as Conferences under §10 (a)

Activity Type 1:
Law enforcement planning, staging, surveillance, undercover, or other meetings related to a law
enforcement operation, and meetings to coordinate the Department's investigative, intelligence
and/or prosecutorial efforts in connection with a pending case, specific criminal activity or a
threat against the United States, including those that occur at law enforcement or security
operational centers.

                                          Activity
                       Meeting of attorneys to discuss a pending case
           Meeting of DOJ agents to discuss strategy in an ongoing hostage situation

Activity Type 2:
Training courses taught at federal training centers, such as the National Advocacy Center, the
Federal Law Enforcement Training Center, the Federal Bureau of Investigation National
Academy, and the Drug Enforcement Administration Training Academy.

Activity Type 3:
Undercover activities and training conducted in accordance with the Attorney General 's
guidelines.

Activity Type 4:
Testing where the primary purpose of the event is to evaluate an applicant's qualifications to
perform certain duties necessary to perform his or her job. In order for an event involving testing
to be excluded from the reporting requirement, the majority of the event must be devoted to the
administration and taking of the test. An event is not excluded from the reporting requirement if
a test is incidental to the training course and is given upon its completion to determine
satisfactory participation.

                                            Activity
                                 Quarterly Firearms Certification




                                                91

                                                                             [Attachment A]
                                      (continued)

             Activities Reported as Conferences under §10(a) if over $20,000

              Activity                                        Description
OCDETF Financial Investigations          Mandated seminar to learn financial
Seminar                                  investigative techniques of criminal enterprise
Computer Analysis and Response Team      Attendees meet to gain exposure to cross
Moot Court                               examination from attorneys on cases they have
                                         investigated
OIG Investigations Managers Conference   Meeting of Senior Managers from within the
                                         Investigations Division
Immigration Judge Training               Immigration judges from across the U.S. gain
                                         training and participate in policy discussions
Operational Medic Program                Attendees are trained in order to comply with
                                         National Registry of Emergency Technicians
                                         national standards




                                           92

                                                                                                                     [Attachment B]
                                                   Quarterly Report on Conference Costs


                  Component:                                                                  Telephone:

             Point of Contact:                                                                    Email:

                                                                                  Conferences/Events
Conference Title:
                                             Non-Federal      Conference      Non-Federal       Conference     Non-Federal       Conference
Event Type                                     Facility      over $20,000       Facility        over $20,000     Facility       over $20,000


Conference Data (Start & End)
Facility Name
City and State
Number of Federal Attendees
Number of non-Federal Attendees
Total Number of Attendees

Purpose of the Conference
Conference Costs:
Conference/Meeting Space (incld.
                                                                     $0.00                             $0.00                           $0.00
Break out Room Cost)
A/V Equipment & Services                                             $0.00                             $0.00                           $0.00
Other Equipment Costs                                                $0.00                             S0.00                           $0.00
Printing and Distribution                                            $0.00                             $0.00                           $0.00
Govt Provided Meals                                                  $0 00                             $0.00                           $0.00
Refreshments                                                         $0.00                             $0.00                           $0.00
M&IE                                                                 $0.00                             $0.00                           $0.00
Lodging                                                              $0.00                             $0.00                           $0.00
Transportation                                                       $0.00                             $0.00                           $0.00
Local Transportation                                                 $0.00                             S0.00                           $0.00
Conference Planner                                                   $0.00                             $0.00                           $0.00
Conference Facilitator                                               $0.00                             $0.00                           $0.00
Other Costs                                                          $0.00                             $0.00                           $0.00
Total Conference Coat                                                $0.00                             $0.00                           $0.00
Average Cost per Attendee                                            $0.00                             $0.00                           $0.00

Describe any issue encountered in
determining the cost related to the
             1
conference
                                        2
Description of contracting procedures

                                                   For Events In Nonfederal Facilities Only
Total Original Coat Estimate                                         $0.00                             $0.00                            $0.00
Variance (Actual vs. Estimated)                                      $0.00                             $0.00                            $0.00
                         3
Variance Justification :

'Attach additional page to explain methodology if you are unable to capture costs as described in Policy XX or if any coats appear to be
out of the ordinary.
2
    Attach additional pages to explain contracting procedures.
3
 Use Attachment C to provide a justification narrative for all events in which the actual coat exceeds the estimate, the justification needs
to be itemized.


                                                                    93

                                                                                                             [Attachment C]

                                   Non-federal Facility Event Variance Justification
Conference Title:
Conference Date:
City and State:


                                                                                                         1
          Conference Costs:            Estimated Cost     Reported Cost    Variance      Justification
Conference/Meeting Space                          $0.00            $0.00         $0.00
A/V Equipment & Services                          $0.00            $0.00         $0.00
Other Equipment Costs                             $0.00            S0.00         $0.00
Printing and Distribution                         $0.00            $0.00         $0.00
Govt Provided Meals                               $0 00            $0.00         $0.00
Refreshments                                      $0.00            $0.00         $0.00
M&IE                                              $0.00            $0.00         $0.00
Lodging                                           $0.00            $0.00         $0.00
Transportation                                    $0.00            $0.00         $0.00
Local Transportation                              $0.00            S0.00         $0.00
Conference Planner                                $0.00            $0.00         $0.00
Conference Facilitator                            $0.00            $0.00         $0.00
Other Costs                                       $0.00            $0.00         $0.00
Total Conference Coat                             $0.00            $0.00         $0.00


Conference Title:
Conference Date:
City and State:


                                                                                                         1
          Conference Costs:            Estimated Cost     Reported Cost    Variance      Justification
Conference/Meeting Space                          $0.00            $0.00         $0.00
A/V Equipment & Services                          $0.00            $0.00         $0.00
Other Equipment Costs                             $0.00            S0.00         $0.00
Printing and Distribution                         $0.00            $0.00         $0.00
Govt Provided Meals                               $0 00            $0.00         $0.00
Refreshments                                      $0.00            $0.00         $0.00
M&IE                                              $0.00            $0.00         $0.00
Lodging                                           $0.00            $0.00         $0.00
Transportation                                    $0.00            $0.00         $0.00
Local Transportation                              $0.00            S0.00         $0.00
Conference Planner                                $0.00            $0.00         $0.00
Conference Facilitator                            $0.00            $0.00         $0.00
Other Costs                                       $0.00            $0.00         $0.00
Total Conference Coat                             $0.00            $0.00         $0.00

1
    Attach additional pages to describe justification




                                                                   94
                                                                                     APPENDIX IV

  ASSISTANT ATTORNEY GENERAL FOR ADMINISTRATION
   MEMORANDUM SUMMARIZING CONFERENCE POLICY

                                                           U.S. Department of Justice
                                                           Justice Management Division
              


                                                           Washington, D.C. 20530
JUNE 5, 2008

MEMORANDUM FOR COMPONENT HEADS

FROM:                   Lee J. Lofthus
                        Assistant Attorney General
                            for Administration

SUBJECT: 	              Conference Planning, Conference Cost Reporting, and Approvals to Use
                        Non-federal Facilities

Attached is Financial Management Policies and Procedures Bulletin (P&P) 08-08, Conference Planning,
Conference Cost Reporting, and Approvals to Use Non-federal Facilities, which covers the new
conference planning and reporting requirements. The prior Bulletin, Use of Non-federal Conference and
Training Facilities, 06-12, has been rescinded and is combined with this policy. The attached Executive
Summary explains the new requirements contained in this policy. The two primary goals of the new
policy are to keep conference costs to a minimum and to ensure we can fulfill the statutory reporting
requirements to Congress. In addition, I want to remind you of some considerations to help ensure your
approval requests and reports are processed smoothly.

	 Avoid locations and accommodations that give the appearance of being lavish or are resort
   destinations. Component Heads are required to submit written justification if the facility gives the
   appearance of being lavish or is a resort location. This cannot be re-delegated.
 Ensure the selected lodging location is within per diem.

 Ensure the costs of meals and refreshments are within the prescribed limits.

 Ensure meals provided by the government are deducted from Meals and Incidentals Expenses 

   (M&IE) claimed by all Department of Justice attendees (by meal).
 Ensure that multiple facilities in multiple cities are compared when considering conference locations.
 Ensure proper requests are submitted to the Justice Management Division in time to allow for
   appropriate review prior to your contract commitment.
 Ensure that reporting of costs for all Non-federal Facility events and Conferences are submitted by
   Component Heads no later than 45 days following the close of each fiscal quarter.

If you have questions, please let me know or your staff may contact Lori J. Armold, Assistant Director,
Financial Management Policies and Requirements Group, on (202) 616-5216.



                                                   95

                                                                                           [Attachment]

              Conference Planning, Conference Cost Reporting, and Approvals to Use

                        Non-federal Facilities Policy Executive Summary 


	 Consolidated Policy - The Conference Planning and Reporting has been combined with the Approvals
   to Use Non-federal Facilities Policy. Policy & Procedures Bulletin 06-12 has been rescinded.

	 Conference Definition (Section 5a) - The conference definition is broad and includes the training
   activities. Exclusions are defined.

	 Selecting a Location (Section 6f) - A location is comprised of both the city and the facility in which
   the conference will be held.

	 Calculating Conference Costs (Section 6f) - Components are required to be able to report actual cost
   for 13 cost categories.

	 Provided Meals and Refreshments (Section 7a) - Meals and refreshments may not be provided at
   government expense unless certain criteria is met.

	 Minimizing costs of Meals and Refreshments (Section 7b) - Meals and refreshments must fall within
   established thresholds.

	 Large Conferences (Section 8c) - The Component Procurement Chief must review and approve all
   conferences that exceed $500,000 or 500 attendees.

	 Conferences held by Cooperative Agreement (Section 9) - Different planning and reporting (Section
   l0b) requirements are explained.

	 Quarterly Reporting of Conference Costs (Section l0a) - Pursuant to Section 218 of the Consolidated
   Appropriations Act, Component Heads are required to report on all conferences exceeding $20,000.

	 Reporting Deadline (Sections l0a, b, and c) - Reports are due 45 calendar days after the end of each
   fiscal quarter.

	 Reporting on Events Held in Non-federal Facilities (Section 10c) - Component Heads are required to
   prepare a consolidated quarterly report of all events held in a non-federal facility rather than report
   after each event.

	 New Email Inbox - All non-federal facility requests and reports and conference reports must be sent
   to the new address entitled Conferences.and.Non-federal.Center@usdoj.gov. The previous email
   address, Non-fed.Facility.Reguest.Center@usdoj.gov, has been deactivated.

We understand that some components want to provide meals and refreshments to non-federal attendees
and object to the requirement that they may be provided only under certain conditions. The Office of
Legal Counsel recently reviewed their opinion in light of these concerns yet concluded there is no basis
for overturning their original conclusion.

[Note: June 5, 2008 Memorandum attached policy included at Appendix III]

                                                    96

                                                                                       APPENDIX V

             DEPUTY ATTORNEY GENERAL MEMORANDUM
                                                           U.S. Department of Justice
                                                           Office of the Deputy Attorney General
              


                                                           Washington, D.C. 20530


                                                         May 4, 2009


MEMORANDUM FOR HEADS OF DEPARTMENT COMPONENTS

FROM:	           David W. Ogden
                 Deputy Attorney General

SUBJECT: 	       Conference and Premium Class Travel Expenditures

    As the Department of Justice works to accomplish its vital mission on a daily basis, we must also
make certain we do so with a focus on accountability and transparency to the American taxpayers. As
Department leadership, we must ensure that our financial resources are utilized in the most advantageous
and responsible manner. I am writing to highlight two areas of significant fiscal importance that receive
significant attention from the Department's Office of the Inspector General, Congressional oversight
offices, and the Governmental Accountability Office. Component Heads must ensure that adequate
internal controls exist in these areas and authorizing officials are focused on their individual
responsibilities.

    Conferences: The Department spent over $47 million on conferences and training events in fiscal
    year 2008. Section 218 of the Department of Justice Appropriations Act, 2008 (Title II, Division B,
    Public Law 110-161), requires the Attorney General to submit quarterly reports to the Inspector
    General regarding the costs and contracting procedures for each conference held by the Department
    for which the cost to the government exceeds $20,000. Justice Management Division (JMD) Financial
    Management Policies and Procedures Bulletin (P&P) 08-08, Conference Planning, Conference Cost
    Reporting, and Approvals to Use Non-federal Facilities includes guidance for keeping conference
    costs to a minimum and avoiding potentially extravagant locations, along with ensuring the
    Department can fulfill the statutory reporting requirements. Important aspects of that policy that must
    be followed include:

    	 Conference locations are to be selected based on business need and minimization of travel and
       other costs.
    	 Locations and accommodations should not be selected based on their lavish or resort qualities.
       Component Heads are required to submit a written justification in advance if a proposed facility
       gives the appearance of being lavish or is a resort location. The Component Head approval cannot
       be re-delegated.



                                                   97

Memorandum for Heads of Department Components                                      Page 2
Subject: Conference and Premium Class Travel Expenditures

    	 Components must restrict the number of people traveling to conferences to the minimum
       necessary to accomplish the official purpose.
     Ensure the selected lodging location is within per diem rates.
     Meals should be provided on an infrequent basis and only as a working meal when necessary to
       accomplish the purpose of the event. Refreshments should be kept to an absolute minimum.
       Grant making organizations should instruct grant recipients that Department grant funding is not
       to be used for lavish food, refreshments, or entertainment purposes.
     Ensure that travelers are aware of their responsibility to reduce per diem when meals are provided
       at the conference.
     Ensure that reporting of costs for all non-federal facility events and conferences are submitted by
       Component Heads no later than 45 days following the close of each fiscal quarter.

    Premium Class Travel: The Federal Travel Regulations (FTR) require travel be accomplished by

    the means most advantageous to the government. For airfare, that means using government contract 

    coach fares unless certain circumstances make it absolutely necessary to use higher cost premium

    class fares. In response to January 2008 guidance from the Office of Management and Budget, the 

    JMD issued P&P 08-07, Use of Premium Class Travel Accommodations. Important aspects of the 

    policy include: 


      Premium class travel includes both business and first class accommodations. 

      Premium class travel must be authorized by the Component Head or Principal Deputy.

      Premium class travel must be authorized on a case by case basis with an acceptable justification 

       as stated in the FTR. The justification must be documented on the travel authorization.
    	 Business class travel justified on the basis of the 14-hour rule must demonstrate mission criteria
       and why coach travel, with or without a rest stop or rest period en route, cannot accomplish the
       official purpose for the travel. The 14-hour rule may not be used as a justification for first class
       travel

    In closing, I want to emphasize the need to maximize our financial resources, ensure we are prudent
in our spending, and avoid the fact or appearance of extravagant spending, especially during these
challenging financial times.




                                                    98

                                                                                     APPENDIX VI

                    ATTORNEY GENERAL MEMORANDUM




                                        January 21, 2011

MEMORANDUM FOR HEADS OF DEPARTMENT COMPONENTS
                AND UNITED STATES ATTORNEYS

FROM: 	                   THE ATTORNEY GENERAL

SUBJECT:                  Temporary Freeze of Hiring and Non-Essential Spending

    The Department is currently operating under a Continuing Resolution (CR) through March 4,
2011, with funding under the CR limited to last fiscal year's budget level. While we do not yet know
what action will be taken to fund the Department for the remainder of the year, there is a realistic
prospect that we will have to operate the entire year at last year's levels despite the higher cost of our
staffing and operations this year. Accordingly, I am ordering a Department-wide temporary freeze
on hiring. I am also ordering reductions to non-personnel spending.

    The actions I am taking, including the general freeze on hiring, are designed to keep the
Department operating effectively within constrained funding levels. They will also help us avoid
more severe measures such as employee furloughs. I am fully aware of the difficult situation this
creates for your operations and that many important activities will be curtailed. Nonetheless, we
must take these actions to maintain our essential public safety responsibilities and meet our
responsibility to ensure our financial solvency and accountability.

Temporary Hiring Freeze
   Effective immediately, I am directing a temporary freeze on all new hiring in all DOJ
Components. The following conditions will apply:

    1. 	 Written commitments formally issued by your component's servicing human resources office
         on or before the date of this memorandum will be honored.
    2. 	 Hiring for agents, deputy U.S. Marshals, intelligence analysts, and correctional officers is
         frozen, but essential backfills in these position categories, not to exceed current staffing
         levels or available funding, are authorized to maintain public safety and national security
         protections. Current staffing levels are defined as positions filled as of the pay period ending
         January 1, 2011 .
    3. 	 Attorney General Honors Program (HP) and Summer Legal Intern Program (SLIP) 

         commitments already built into this current budget cycle will be honored. 

    4. Hiring in the Working Capital Fund is frozen. Hiring in non-appropriated (e.g., fee-based)
         accounts is permitted subject to funding availability. Hiring with funding from reimbursable
         resources is subject to the same freeze restrictions as hiring with direct funding.

                                                   99

    5. 	 Career ladder promotions are not subject to the freeze.
    6. 	 Position changes within a component are not subject to the freeze since internal hires without
         backfill do not increase overall staffing levels, but any such changes must be within a
         component's available funding.
    7. 	 Conversion of personnel in career trainee/intern programs into permanent appointments (e.g.,
         conversion of Federal Career Intern participants, Presidential Management Fellows) are
         allowed.
    8. 	 Other personnel actions that are not impacted by the freeze include non-competitive
         temporary promotions not to exceed 120 days, within grade increases, payroll corrections,
         retirements, voluntary early retirements, voluntary separation incentive payments, and
         disciplinary/adverse actions.

    There may be hiring circumstances affected by external entities, e.g., the Merit Systems
Protection Board, the Equal Employment Opportunity Commission, etc. Similarly, there may be
hiring actions resulting from formal Reemployment Priority List actions. Consult the Justice
Management Division (JMD) Human Resources Staff for guidance in these special circumstances.

    I will consider a very limited number of exemptions from the freeze for individual positions, in
extraordinary circumstances and on a case-by-case basis. Requests must include the position
description and a justification regarding the critical need to fill the position, impact on mission if left
unfilled, and why current staff levels are not sufficient to fulfill the duties during the hiring freeze.
The request should also include confirmation that your component has available funding for the hire.
Please submit exemption requests to the JMD Deputy Assistant Attorney General/Controller.

Non-Personnel Expenses
    Also effective immediately and continuing through the remainder of FY 2011, components
should suspend all non-essential travel, training, and conferences. The number of Department
attendees at all conferences must be minimized. Component expenditures across the board - e.g.,
vehicles, employee permanent change-of-station moves, information technology (IT) projects,
equipment, supplies, contracts - should be held to essential needs. Given the difficult funding
environment, your reductions to non-personnel expenditures will help ensure you have the necessary
funds for staff and essential operations.

     Components are to manage their operations within apportioned budget authority. Component
full year operating plans should be formulated in a manner that avoids any reliance on staff furloughs
in order to maintain solvency.

   We anticipate revisiting the freeze and the other measures discussed above once we have a better
understanding of our full year funding situation; however, all restrictions described herein will
remain in effect until further notice. For questions regarding these subjects, please contact Lee
Lofthus, Assistant Attorney General for Administration, on 202-514-3101.




                                                   100

                                                                                 APPENDIX VII

                      JUSTICE MANAGEMENT DIVISION
                      RESPONSE TO THE DRAFT REPORT

                                                        U.S. Department of Justice
                                                        Justice Management Division
             


                                                        Washington, D.C. 20530
September 12, 2011


MEMORANDUM FOR CYNTHIA SCHNEDAR
               ACTING INSPECTOR GENERAL

                /s/
FROM:           Lee J. Lofthus
                Assistant Attorney General
                  for Administration

SUBJECT:        Response to the Office of the Inspector General’s Draft Audit Report: Department
                of Justice Conference Planning and Food and Beverage Costs


This responds to the Office of the Inspector General’s (OIG) draft audit report: Department of
Justice Conference Planning and Food and Beverage Costs. The OIG recommendation numbers
1 and 9 were addressed to the Justice Management Division and our responses to those
recommendations are presented below. Recommendations 2, 3, 4 and 10 were addressed to the
Office of Justice Programs (OJP) & the Office on Violence Against Women (OVW), and
recommendations 5, 6, 7, and 8 were addressed solely to the OJP. The OJP and OVW provided
separate memorandums to the OIG responding to the recommendations addressed to their
component, thus JMD is not providing specific additional responses to these recommendations.
JMD believes an important first step is that OJP and OVW have implemented the Departmental
meal and refreshment thresholds for FY 2011 agreements and is optimistic that it will further
ensure that conference costs are reasonable.

Recommendation 1: Work in cooperation with OJP, the OVW, and other awarding components
to ensure that conference cost reports include all salaries, benefits, and other costs charged to the
government by all associated funding recipients.

Response: The JMD concurs with the recommendation. JMD will continue to work with the
Department’s awarding components to ensure all award recipients submit complete and accurate
cost reports and include all salaries, benefits, and other costs charged to the government by the

                                                101

award recipients. In addition, by October 31, 2011, JMD will review the current conference
policy to determine if there are any revisions necessary related to reporting requirements for
award recipients.

Recommendation 9: Require that components and their event planners conduct a cost-benefit
analysis whenever they justify ordering food and beverages to obtain free meeting space for their
conferences.

Response: The JMD concurs with the recommendation. By October 31, 2011, JMD will issue
guidance to the Department components requiring them to conduct a cost-benefit analysis
whenever they justify ordering food and beverages to obtain free meeting space. Also by
October 31, 2011, JMD will review the current conference policy to determine if there are any
revisions necessary related to conducting cost-benefit analysis.

If you have any questions on this subject, please have your staff contact Melinda Morgan,
Director, JMD Finance Staff, on (202) 616-5809, or Christopher Alvarez, Deputy Director, JMD
Finance Staff, on (202) 616-5234.

cc:    	Raymond J. Beaudet
       Assistant Inspector General for Audit
       Office of the Inspector General

       Troy M. Meyer
       Regional Audit Manager
       Washington Regional Audit Office
       Offices of the Inspector General




                                               102

                                                                                APPENDIX VIII

                     OFFICE OF JUSTICE PROGRAMS
                    RESPONSE TO THE DRAFT REPORT

                                                       U.S. Department of Justice
                                                       Office of Justice Programs
            


                                                       Washington, D.C. 20531
August 31, 2011


MEMORANDUM TO:                Cynthia A. Schnedar
                              Acting Inspector General
                              United States Department of Justice

THROUGH:                      Raymond J. Beaudet
                              Assistant Inspector General for Audit
                              Office of the Inspector General
                              United States Department of Justice

                               /s/
FROM:                         Laurie O. Robinson
                              Assistant Attorney General

SUBJECT:                      Response to the Office of the Inspector General’s Draft Audit
                              Report, Department of Justice Conference Planning and Food
                              and Beverage Costs

This memorandum provides a response to the Office of the Inspector General’s (OIG’s)
August 12, 2011 draft audit report, entitled Department of Justice Conference Planning and
Food and Beverage Costs. The Office of Justice Programs (OJP) appreciates the opportunity to
review and comment on the draft report.

While OJP generally concurs with the recommendations and language included in this draft audit
report, we believe that clarification is needed with regard to grantees selected by OJP to conduct
conferences for the benefit of practitioners in the field. Specifically, OJP believes that applying
the term “external event planner” to such grantees is misleading, as it understates the role of
these organizations. OJP grantees are more than just event planners. These grantees are selected
for their substantive, programmatic knowledge and expertise; and for their ability to develop a
comprehensive training agenda that is evidence-based, and which focuses on building
practitioners’ skills in criminal and tribal justice systems, and responding to victims’ needs.

                                               103

Further, when the training focuses on Indian Country, the amount of substantive knowledge
required is even greater. Expertise in tribal culture, traditions, justice systems, and a myriad of
jurisdictional issues that typically attach to victimization of American Indians/Alaskan Natives
(AI/AN) is essential.

The draft audit report contains 10 recommendations and $134,432 in questioned costs, of which
Recommendation Numbers 2-8 and 10, and $134,432 in questioned costs pertains to OJP. For
ease of review, these recommendations are restated in bold and are followed by OJP’s response.

2.	    We recommend that OJP and OVW require that award recipients using DOJ funds
       to plan conferences track time and activities performed to plan conferences.

       The Office of Justice Programs agrees with the recommendation. By September 30, 2011,
       OJP will update its policies and procedures to require that award recipients, involved in
       planning OJP conferences, separately track time and activities related to conference
       planning. The Office of Justice Programs considers this recommendation resolved and
       requests written acceptance of this action from your office.

3.	    We recommend that OJP and OVW update guidance provided to award recipients
       to ensure that recipients report all costs associated with time spent planning
       conferences, including salaries and benefits.

       The Office of Justice Programs agrees with the recommendation. By September 30, 2011,
       OJP will update its policies and procedures to require that award recipients, involved in
       planning OJP conferences, separately track and report all costs associated with
       conference planning, including salaries and benefits. The Office of Justice Programs
       considers this recommendation resolved and requests written acceptance of this action
       from your office.

4.	    We recommend that OJP and OVW demonstrate that a training and technical
       assistance provider offers the most cost-effective logistical services before awarding
       a cooperative agreement that supports conference planning to such a firm.

       The Office of Justice Programs agrees with the recommendation. By December 31,
       2011, OJP will develop and implement a process for determining whether training and
       technical assistance providers offer the most cost-effective logistical services related to
       conference planning, prior to awarding cooperative agreements for this purpose. OJP
       will develop methods to evaluate the cost-effectiveness of the logistical component of
       these awards, which may include developing logistical services cost benchmarks, based
       upon past cooperative agreements and contracts data; or requiring award recipients, for
       certain types of conferences, to competitively bid the logistical services component of
       their awards. The Office of Justice Programs considers this recommendation resolved
       and requests written acceptance of this action from your office.




                                                104

5.	   We recommend that OJP remedy $3,454 in questioned costs, and ensure that event
      planners in the future attempt to minimize consultant travel costs, as applicable, by
      soliciting bids for sub-awards from entities that are closer to anticipated conference
      venues.

      The Office of Justice Programs agrees with the recommendation, and provides the
      following justification to support that the $3,454 in questioned travel costs are allowable
      under cooperative agreement number 2005-VR-GX-K001. OJP’s Office for Victims of
      Crime (OVC) conducted an in-depth review of all the facts associated with the $3,454 in
      questioned travel costs, associated with three separate trips the consultant billed to the
      cooperative agreement. OVC believes that executing the 2008 Indian Nations Conference
      required: 1) in-depth knowledge of the event location (including lodging and conference
      sites); 2) experience with Federal grant requirements; 3) substantive knowledge of Native
      American traditions and cultures; 4) expertise in multi-jurisdictional issues associated
      with crime in tribal communities; and 5) an overall understanding of the unique
      challenges that Alaska Natives face. The consultant selected was based in Anchorage,
      Alaska. Moreover, the following reasons support OVC’s decision to approve the hiring
      of the consultant in the event planner’s conference budget.

          	 The grantee indicated to OVC that the consultant was the only event planner who
             had the expertise and knowledge in all of the areas described above.
             Additionally, as the consultant had worked on earlier Indian Nations
             Conferences, they were able to assist the grantee in procuring lodging rates well
             below the government per diem rate. This resulted in substantial savings for
             conference attendees, including the grantee that paid the lodging costs of the
             trainers, and the various Federal agencies who sent employees to the conference.

          	 The grantee also had a branch office in Alaska. Several grantee employees in the
             Alaska office worked on the 2008 Indian Nations Conference with the contractor.
             As such, the grantee’s Alaska location was actually beneficial to the consultant’s
             overall effectiveness. The OIG report does not acknowledge the vital importance
             of including Alaska Native issues, Alaska Native presenters, and Alaska Native
             participants in the 2008 Indian Nations Conference. However, it should be noted
             that: (a) 229 of the 564 federally recognized tribes are located in Alaska; (b)
             many of the OVC tribal grantees (a primary target audience at the 2008 Indian
             Nations Conference) are located in Alaska. For example five of the 23 OVC
             Native American Children’s Justice Act (CJA) grantees were located in Alaska at
             the time of the conference; (c) presenters for 11 of the 60 conference workshops
             were located in Alaska; and (d) 75 of the 750 total conference participants were
             from Alaska.

         	 Finally, OVC determined that it was very important that the conference event
            planner be familiar with Alaska-specific issues, including unique Alaska travel
            issues.



                                             105

      OJP believes that the grantee would have had to spend substantially more money to
      obtain similar services from a local event planner. The consultant was hired under a firm
      fixed-price contract, which provided substantial cost-savings for OVC. Based on the
      cost of living in the Los Angeles area, the overall cost for hiring a consultant would have
      been much greater than in Alaska. Further, the number of people in the Los Angeles area
      with the necessary skills and knowledge – especially the necessary Indian country
      knowledge and experience, including the specific knowledge and experience of Alaska
      Natives – was extremely limited. As a result, OJP believes that the $3,454 in questioned
      travel costs were reasonable, necessary, and allowable under cooperative agreement
      number 2005-VR-GX-K001. Accordingly, the Office of Justice Programs requests
      closure of the $3,454 in questioned costs associated with this recommendation.

      Additionally, the Office of Justice Programs agrees that appropriate procedures should be
      implemented to ensure that event planners minimize future consultant travel costs, as
      applicable, by soliciting bids for sub-awards from entities that are closer to anticipated
      conference venues. As such, by September 30, 2011, OJP will update its policies and
      procedures to require that event planners attempt to minimize consultant travel costs, by
      soliciting bids for sub-awards from entities that are closer to anticipated conference
      venues. The Office of Justice Programs considers this recommendation resolved and
      requests written acceptance of this action from your office.

6.	   We recommend that OJP remedy $29,365 by justifying the need for costs associated
      with travel, lodging, and food and beverages for attendees at this planning meeting.

      The Office of Justice Programs agrees with the recommendation, and provides the
      following justification to support OVC’s approval of the $29,365 in travel, lodging, and
      food and beverage costs, charged to cooperative agreement number 2005-VR-GX-K001,
      for attendees at the pre-planning meeting for the 2008 Indian Nations Conference.

      The grantee conducted an in-person planning meeting at the direction of OVC. Although
      the grantee provided input, the OVC Director made the final decision, which included: 1)
      directing the grantee to hold the meeting; 2) selecting the attendees for the meeting; and
      3) authorizing the expenses for the meeting.

      In order to produce the most effective conference that also effectively addressed the
      myriad of complex jurisdictional issues, OVC determined that it was essential to bring
      together a proven group of experts in this field. This group considered earlier Indian
      Nations Conferences’ reports, agendas, and evaluations to craft effective training
      sessions. The planners also used this session to identify a list of proven, experienced
      trainers for the conference. Finally, the planners made critical decisions on training
      formats (i.e., lectures, plenary sessions, and workshops) and the conference agenda. The
      conference agenda was designed to meet gaps and the needs expressed by service
      providers, while the session formats were designed to produce the greatest level of
      understanding and applicability for attendees. Without the vast experience of these
      planners, the grantee’s and OVC’s planning efforts would have been severely
      constrained.

                                             106

       Further, as part of its conference planning process, OVC typically requires an initial in-
       person, intensive planning meeting. Neither OVC, nor most tribal organizations, had
       video-conferencing capacity at the time of the meeting. Therefore, at a minimum, trying
       to conduct a planning meeting by phone for two full days would not have been effective.
       OVC believes that the planning meeting served as the foundation for a highly successful
       conference. As a result, OJP believes that the $29,365 in questioned travel, lodging, and
       food and beverage costs were reasonable, necessary, and allowable under cooperative
       agreement number 2005-VR-GX-K001. Accordingly, the Office of Justice Programs
       requests closure of this recommendation.

7.	    We recommend that OJP ensure that external event planners justify the need for
       travel, lodging, and food and beverage costs associated with future conference
       planning meetings.

       The Office of Justice Programs agrees with the recommendation. By September 30,
       2011, OJP will update its policies and procedures to require that external event planners
       justify the need for travel, lodging, and food and beverage costs associated with future
       conference planning meetings. The Office of Justice Programs considers this
       recommendation resolved and requests written acceptance of this action from your office.
8.	    We recommend that OJP remedy $102,622 in questioned costs and work with the
       event planner to approve a future indirect cost rate or allocation plan.

       The Office of Justice Programs agrees with the recommendation. We will coordinate
       with the grantee to remedy the $102,622 in questioned costs related to unapproved
       indirect costs associated with cooperative agreement number 2005-VR-GX-K001. If the
       costs are determined to be unallowable, we will request that the grantee return the funds
       to the DOJ, and submit a revised final Federal Financial Report for the agreement. The
       Office of Justice Programs considers this recommendation resolved and requests written
       acceptance of this action from your office.
10.	    We recommend that OJP and the OVW establish and implement guidelines on
       conference food and beverage limits for conferences supported with cooperative
       agreement funds congruent with DOJ-wide rules.

       The Office of Justice Programs agrees with the recommendation. All cooperative
       agreements awarded during the fiscal year 2011 cycle, as well as future cooperative
       agreements, will include the following special condition:

              Conference Cost Limitations for Refreshments and Meals

              “Recipient understands and acknowledges that for purposes of this cooperative
              agreement, food and/or beverage expenses are deemed reasonable and allowable
              for training sessions, meetings, conferences, or other similar functions only to the
              extent that the: 1) break or other refreshment costs, plus any hotel service costs
              (e.g., labor cost for room setup), do not exceed 23 percent of the current General

                                              107

               Services Administration (GSA) Meals and Incidental Expenses (M&IE) rate per
               attendee per day; and 2) the cost of any individual meal, plus any hotel service
               costs (e.g., labor cost for room setup), does not exceed 150 percent of the GSA
               M&IE rate for that meal in that locality per attendee. Current GSA M&IE rate
               breakdown by meal and by locality can be found at
               http://www.gsa.gov/portal/content/101518.”

        In addition, food and beverage guidance was expanded in the 2011 version of the OJP
        Financial Guide. The updated guidance is accessible on the web at
        http://www.ojp.usdoj.gov/financialguide/PostawardRequirements/chapter15page3.htm.
        Accordingly, the Office of Justice Programs requests closure of this recommendation.

Thank you for your continued support and assistance. If you have any questions regarding this
response, please contact Maureen A. Henneberg, Director, Office of Audit, Assessment, and
Management, on (202) 616-3282.

Attachments

cc: 	   Mary Lou Leary
        Principal Deputy Assistant Attorney General

        Phillip K. Merkle

        Acting Deputy Assistant Attorney General 

         for Operations and Management 


        Denise O’Donnell 

        Director

        Bureau of Justice Assistance 


        Jeffrey W. Slowikowski 

        Acting Administrator 

        Office of Juvenile Justice and Delinquency Prevention


        Joye Frost        

        Acting Director 

        Office for Victims of Crime 


        Linda M. Baldwin 

        Director

        Office of Sex Offender Sentencing, Monitoring, Apprehending, 

           Registering, and Tracking

        Leigh Benda 

        Chief Financial Officer





                                              108

Maureen A. Henneberg
Director
Office of Audit, Assessment, and Management

Jeffery A. Haley
Deputy Director, Audit and Review Division
Office of Audit, Assessment, and Management

Louise M. Duhamel, Ph.D.
Acting Assistant Director, Audit Liaison Group
Justice Management Division

Lee J. Lofthus
Assistant Attorney General for Administration
Justice Management Division

Karol V. Mason
Deputy Associate Attorney General
Office of the Associate Attorney General

OJP Executive Secretariat
Control Number 20111510




                                     109

                                                                                APPENDIX IX

                OFFICE ON VIOLENCE AGAINST WOMEN
                  RESPONSE TO THE DRAFT REPORT

                                                       U.S. Department of Justice
                                                       Office on Violence Against Women
             


                                                       Washington, D.C. 20530

September 1, 2011 



MEMORANDUM 


TO:             Troy M. Meyer
                Regional Audit Manager
                Washington Regional Audit Office
                Office of the Inspector General

                /s/
FROM:           Susan B. Carbon
                Director

SUBJECT:        Audit of Department of Justice Conference Planning and Food and Beverage
                Costs

The Office on Violence Against Women (OVW) is providing this response to the above-titled
audit. We will first provide a general response and then respond to the specific
recommendations.

General Discussion

In general, OVW does not engage “event planners” or put on conferences. The conference
discussed in the report was organized by the National Council of Juvenile and Family Court
Judges (NCJFCJ) and the Family Violence Prevention Fund (FVPF) to train judges who handle
domestic violence cases. The cooperative agreement for this conference was part of OVW’s
Training and Technical Assistance initiative (TTA). Each year, OVW puts out a competitive
solicitation for TTA, identifying the categories of grantees, the purpose areas for the grant
programs, and the priority areas that OVW has identified in terms of needs for such training and
assistance. Recipients are selected based on such factors as expertise in the subject matter,
ability to carry out the training or technical assistance described, and the need for the project.
The budget is also evaluated for cost-effectiveness.


                                               110

OVW’s use of cooperative agreements for its technical assistance awards was not an attempt to
circumvent JMD’s 2008 policy revision. Since 1996, when the Office first began making
training and technical assistance awards, it has consistently used cooperative agreements as the
funding instrument. OVW selected the vehicle of a cooperative agreement rather than a grant
due to the high degree of OVW involvement in these projects. However, as with a grant, a
technical assistance project is the recipient’s project. In fact, all cooperative agreements,
including the ones examined for this audit include the following special condition:

       All materials and publications (written, visual, or sound) resulting from award
       activities shall contain the following statements: "This project was supported by
       Grant No. 2006-WT-AX-K046 and 2008-TA-AX-K038 awarded by the Office on
       Violence Against Women, U.S. Department of Justice. The opinions, findings,
       conclusions, and recommendations expressed in this
       publication/program/exhibition are those of the author(s) and do not necessarily
       reflect the views of the Department of Justice, Office on Violence Against
       Women.

Any materials produced for the judicial training institutes should have had this language, making
it clear that this was not an OVW conference.

Specific Recommendations

OVW continues to be committed to policies and guidelines that ensure costs for conferences,
trainings, and other events are kept as low as possible. Below are our responses to the specific
recommendations in the report:

I.     External Event Planning

       OIG Recommendation Number 2: Require that award recipients using DOJ funds to
       plan conferences track time and activities performed to plan conferences.

       OVW will add a special condition to all cooperative agreements that include an element
       of conference planning requiring that they track time and activities for the logistics of
       their events separate from the substantive portion of the events. This special condition
       will apply to cooperative agreements funded under the FY2011 appropriations and later.

       OIG Recommendation Number 3: Update guidance provided to award recipients to
       ensure that recipients report all costs associated with time spent planning conferences,
       including salary and benefits.

       OVW will provide updated guidance that the conference reporting special condition
       includes reporting all costs associated with time spent planning conferences, including
       salary and benefits, and that the new condition will require them to track time and
       activities separate from activities spent on substantive matters of the cooperative
       agreement.



                                               111

      In addition, OVW plans to address this issue at a November 14-16, 2011 meeting with its
      technical assistance providers.

      OIG Recommendation Number 4: Demonstrate that a training and technical assistance
      provider offers the most cost-effective logistical services before awarding a cooperative
      agreement that supports conference planning to such a firm.

      As discussed above, OVW is not awarding cooperative agreements for the purpose of
      conference planning but for a substantive training and technical assistance purpose. We
      do evaluate the cost-effectiveness of the proposals, but each recipient chooses the method
      for delivery of the technical assistance, whether through webinars, teleconferences or in-
      person and justifies that method. In addition, the recipient proposes how they will meet
      their logistical needs, whether through in-house support or through a sub-contract.
      Although cost-effectiveness is one factor, it is also important to weigh whether the
      provider is substantively qualified to provide the technical assistance that they are
      proposing, whether they will be able to reach the audience they plan to, and whether there
      is a need for the project. In this example, these organizations have a wealth of experience
      working with judges and on the subject matter and there is evidence of the harm that can
      come to victims when judges do not understand the complex dynamics of domestic
      violence. We have experienced over the years that judges learn best in person and from
      other judges, which is why this is an in person training.

      All solicitations, including TTA make it clear that we can negotiate budgets, including to
      reduce unnecessary costs. Part of our review of each application includes a
      comprehensive review of the budget to ensure, among other things that they are cost-
      effective. We often reduce funding amounts to eliminate costs that are not cost-effective.

II.   Food and beverages

      OIG Recommendation 11: Establish and implement guidelines on conference food and
      beverage limits congruent with DOJ-wide rules for conferences supported with
      cooperative agreement funds.

      Beginning June 1, 2010, OVW’s own Grants Financial Management Division (GFMD)
      became operational and began reviewing the budgets for applications recommended for
      award, a task that previously had been performed by OJP’s OCFO. Starting with Fiscal
      Year 2010, GFMD completed OVW budget reviews and applied the JMD food and
      beverage rules to all cooperative agreements as well as making sure that the provision of
      food and beverages is linked to dissemination of technical information as required by
      Cost Principles for Nonprofit Organizations at 2 CFR Part 230, Appendix B. OVW is
      currently in the process of the final review and approval of its own Financial Guide, and
      it will be clear that the food and beverage guidelines apply to grants as well as
      cooperative agreements.

      To eliminate the possibility of any possible confusion about the application of the JMD
      food and beverage rules, OVW will add a new special condition mandating compliance

                                             112

with those rules to all technical assistance cooperative agreements awarded from FY
2011 appropriations.

Finally, at OVW’s upcoming meeting with its technical assistance providers, to be held
November 14-16, 2011, OVW’s GFMD staff will provide training for these providers on
how to implement cost-effective conference planning practices, including applying the
JMD food and beverage rules.




                                      113

                                                                  APPENDIX X

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Justice
Management Division (JMD), which is responsible for implementing DOJ-wide
financial policies, and the 9 components that sponsored the 10 conferences
reviewed by this audit. We received responses from the three components
that received report recommendations – JMD, the Office of Justice Programs
(OJP), and the Office on Violence Against Women (OVW). The JMD response
is incorporated in Appendix VII, the OJP response is incorporated in
Appendix VIII, and the OVW response is incorporated in Appendix IX.

      The responses from OJP and the OVW addressed information in our
report that did not pertain to our recommendations. The next two sections
present our analysis first of OJP’s response and second of OVW’s response.
The third section describes actions taken by JMD, OJP, and the OVW to
address report recommendations.

Analysis of OJP’s Response

       In its response, OJP stated that it believes a clarification is needed
with regard to applying the term “external event planner” to award
recipients that work to plan conferences and meetings. OJP highlighted that
its award recipients were training and technical service providers and
therefore “more than just event planners.” OJP stated that as a result,
referring to these groups as “event planners” is misleading because such a
designation understates both the role these organizations have as training
and technical assistance providers and the substantive knowledge and
programmatic expertise they maintain.

      This report stresses the important role of training and technical
assistance providers and their focused programmatic expertise.
Nevertheless, we remain concerned about OJP’s hiring of such organizations
to perform the logistical services associated with hosting conferences, such
as selecting venues and negotiating food, lodging, and meeting space prices
with hotels, that do not require such programmatic expertise. We believe
that efficient and effective logistical conference planning requires a different
cohort of skills and specialties that may not be offered by training and
technical service providers. Such skills include how best to: (1) negotiate
low lodging and meeting space prices, (2) use technological solutions to

                                      114

minimize travel costs for planning purposes, and (3) ensure that possible
locations have the infrastructure necessary (airports, hotels, and
restaurants) to host a major event.

       In addition, the fact that training and technical assistance providers
may be focused more on programmatic instead of logistical services is
underscored by the disparate indirect rates these organizations charged OJP
to provide logistical services. These indirect rates appeared geared to
support programmatic functions, which traditionally require higher
supporting costs, than logistical event planning services. As such, the report
concludes that because OJP hired training and technical assistance providers
to perform logistical conference planning without first ascertaining whether
firms that specialized in event planning could have offered such services
more cost effectively and at lower rates, OJP was not positioned to show
that it minimized conference costs.

Analysis of OVW’s Response

       In its response, the OVW stated that it does not engage with “event
planners” or otherwise put on conferences. Rather, the OVW stated that
even though the conference was funded through a cooperative agreement, it
was organized by training and technical assistance providers selected
following a competitive solicitation. The OVW also noted that it did not use
cooperative agreements for its technical assistance awards to try to
circumvent meal and refreshment cost limits. The OVW added that it
included a special condition in its awards that “the opinions, findings,
conclusions, and recommendations” of the event did not necessarily reflect
its views.

      We note that the training and technical assistance providers served as
the event planners because they performed both the logistical and
programmatic aspects of the conference. Although our report does take
issue with the expensive food and beverages served at the event, it does not
dispute: (1) the method by which the OVW selected its training and
technical assistance providers; (2) the programmatic purpose of the event or
the use of cooperative agreements for programmatic planning; or (3) “the
opinions, findings, conclusions, and recommendations” exchanged at the
event. This is because such items were beyond the scope of this review.

      We note that the OVW response stated that the OVW decided to award
the project via a cooperative agreement (instead of a grant or contract) due
to the “high degree” of anticipated OVW involvement in the project.
Because the conference was funded with OVW program funds, the OVW had
an important responsibility to provide stewardship over how conference

                                     115

funds were used regardless of whether or not it directly “put on” the
conference. DOJ components using funds to sponsor conferences have a
responsibility to: (1) minimize conference planning costs; and (2) ensure
the food and beverages provided are incidental, reasonable, and only
provided at work-related events. This responsibility, coupled with OVW’s
stated “high degree” of involvement in the project, means that the OVW
cannot absolve itself from how its program funds were used to pay for
expensive food and beverages.

Summary of Actions Necessary to Resolve and Close the Report

  1.	 Resolved. JMD concurred with our recommendation to work in
      cooperation with OJP, the OVW, and other awarding components to
      ensure that conference cost reports include all salaries, benefits, and
      other costs charged to the government by all associated funding
      recipients. JMD stated in its response that it will continue to work
      with DOJ awarding components to ensure all award recipients submit
      complete and accurate cost reports and include all salaries, benefits,
      and other costs charged to the government by the award recipients.
      JMD also stated that by October 31, 2011, it will review the current
      conference policy to determine if there are any revisions necessary
      related to reporting requirements for award recipients.

       This recommendation can be closed when: (1) we receive evidence
       that JMD has adequately worked with awarding components to
       ensure complete and accurate conference costs reports and (2) JMD
       provides evidence of a review of the current conference policy and
       documentation determining whether revisions are necessary.

  2.	 Resolved. OJP and the OVW concurred with our recommendation to
      require that award recipients using DOJ funds to plan conferences
      track the time and activities performed to plan conferences. OJP
      stated in its response that it will update its policies and procedures
      by September 30, 2011. The OVW stated in its response that it will
      add a special condition to its future cooperative agreements.

       This recommendation can be closed when we receive evidence that
       OJP and the OVW have developed and implemented these policies to
       ensure that award recipients track time and activities performed to
       plan conferences.




                                    116

3.	 Resolved. OJP and the OVW concurred with our recommendation to
    update guidance provided to award recipients to ensure that
    recipients report all costs associated with time spent planning
    conferences, including salaries and benefits. OJP stated in its
    response that it will update its policies and procedures by
    September 30, 2011. The OVW stated in its response that it will
    provide updated guidance, which it plans to address at a November
    2011 meeting with its technical assistance providers.

    This recommendation can be closed when we receive evidence that
    OJP and the OVW have updated guidance to ensure that award
    recipients report all costs associated with time spent planning
    conferences.

4.	 Unresolved. We recommended that OJP and the OVW demonstrate
    that a training and technical assistance provider offers the most cost-
    effective logistical services before awarding a cooperative agreement
    that supports conference planning to such a firm. This
    recommendation is resolved with regard to OJP, but is unresolved
    with regard to the OVW.

    OJP concurred with our recommendation and stated that it will
    develop and implement a process to evaluate the cost-effectiveness
    of these logistical services by December 31, 2011.

    The OVW did not concur with this recommendation. Instead, the
    OVW stated that although it evaluates the cost-effectiveness of
    training and technical assistance proposals, the recipient chooses the
    method by which it delivers the technical assistance. The OVW
    added that the recipient also proposes how it will meet the
    conference’s logistical needs, whether through in-house support or
    through a sub-contract. Overall, the OVW stated that it is important
    to weigh whether the provider is substantively qualified to provide
    the technical assistance and emphasized that its cooperative
    agreements are awarded for a substantive training and technical
    assistance purpose rather than for conference planning purposes.

    Our report does not discredit the importance of using cooperative
    agreements as a vehicle to support programs needing the highly
    specialized subject-matter expertise of these training and technical
    assistance providers. We further do not question the programmatic-
    based funding provided to such firms. However, as stated
    previously, we are concerned with the cost-effectiveness of having
    training and technical assistance providers also offer logistical

                                  117

    conference planning services such as selecting venues and
    negotiating of meal and refreshment costs. The report found that
    training and technical assistance providers charge high indirect cost
    rates, which are based on maintaining the specialized services
    provided by training and technical service providers. Such skills are
    not, in our opinion, necessary to provide efficient and effective
    logistical event planning services.

    Moreover, although the OVW stated that it is the responsibility of the
    recipient to decide how to meet its logistical needs, as the awarding
    agency, the OVW must be responsible for its funding and ensure it is
    used in a cost-effective manner. As such, the report recommends
    that the OVW evaluate the cost-effectiveness of using training and
    technical assistance providers to perform logistical services before
    awarding cooperative agreements to such firms.

    Therefore, although this recommendation is resolved with regard to
    OJP, it is unresolved with regard to the OVW. The OVW can resolve
    this recommendation when we receive evidence that it agrees to
    assess the cost-effectiveness of using training and technical
    assistance providers to provide logistical event planning services.
    With regard to OJP, this recommendation can be closed when we
    receive evidence that OJP has adequately implemented procedures to
    evaluate the cost-effectiveness of logistical services before awarding
    cooperative agreements to such firms.

5. 	 Resolved. OJP concurred with our recommendation to remedy
     $3,454 in questioned costs and ensure that event planners in the
     future attempt to minimize consultant travel costs, as applicable, by
     soliciting bids for sub-awards from entities that are closer to
     anticipated conference venues. OJP stated that it will update its
     policies and procedures to require that event planners attempt to
     minimize consultant travel costs by September 30, 2011. The policy
     will require that event planners solicit bids for sub-awards from
     entities that are closer to anticipated conference venues.

    However, OJP stated in its response that the $3,454 in questioned
    travel costs were reasonable, necessary, and allowable under
    cooperative agreement number 2005-VR-GX-K001. OJP reported
    that the award recipient executing the 2008 Indian Nations
    Conference required: (1) in-depth knowledge of the event location
    (including lodging and conference sites), (2) experience with Federal
    grant requirements; (3) substantive knowledge of Native American
    traditions and cultures, (4) expertise in multi-jurisdictional issues

                                  118

associated with crime in tribal communities, and (5) an overall
understanding of the unique challenges that Alaska Natives face.
According to OJP, the award recipient indicated that the consultant
(who resided in Anchorage, Alaska) was the only event planner who
had the expertise and knowledge in all of the areas described above.
Because the consultant had worked on earlier Indian Nations
Conferences, OJP stated that the consultant was able to negotiate
lodging rates well below the government per diem rate from the
venue, which resulted in substantial savings. OJP also stated that it
believed that the award recipient would have had to spend
substantially more money to obtain similar services from a consultant
that lived closer to the venue (in the Los Angeles area) due to the
high cost of living in Los Angeles and that number of people in the
Los Angeles area with the necessary skills and knowledge was
extremely limited.

OJP’s response also stressed the major role that Alaska Native
issues, presenters, and participants had in the 2008 Indian Nations
Conference. OJP noted that 229 of the 564 federally recognized
tribes are located in Alaska. In addition, many of the Office of
Victims of Crime tribal grantees (a primary target audience of the
2008 Indian Nations Conference) are located in Alaska.

Our report does not dispute that the consultant maintained the skills
OJP says were required to provide logistical services for the event.
Instead, the report questions: (1) why the award recipient hired a
consultant that lived in Anchorage, Alaska, to help plan a conference
it knew was to be held in Palm Springs, California; and (2) the need
of the consultant to travel three times from Alaska to California. The
aforementioned reasons offered by OJP do not justify or address
either of these concerns. In addition, because the consultant had
knowledge of the hotel from prior conferences, we believe that the
consultant should not have needed to travel to Palm Springs,
California three times to perform the logistical services under the
sub-agreement.

In addition, the consultant was hired under a firm-fixed price
agreement and the award recipient did not openly solicit applications
from others to procure this consultant. An open solicitation would
have provided an opportunity for all interested parties to apply for
the sub-award. Because of this, neither OJP nor the award recipient
can affirmatively demonstrate that: (1) the consultant was the only
entity that had the experience required; and (2) no other entity


                             119

    closer to the venue, regardless of whether the entity was in the Los
    Angeles area or Alaska, would have had comparable experience.

    According to documents received from the award recipient, the
    primary responsibility of the hired consultant was to serve as a “hotel
    liaison” and provide logistical conference planning services.
    Considering the role maintained by the primary award recipient, OVW
    has not demonstrated why substantive knowledge of Alaska Native
    traditions and cultures, expertise in multi-jurisdictional issues
    associated with crime in tribal communities, and an overall
    understanding of the unique challenges that Alaska Natives face were
    necessary requirements for the consultant. Even if these
    requirements are prerequisites, the fact that the consultant met them
    does not justify that the consultant took three trips from Anchorage,
    Alaska, to Palm Springs, California, to perform pre-conference
    logistical services.

    This recommendation can therefore be closed when OJP:
    (1) remedies the $3,454 in questioned costs, and (2) provides
    evidence that policies and procedures have been updated to require
    that event planners attempt to minimize consultant travel costs by
    soliciting bids for sub-awards from entities that are closer to
    anticipated conference venues.

6. 	 Resolved. OJP concurred with our recommendation to remedy
     $29,365 by justifying the need for costs associated with travel,
     lodging, and food and beverages for attendees at this planning
     meeting. OJP stated in its response that $29,365 in travel, lodging,
     and food and beverage costs, charged to cooperative agreement
     number 2005-VR-GX-K001, for attendees at the pre-planning
     meeting for the 2008 Indian Nations Conference were reasonable,
     necessary, and allowable, and it provided justifications for the costs.

    OJP reported that to produce the most effective conference that
    addressed the myriad of complex jurisdictional issues, OJP
    determined that it was essential to bring together a proven group of
    experts with vast experience. OJP also reported that its Office for
    Victims of Crime (OVC) typically requires an initial in-person,
    intensive planning meeting and neither OVC, nor most tribal
    organizations, had adequate video-conferencing capacities at the
    time of the meeting. Because OVC believed that trying to conduct a
    2-day planning meeting by phone would be ineffective, OJP stated
    that the Director of OVC asked the grantee to hold the planning
    meeting, selected its attendees, and authorized its expenses.

                                   120

    The audit report stresses that planning meetings with responsible
    officials and experts represent important opportunities for sponsoring
    components to gauge the conference’s potential programmatic
    success. However, given that this was the 11th time this conference
    occurred and at least the third time this conference was located at
    the same venue, we do not believe that such an extensive in-person
    meeting in Palm Springs, California, was necessary. While
    technology solutions may have been unavailable at the time, we do
    not believe that having the planning meeting in Palm Springs in
    January and February, incurring expensive travel costs, and
    providing food and beverages was necessary to accomplish program
    objectives. Therefore, we do not believe that this information
    adequately justifies the award recipient spending $29,365 on travel,
    lodging, and food and beverage costs for the planning meeting.

    As a result, this recommendation can be closed when we receive
    evidence that OJP has remedied the $29,365 in questioned costs.

7. 	 Resolved. OJP concurred with our recommendation to ensure that
     external event planners justify the need for travel, lodging, and food
     and beverage costs associated with future conference planning
     meetings. OJP stated in its response that by September 30, 2011, it
     will update its policies and procedures to require that external event
     planners justify the need for travel, lodging, and food and beverage
     costs associated with future conference planning meetings.

    This recommendation can be closed when we receive evidence that
    OJP’s policies and procedures have been updated to require that
    external event planners justify the need for travel, lodging, and food
    and beverage costs associated with future conference planning
    meetings.

8. 	 Resolved. OJP concurred with our recommendation to remedy
     $102,622 in questioned costs related to unapproved indirect costs.
     OJP stated in its response that it will coordinate with the grantee to
     remedy the $102,622 in questioned indirect costs that were charged
     to cooperative agreement number 2005-VR-GX-K001. If the costs
     are determined to be unallowable, OJP will request that the grantee
     return the funds to the DOJ, and submit a revised final Federal
     Financial Report for the grant.

    This recommendation can be closed when we receive evidence that 

    OJP and has worked with the event planner to remedy $102,622 in 


                                  121

           unapproved indirect costs. We note that such an effort should also
           address how the organization should properly allocate indirect costs
           on future OJP awards.

   9. 	 Resolved. JMD concurred with our recommendation to require that
        components and their event planners conduct a cost-benefit analysis
        whenever they justify ordering food and beverages to obtain free
        meeting space for their conferences. JMD stated in its response that
        by October 31, 2011, it will issue guidance to DOJ components
        requiring them to conduct a cost-benefit analysis when justifying
        ordering food and beverages to obtain free meeting space. Also, by
        October 31, 2011, JMD stated that it will review the current
        conference policy to determine if there are any revisions necessary
        related to conducting a cost-benefit analysis.

           This recommendation can be closed when: (1) we receive evidence
           that JMD has implemented guidance to DOJ components requiring
           them to conduct a cost-benefit analysis, and (2) JMD provides
           evidence of a review of the current conference policy and
           documentation determining whether revisions are necessary.

   10. Resolved.	 OJP and the OVW concurred with our recommendation to
       establish and implement guidelines regarding conference food and
       beverage limits for conferences supported with cooperative
       agreement funds congruent with DOJ-wide rules.55 OJP stated in its
       response that all cooperative agreements awarded during the fiscal
       year 2011 cycle, as well as future cooperative agreements, will
       include a new special condition relating to these cost limitations. The
       OVW stated in its response that it will clearly implement these
       limitations in its own Financial Guide, which is currently in the
       process of final review and approval. The OVW also stated that it will
       add a new special condition mandating compliance with these rules
       to all technical assistance cooperative agreements awarded from FY
       2011 appropriations. Finally, the OVW stated that its staff will
       provide training to these providers to implement cost-effective
       conference planning practices.

           This recommendation can be closed when we receive evidence that
           OJP and the OVW have established and implemented guidelines


      55
         In OVW’s response it appears to inadvertently refer to recommendation 10 as
recommendation 11. Because this report only includes 10 recommendations and the text of
OVW’s response clearly refers to recommendation 10, we considered this to be a
typographical error.

                                         122

regarding conference food and beverage limits for conferences
supported with cooperative agreement funds.




                            123

